1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 13-12034
D.C. Docket No. 3:09-cv-00074-WSD
FREDERICK R. WHATLEY,
Petitioner-Appellee
Cross Appellant,
versus
WARDEN, GEORGIA DIAGNOSTIC
AND CLASSIFICATION CENTER,
Respondent-Appellant
Cross Appellee.
Appeals from the United States District
Court for the Northern District of Georgia
(June 20, 2019)
Before
TJOFLAT,
Circuit Judges.

JORDAN,

and

HULL,

2a
TJOFLAT, Circuit Judge:
Frederick R. Whatley (“Petitioner”) murdered a
bait shop owner in Georgia in 1995. He was
convicted and sentenced to death.1 After the
Supreme Court of Georgia affirmed his convictions
and death sentence, Whatley v. State, 509 S.E.2d 45,
53 (Ga. 1998), he petitioned the U.S. District Court
for the Northern District of Georgia for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254. He
alleged that his lawyer provided ineffective
assistance of counsel2 (1) by failing to investigate
and present mitigating evidence during the penalty
phase and (2) by failing to object when he testified
before the jury during the penalty phase in shackles.
The District Court granted relief on the first claim
and denied relief on the second. Both parties appeal.

Along with malice murder, Petitioner was convicted of five
other offenses, all committed in conjunction with the murder:
“aggravated assault (two counts), armed robbery, motor vehicle
hijacking, and possession of a firearm during the commission of
a crime.” Whatley v. State, 509 S.E.2d 45, 47–48 (Ga. 1998). He
received a life sentence for the armed robbery offense and
terms of imprisonment for the remaining offenses. Id. at 48.
1

The indictment also charged Petitioner (1) with being a felon in
possession of a firearm, but the State dismissed the charge
before trial, and (2) with felony murder, but the jury acquitted
on this charge. Id. at 48 n.1.
The Sixth Amendment was made applicable to the states
through the Due Process Clause of the Fourteenth Amendment.
Parker v. Gladden, 385 U.S. 363, 364, 87 S. Ct. 468, 470 (1966)
(per curiam). The Supreme Court laid out the standard that
governs ineffective assistance claims in Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984).
2

3a
We reverse on the first claim and affirm on the
second.
Our opinion proceeds in seven parts. Part I
recounts the trial proceedings, with an emphasis the
penalty phase. Part II briefly describes the direct
appeal. Part III explains the evidence that Petitioner
presented to the state habeas court and notes that
Court’s decision. Part IV explains the Supreme
Court of Georgia’s decision, which is the decision we
effectively review on appeal. Part V recounts the
District Court’s decision, and Part VI takes up the
two issues on appeal. Part VII concludes.
I.
Petitioner was indicted for murder in June of
1996. Whatley, 509 S.E.2d at 48 n.1. The Superior
Court for Spaulding County, Georgia, appointed
Johnny B. Mostiler (“Trial Counsel”), the Spaulding
County Public Defender, to represent Petitioner 12
days after his arrest. Whatley v. Schofield, No. 99-V550, slip op. at 5 (Ga. Super. Ct. Nov. 29, 2006)
(order denying habeas relief). He was convicted by a
jury in January of 1997. Whatley, 509 S.E.2d at 48
n.1.
This appeal focuses on how Trial Counsel
performed in preparing for the penalty phase of
Petitioner’s trial and in representing Petitioner
during that phase. We must analyze Trial Counsel’s
conduct under the performance standard set out in
Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052 (1984). To decide whether Petitioner satisfied
Strickland’s prejudice standard, we must consider

4a
the strength of the State’s case. Specifically, what
should Trial Counsel have anticipated the State
would present in the guilt-innocence phase and, if
the jury found Petitioner guilty of murder, what
additional evidence would the State present in the
penalty phase to persuade the jury to recommend a
death sentence?3 The Superior Court of Butts
County (the “State Habeas Court”), which heard
Petitioner’s habeas petition, described Trial
Counsel’s decision this way:
[Trial Counsel] was confronted with a
conundrum of trying to defend a death
penalty case by denying the obvious guilt of
his client, and asserting defenses where
there were none and then trying to convince
the jury of the defendant’s credibility and
worthiness as a human being when it came
to the [penalty] phase of the trial.
Whatley, slip op. at 5 (order denying habeas relief).
We recount the guilt-innocence phase and the
penalty phase separately.

The district attorney who prosecuted the case against
Whatley had an “open file” policy in cases in which Trial
Counsel represented the defendant, and this case was no
exception. Whatley, slip op. at 5 (order denying habeas relief).
“This meant that, by having access to the prosecution’s files,
[Trial Counsel] did not have to spend a great deal of time to
determine what the prosecution’s evidence was likely to be.” Id.
at 5-6. In addition to accessing the prosecutor’s files, Trial
Counsel had the unlimited services of his Public Defender’s
Office Investigator. Id. at 5.
3

5a
A.
Trial Counsel defended Petitioner by putting the
State to its proof—that appeared to be the only
available defense strategy.
At the time of the murder, Petitioner had
recently arrived in Georgia after escaping from a
halfway house in Washington, D.C. Shortly after
arriving, Petitioner told a cousin that he needed a
gun to “make a lick,” to commit a robbery.
Here’s how he made the lick. He walked into a
bait shop and pulled out a gun. Whatley, 509 S.E.2d
at 48. He forced an employee to lie down behind the
counter, pressed the gun against the employee’s
head, and told another person, the storeowner, to
give him the money from the register. Id. The
storeowner complied and put the money in a sack on
the counter; Petitioner grabbed the sack and fired
two shots. Id. One shot hit the storeowner in the
chest, “pierc[ing] his left lung.” Id. Petitioner fired
this shot, according to expert testimony, while
standing just 18 inches from the storeowner. Id. The
second shot missed its mark—Petitioner tried to
shoot the employee (still lying behind the counter) in
the head, but the bullet hit the counter and missed.
Id.
Petitioner left the store and ran into a man who
was getting out of his car. Id. Petitioner forced the
man back inside the car and told the man to take
him where he wanted to go. Id. Before the car could
leave, the “mortally wounded” storeowner grabbed a
gun from the store and fired “several shots” at

6a
Petitioner. Id. Petitioner returned fire, and the
storeowner eventually collapsed and died from
bleeding caused by the first gunshot. Id. Petitioner
dropped the sack of money and fled on foot; the man
in the car noticed that Petitioner was limping. Id.
Officers arrived on the scene, and both the
employee and the man who Petitioner tried to
carjack told them the attacker had used a “silver
revolver.” Id. The day before, one of the officers had
taken a report from a man who said that his silver
revolver was missing; he suspected his cousin—
Petitioner—had taken it. Id. The officers located
Petitioner, who was staying with a relative. Id. Sure
enough, he had a bullet wound in his leg, and the
officers found the missing silver revolver under his
mattress. Id. A firearms expert concluded that the
missing silver revolver was in fact the murder
weapon. Id.
There was more. “The police also found a bloody
pair of thermal underwear with a bullet hole in the
leg, a bloody towel, and bloody boxer shorts in a
trash can behind the house.” Id. Officers removed a
bullet (one that matched the caliber of the murder
weapon) from the car that Petitioner tried to carjack.
Id. There were fibers on the bullet, and the fibers
“were consistent with fibers from the thermal
underwear, and DNA taken from blood on the fibers
matched [Petitioner].” Id. Petitioner’s palm print
was on the sack of money that was dropped outside
the store when the attacker fled. Id. at 48–49.
Based on this evidence, the jury found Petitioner
guilty of malice murder. Id. at 49.

7a
B.
A month after the grand jury indicted Petitioner,
the State filed a notice of intent to seek the death
penalty. Whatley, slip op. at 6 (order denying habeas
relief).4 To support its request for death, the State
would argue that one or more of these three
aggravating circumstances applied: (1) Petitioner
committed the murder while engaged in armed
robbery, (2) Petitioner committed the murder to
obtain money, or (3) Petitioner committed the
murder after he had escaped from a place of lawful
confinement. The State also told Trial Counsel that
it would rely on Petitioner’s convictions and
probation revocations—in 1988, 1989, and 1990—
from Washington, D.C., to establish the aggravating
circumstances. Trial Counsel was well aware of this
evidence and planned to counter it with evidence
that showed (1) Petitioner’s life was worth saving
and (2) that life imprisonment would be sufficient
punishment.5

Under Georgia law, “A person commits the offense of murder
when he unlawfully and with malice aforethought, either
express or implied, causes the death of another human being.”
O.C.G.A. § 16-5-1(a). The indictment alleged that Petitioner
killed the storeowner “with malice aforethought.” Although the
notice was filed a month after Petitioner was indicted, “it had
been assumed that this case was likely to involve death penalty
issues,” apparently from the very beginning. Whatley, slip op.
at 6 (order denying habeas relief).
4

We go into considerable detail in describing the parties’
presentations in the penalty phase. We do so because what
happened in that phase shaped Petitioner’s collateral attack in
state court.
5

8a
We recount the penalty phase chronologically.
We begin with the State’s case and then consider
Petitioner’s response. We end with closing
arguments.
1.
The State relied on the evidence presented
during the guilt-innocence phase to establish the
first aggravating circumstance—that Petitioner
committed the murder while engaged in armed
robbery—and
the
second
aggravating
circumstance—that
Petitioner
committed
the
murder to obtain money. It relied on records from
the District Court for the District of Columbia and
the D.C. Superior Court to establish the third
aggravating
circumstance—that
Petitioner
committed the murder after escaping from a place of
lawful confinement.
The State also used these records to show the
extent of Petitioner’s criminal history and to paint a
broader picture of him. Using the records, the State
argued that this murder wasn’t Petitioner’s “first
brush with the law” and that he had “every break
possible” to turn things around but failed to do so.
The records showed, according to the State, that
Petitioner had a history of violence and would
always be dangerous.
There are lots of records, and they are, at times,
quite convoluted. For the reader’s sake, we hit the
records’ high points, and we explain only those
records that are necessary for our analysis.

9a
The records show that Petitioner was charged in
three separate criminal cases from 1988 to 1990:
(1) he forged a U.S. Treasury check, (2) he robbed a
man at gunpoint, and (3) he assaulted a woman in
public. The judicial proceedings in these cases
overlapped, and many times, what happened in one
case affected something in the other. Thus, rather
than dividing our discussion by offense or topic, we
explain the records chronologically.
In January of 1986, Petitioner stole a U.S.
Treasury check, forged the payee’s signature, and
negotiated the check. In January of 1988, he also
robbed a man at gunpoint. He was indicted in the
District Court for the forgery, United States v.
Whatley, No. CR 88-030 (D.D.C.), and he pled guilty
in May of 1988. Petitioner was indicted in the
Superior Court for the armed robbery,6 United States
v. Whatley, No. F-1046-88 (D.C. Super. Ct. Crim.
Div.), and he pled guilty to a lesser charge of robbery
in April of 1988.
During the plea colloquy in the robbery case,
Petitioner admitted that he “put a loaded shotgun …
to the [victim’s] back and demanded [his] wallet
which he forcibly took from [the victim].…
[Petitioner] was arrested that same day … and
the … loaded shotgun and shells were recovered.”
The Superior Court accepted the guilty plea and
ordered that Petitioner be “committed” to the D.C.
The indictment alleged that Petitioner, “while armed with a
dangerous weapon, … a shot gun, by force and violence, against
resistance and by putting in fear, stole … from … Fredy
Magallanes, property … consisting of a wallet and its contents.”
6

10a
Department of Corrections “for observation and
study” under the Youth Rehabilitation Act (the
“YRA”)7 before sentencing. He would be sentenced
after the studies were finished.
Later in April of 1988, Petitioner was sentenced
in the forgery case. He was ordered to reside at the
Hope Village Community Treatment Center for four
months and to participate in a drug treatment
program. But Petitioner wasn’t taken to Hope
Village immediately and remained incarcerated until
there was room for him at Hope Village. Between
April and June of 1988, Petitioner was evaluated
according to the YRA. In August of 1988, Petitioner
was also given a neuropsychological evaluation,
which his caseworker, Eugene Watson (“Caseworker
Watson”) arranged. As we explain below, Petitioner
relies heavily on these reports and evaluations from
1988 to support his habeas petition.
Sentencing in the robbery case was continued
several times. Finally, in March of 1989, the
Superior Court held the sentencing hearing. At the
hearing, Petitioner’s lawyer presented a sentencing

Youth Rehabilitation Act of 1985, D.C. Code §§ 24-901 to
24-907. “The objectives of the YRA are to give the court
flexibility in sentencing youthful offenders, separate youth from
older and more mature offenders, and provide an opportunity
for youth to have the sentence ‘set aside’ in the future if the
youth satisfies the conditions of the sentence.” Ellen P.
McCann, The District’s Youth Rehabilitation Act: An Analysis 9
(Sept.
8,
2017)
(footnote
omitted),
https://cjcc.
dc.gov/sites/default/files/dc/sites/cjcc/page_content/attachments/
District%27s%20YRA-An%20Analysis.pdf.
7

11a
plan that was created by Caseworker Watson.8
Petitioner’s lawyer asked the Court to sentence
Petitioner to a term of probation, conditioned on
Petitioner’s following the sentencing plan.9 The
Court agreed and sentenced Petitioner as follows:
“Five to fifteen years [imprisonment] with the
execution suspended with a five year period of
probation with the condition that he enter and
complete the New Life [for Youth] Program, both
residential and aftercare.”10
Petitioner was never taken to the New Life for
Youth facility. Instead, he was taken to the Hope
Village facility the next month, consistent with his
sentence in the forgery case. He absconded from
Hope Village about two months later. In turn, his
probation in the forgery case was revoked, and he
was incarcerated for two months.
In light of this, the Superior Court ordered
Petitioner to show cause as to why his probation
Caseworker Watson was a program developer with the D.C.
Public Defender Service, and his job was to develop
rehabilitation plans for defendants awaiting sentencing in the
Superior Court.
8

The sentencing plan called for Petitioner to enter the New
Life for Youth residential facility to undergo twelve months’
inpatient mental health care followed by six months of formal
aftercare as an outpatient.
9

Of course, this sentence conflicted with Petitioner’s sentence
in the forgery case. He couldn’t be at Hope Village and New
Life at the same time. But the Superior Court still ordered the
sentence because Petitioner’s lawyer mistakenly thought that
the District Court had suspended the execution of the sentence
in the forgery case.
10

12a
should not be revoked in the robbery case. The Court
held a hearing in December of 1989, and, rather
than revoking probation, it modified the terms of
Petitioner’s release.11
Fast forward to September of 1990; the Superior
Court again ordered Petitioner to show cause as to
why his probation should not be revoked in the
robbery case. It held a hearing the next month—
Petitioner didn’t appear, and the Court issued a
bench warrant for his arrest.
Seven days after the Court issued the bench
warrant, Petitioner was arrested for assaulting a
female. He was charged in the Superior Court with
“assault with intent to rape.”12 United States v.
Whatley, No. F 11978-90b (D.C. Super. Ct. Crim.
Div.). In December of 1990, he pled guilty to a lesser
charge, simple assault. The Court sentenced
Petitioner to the custody of the Attorney General for
one year.

We glean this information solely from the case docket sheet,
which shows that on December 15, 1989, Petitioner, his
attorney “and P.O. [were] present. Show cause hearing held.
Order to show cause discharged. Probation modified (illegible);
drug surveillance by P.O. Participation in out patient program
at New Life….” Under the modified terms, Petitioner was
required to submit to drug testing monitored by his probation
officer and to participate in an outpatient program with New
Life for Youth.
11

The information alleged that Petitioner “unlawfully
assaulted and threatened [Jane Doe] in a menacing manner,”
“[i]n violation of Section[ ] 22-504, District of Columbia Code.”
This is a felony.
12

13a
Finally, in late December of 1990, the Superior
Court held a hearing on its show cause order, the
order that directed Petitioner to show why his
probation should not be revoked in the robbery case.
The Court focused on the assault charge that
Petitioner had recently pled guilty to and been
sentenced for. The question was whether the assault
established cause for revoking Petitioner’s probation.
The Court noted the “Herculean efforts [that] were
made” to help Petitioner deal with “difficult
personality, and perhaps psychological, problems
that he had.” It then noted that this was the second
probation revocation hearing, and the Court
highlighted that Petitioner committed the assault
after having been served with a bench warrant for
his arrest.
Next, the Court turned to the facts of the
assault. Even after considering Petitioner’s
“dubious” version of the incident,13 and giving
Petitioner “the most benefit of the doubt,” the Court
noted that Petitioner showed “some violent behavior
with somebody … in a way that … could have been
quite dangerous.” The Court went on and described
the incident “as a significant outburst of violent
behavior by somebody who was then on the run from
me for a prior criminal act of violent behavior,
namely a robbery.” It concluded with this: “I think
there have been serious violations of the probation,
here, in the case of somebody who’s been given lots
and lots of chances … to try to stay out of Lorton
Petitioner’s version was set out in the presentence report
that was submitted to the court overseeing the assault charge.
13

14a
[prison] on a long-term basis. And, I think he
basically blew it.”14 The Court revoked Petitioner’s
probation and sentenced him to prison for a term of
4 to 12 years.
Petitioner
was
incarcerated
in
Lorton
Reformatory immediately. He was released 47
months later, in November of 1994, and put in a
halfway house in Washington, D.C. He fled on
December 2, 1994, and became a fugitive from
justice. He was still a fugitive when he returned to
Georgia in January of 1995.15
2.
Trial Counsel countered the State’s case with
nine witnesses; collectively, they portrayed
The Court acknowledged that Petitioner may have lived a
somewhat difficult life, but that did not give Petitioner license
to disregard the law:
14

[A]t some point or another the community, speaking through
this judicial system, has a right to say, look, we’re sorry if you
have problems in life. A lot of us ha[ve]. You can’t go around
beating up on people. And, if that message doesn’t come
through probation or other mechanisms, then it may ultimately
have to come through incarceration.
The State presented three witnesses to supplement the
records. First, it presented a criminal investigator who worked
for the D.C. Department of Corrections. Her job was to arrest
offenders who escaped from the Department’s halfway houses.
She testified that—nine days after being put in the halfway
house—Petitioner signed out to go to work and never returned.
Second, the State presented a police detective who worked on
Petitioner’s robbery case. Third, it presented the victim
Petitioner robbed at gunpoint.
15

15a
Petitioner’s life as worth saving. We focus on three
witnesses— Janet Wyche, Lorraine Goodman, and
Cleveland Thomas, Jr.—because Petitioner also
submitted their testimony in his habeas proceedings.
Petitioner testified himself and expressed remorse
for what he had done, and Caseworker Watson
testified as well.
As a brief introduction, we note that Petitioner
was raised by his great-aunt and great-uncle, Marie
and Cleveland Thomas. He moved to Washington,
D.C., to live with his mother a couple of time during
his teenage years. The criminal history that we just
explained took place in Washington, D.C. And at the
time of the murder, he had just returned to Georgia
from Washington, D.C., after escaping from a
halfway house. Petitioner explained this during his
testimony, which we discuss below.
Janet Wyche knew Petitioner before he went to
live with his mother in Washington, D.C. When he
returned to Georgia, Petitioner stayed off and on in
the same house where Ms. Wyche lived. She said he
was nice and got along with everyone. Ms. Wyche
didn’t comment on Petitioner’s childhood or his
experience living with the Thomases.
Lorraine Goodman is related to Petitioner. She
described him as respectful and knew that he was
raised by the Thomases, who took him to church
every Sunday. She was unaware of Petitioner getting
into any trouble while living with the Thomases. She
said that Petitioner stayed at her house when he
returned to Georgia from Washington, D.C.; she
asked him to leave because they could not afford to

16a
have another person in the house. She claimed that
Petitioner looked for a job every day while staying
with her, and she said her children “loved him.”
Cleveland Thomas, Jr.’s father and stepmother
raised Petitioner. He said that as a child growing up,
Petitioner was “real nice,” had good manners, and
did well in school. He “thought the sky was the limit
for him,” and he asked the jury to “spare
[Petitioner’s] life.”
Five other witnesses testified and generally said
positive things about Petitioner.
Next, Trial Counsel called Petitioner himself to
the stand.16 Petitioner first explained his
upbringing. As a child, he was told that his mother
“had some problems,” so she left him with his greataunt and great-uncle (the Thomases), who raised
him. He described the Thomases’ household as “very
stationary, very unconditional as far as … loving
and … support, and ideally everything that a child
could … ask for growing up.” In eighth or ninth
grade, he went to live with his mother, brothers, and
sisters in Washington, D.C.—he “had a yearning …
to be part of [his] family.” But life there was chaotic,
and his mother kicked him out after the two got into
a fight. He returned to Georgia. At 19, he moved
back because he still wanted to be with his mother
and siblings. Back in Washington, D.C., he “assumed
the position of head of the household.” But that
Petitioner was wearing shackles that were visible to the jury
while he testified.
16

17a
deteriorated because his mother was taking money
from him, and he moved out.
Petitioner then addressed his involvement with
drugs and said he started out dealing drugs for a
profit. He noted that he has “always had some
dealings in the streets.” Next, Petitioner explained
his criminal history. He said “trouble came along”
when he “got introduced to … and … associated with
some individuals that were into forgery and uttering
and credit cards, white collar crimes.” As for the
robbery, Petitioner claimed he “did not have the
shotgun on” him during it. He said the victim owed
him money, and he stuck a “closed knife” in the
victim’s back. He claimed the shotgun was around
the corner during the robbery, and after taking the
victim’s money, he was going to retrieve the gun.
Petitioner also explained why he violated his
probation in the forgery case. He said he was
required to stay at Hope Village17 for four months,
but he got in trouble by taking “a furlough.” He
claimed he was unaware that he wasn’t supposed to
leave the facility. When he returned, his supervisor
“placed [him] on restriction.” The next night, another
staff member let him out, and he was considered an
escapee.
Moving on to his probation sentence in the
robbery case, Petitioner noted that he worked with
He actually called it a halfway house, but Hope Village was
not the sort of facility where convicted persons reside after
being released from a prison but before they are discharged
from custody.
17

18a
Caseworker Watson “on a regular basis … for a
couple of years.” He said they stopped working
together when he went “on the run.” He was on the
run because he hadn’t reported to his probation
officer, and there was a warrant out for his arrest.
Then, Petitioner explained why he escaped from
the halfway house in December of 1994. The night he
escaped, Petitioner said, he left work early and went
to visit an ex-girlfriend. There was a curfew, and he
realized he would be cutting it close, so he called the
halfway house and asked for an extension. It was
denied. So, Petitioner tried to catch a cab, but he was
in a part of town where it was “very difficult” “for a
black male to catch a cab that time of night.” He
called the halfway house again, and he was told that
he should still be able to make curfew. He finally
found a cab, but the driver had to go pick up another
passenger in Maryland. Petitioner explained that he
had a curfew, and the driver told Petitioner to give
him $25—he didn’t have that much money, so the
driver just let him out in Maryland. At this point, he
had missed curfew, and he didn’t report back to the
halfway house.
Petitioner bounced around and stayed with
different friends and family members. He came back
to Georgia hoping to get a job and make some
money. Once in Georgia, he continued to stay with
other people, and he eventually stole a pistol from a
man he was staying with. He stole the pistol because
had been selling drugs and needed to go to “rough
neighborhoods” to sell. There were also people who
owed him money, Petitioner said. On the night of the

19a
murder, “it just so happened” that he got a ride and
“passed by” the bait shop. He “felt like it was in a
secluded area,” so he could “go in,” “get the money,”
and “get out of town.”
Finally, Petitioner explained how he wound up
shooting the victim.18 He said he took the money and
was backing out of the shop without looking at the
door. He heard someone coming to the door and
turned around—at that point, the victim grabbed a
gun. Petitioner turned back, apparently saw the gun,
and fired a shot. This shot, Petitioner claimed, was
the one that hit the counter. Petitioner backed out of
the shop and ran into a person trying to enter. By
this time, the victim had fired his own shot, and
Petitioner had made it outside. Once outside,
Petitioner and the victim continued shooting at each
other. Petitioner said he didn’t shoot the victim
inside the store; he was hit after chasing Petitioner

18

Before doing do, Petitioner said this:

I’d like to say to the members that are here of [the victim’s]
family that I did not in—in any way—in any intentions—I did
not go to that store—and I didn’t plan to kill him or I didn’t
even plan to shoot him. There’s nothing that—that I can say
that’s going to change anything that’s I happened, and I realize
that. And I grieve about this daily. I really—I really do,
because there’s—there’s nothing that—I realize that there’s
been a lot—lot of evidence that’s been produced and that the
prosecutor is trying to paint a picture and to—I just
remorselessly … went in and intentionally killed him. But that
was not what happened in no way, form or fashion. And I do
want to extend my deepest sympathies to you about the
occurrence.

20a
outside.19 Petitioner wrapped up the direct
examination by saying he did not intend to kill the
victim. He only intended to rob the store.
On cross examination, Petitioner stuck to his
story about what happened in the shop—he never
admitted that he fired two shots inside the shop, one
at the employee who was lying behind the counter,
and one at the victim, with the pistol just 15 to 18
inches from the victim’s chest.
Petitioner also stuck to his version of what
happened during the robbery in Washington, D.C.
That is, Petitioner said he did not have the shotgun
with him when he robbed the victim. He
acknowledged the plea agreement—where he
admitted to putting a loaded shotgun to the victim’s
In disputing the State’s position that he shot the victim at
close range—that the muzzle of his pistol was only 15 to 18
inches from the victim’s chest—Petitioner was actually taking
issue with the opinion of the State’s expert witness. It was
undisputed that the pistol Petitioner used to shoot the victim
contained six bullet casings, showing that six shots had been
fired. It was also undisputed that at the moment the victim was
shot, he was wearing a long-sleeved plaid shirt and a white
undershirt. Each had a bullet hole in the chest area. The expert
testified that she found “scattered particles of gunpowder,
unburnt gunpowder around the gunshot hole. “There were
scattered particles of gunpowder in a fairly dense pattern
around the gunshot hole of entry.” “Based on [her] actual
testing and test firing the weapon at varying distances, [she]
was able to conclude that the muzzle to target distance was
approximately fifteen to eighteen inches,” from the tip of the
barrel to the entry of the victim’s chest. “[Y]ou don’t see
gunpowder deposited on a target after two and half to three
feet.”
19

21a
back—but said he was willing to admit facts that
didn’t happen because of the plea deal. This
concluded Petitioner’s testimony.
Trial Counsel finished up by calling Caseworker
Watson. As we explained above, he created the
sentencing plan that the Superior Court considered
in Petitioner’s robbery case. Caseworker Watson
worked with Petitioner for about a year and a half,
and he said that he found Petitioner to be both
personable and likeable. He thought Petitioner “had
a lot of potential.” To prepare the plan, Caseworker
Watson spoke with the Thomases to better
understand Petitioner’s background. He talked to
them “on a very regular basis, maybe once a week.”
After talking to the Thomases, Caseworker Watson
“could see” “that [Petitioner] came from a good
family.” Mrs. Watson, especially, gave him
something to “latch onto,” something he “could
convince the [C]ourt was worth investing in.” He
called them Petitioner’s “support.”
As part of his work on Petitioner’s case,
Caseworker Watson arranged for a clinical
psychologist and an educational psychologist to
evaluate Petitioner. (We consider these reports in
detail below.)
Finally, Caseworker Watson discussed his
attempt to enroll Petitioner at Howard University.
He introduced Petitioner to “certain deans” at
Howard,
and
Petitioner
“impressed”
them.
Caseworker Watson was unable to take the next
step, though, and have Petitioner apply for
admission because he “wasn’t able to raise enough

22a
money to insure his tuition.”20 He concluded his
testimony on direct examination with this: “[I]f we
had been able to provide tuition and he could have
been a student at Howard, I’m convinced that his life
would have been different. I know this.”21
With this, the parties rested and made their
closing arguments.
3.
The State argued that life without parole was
inadequate given the nature of the murder. It also
noted that Petitioner attempted to pin part of the
responsibility on the victim and that he showed no
remorse.
The State said that Petitioner should have
admitted that the murder happened just as the
State’s evidence showed: that is, he fired two shots
intending to kill two people, both at close range. The
State compared Petitioner’s version of the murder—
that he shot the victim after he was out of the store,
and only because the victim was shooting at him—
with Petitioner’s explanations of his criminal
history. He cashed the U.S. Treasury check “because
Caseworker Watson was “circumventing the regular routine”
with these efforts. Petitioner’s possible admission to Howard
University “was off the record, it had nothing to do with the
rehabilitation plan.” Caseworker Watson “felt an allegiance to
[Marie Thomas] and some responsibility, and [he] gave it [his]
best effort, and [he] saw [Petitioner] do likewise.”
20

Petitioner conceded that he was on “the run” while Casework
Watson was exploring the possibility that he enroll at Howard.
21

23a
some of his friends talked him into it.” He didn’t
really put a shotgun to his victim’s back during the
robbery in Washington, D.C. He missed curfew at
the halfway house “because the taxi cab driver was
late.” Petitioner’s troubles were always someone
else’s fault, according to the State. Turning to the
lack-of-remorse argument, the State claimed that
Petitioner was not sorry for what he did; it said he
would “brag” about the murder in prison.
Trial Counsel argued for a life sentence without
parole. He claimed that Petitioner would not kill
again if he were sentenced to life without parole.
Turning to the murder itself, Trial Counsel argued
that the murder happened just as Petitioner said it
did. That is, Petitioner entered the bait shop with no
intention of killing anyone. Trial Counsel argued
that Petitioner was remorseful and was reminded of
what he did every day. He also tried to humanize
Petitioner, calling the Thomases “a good strong
family” that taught him right and raised him well.
He said Petitioner’s tragic mistake was moving in
with his dysfunctional mother in Washington, D.C.
The jury recommended the death penalty, and
the Court sentenced Petitioner to death.
II.
Petitioner appealed to the Supreme Court of
Georgia and raised one argument that’s relevant
here: he said the trial court—by allowing the jury to
see him in shackles—denied his rights to due
process, equal protection, a fair trial, and a reliable
determination of punishment under the Fifth, Sixth,

24a
Eighth, and Fourteenth Amendments to the U.S.
Constitution. Although Petitioner wore shackles
during both phases of the trial, the Supreme Court of
Georgia held that the jury did not see them during
the guilt-innocence phase. Whatley, 509 S.E.2d at 52.
The Court implied that the jury did in fact see
the shackles during the penalty phase, but it
rejected the claim under the invited error doctrine.
See id. Indeed, it was the State that raised the
shackles issue before the penalty phase, and Trial
Counsel said, “[w]ell, he’s convicted now” and
allowed Petitioner to take the stand in front of the
jury. Id. (alteration in original). The Court said, “A
party cannot during the trial ignore what he thinks
to be an injustice, take his chance on a favorable
verdict, and complain later.” Id. (quoting Dennard v.
State, 435 S.E.2d 26, 29 (Ga. 1993)).
The Court affirmed Whatley’s convictions and
death sentence, see id. at 53, and the Supreme Court
of the United States denied certiorari review,
Whatley v. Georgia, 526 U.S. 1101, 119 S. Ct. 1582
(mem.), reh’g denied, 527 U.S. 1016, 119 S. Ct. 2361
(1999) (mem.).
III.
Petitioner filed a petition for writ of habeas
corpus in the Superior Court of Butts County.
Whatley v. Schofield, No. 99-V-550 (Ga. Super. Ct.).
Petitioner claimed that Trial Counsel provided
ineffective assistance (1) by failing to investigate and
present mitigating evidence about his background
and mental health (the “Mitigation Claim”) and

25a
(2) by not objecting to Petitioner’s appearing before
the jury in shackles during the penalty phase (the
“Shackles Claim”). By this time, Trial Counsel had
died, so the State Habeas Court did not have the
benefit of his testimony in deciding whether he
provided ineffective assistance under Strickland.
We address each claim separately.
A.
The State Habeas Court considered many
sources of evidence in deciding the Mitigation claim:
the pleadings the State filed while prosecuting the
case; the trial transcript; Trial Counsel’s handwritten notes that he kept in his case file; Trial
Counsel’s timesheet entries (which reflected the
work he did); the testimony of Trial Counsel’s
investigator, Dewey Yarbrough (“Investigator
Yarbrough”); the testimony of others whom Trial
Counsel contacted before and during the trial; and
the evidence Petitioner’s habeas counsel presented.
The Court held an evidentiary hearing on the
Mitigation Claim. We consider Petitioner’s evidence
first and then take up the State’s response.
1.
We group the evidence Petitioner presented to
the State Habeas Court into three categories: (1) five
reports stemming from the YCA Study,22 which the
Four of these reports were part of the study itself, and they
were completed by the D.C. Department of Corrections:
22

26a
Superior Court ordered after Petitioner pled
guilty in the robbery case—we refer to these
collectively as the “1988 Reports”; (2) affidavits
about Petitioner’s childhood, from people familiar
with his family situation growing up; and
(3) affidavits related to Petitioner’s mental health—
one from a clinical psychologist, Dr. Lisak, and
another from a psychiatrist, Dr. Dudley.
Although we group the evidence into three
categories, there are two common threads running
through each category: Petitioner’s troubled
childhood and his mental health. Those threads are
the bedrock of Petitioner’s Mitigation
Claim, so that’s where we focus our attention.
a.23

(1) “Psychological Evaluation,” dated May 26, 1988;
(2) “Classification Study,” dated May 31, 1988; (3) “Vocational
and Educational Evaluation,” dated June 1, 1988; and
(4) “Classification Committee’s Findings and Conclusions,”
dated June 3, 1988. The Psychological Evaluation was
performed by Dr. Kathleen Shaw, a psychologist.
The fifth report was not performed by the D.C. Department of
Corrections, but it was still related to the YCA Study in that
Caseworker Watson arranged the evaluation. The report is
titled “Neuropsychological Evaluation” and is dated August 18,
1988. It was performed by Dr. Sarah Elpern, a clinical
psychologist.
There was some dispute before the State Habeas Court over
whether Trial Counsel ever saw the 1988 Reports. Petitioner
argued that Trial Counsel never saw the Reports and never
learned the information they contained. To support his
argument, Petitioner submitted an affidavit from Caseworker
23

27a

Watson. There, Watson said that he came to Georgia to testify
during the penalty phase of Petitioner’s trial. Watson claimed
that Trial Counsel never asked to see his “file on the case,”
which included the 1988 Reports. He would have made the
documents available to Trial Counsel if he had asked for them.
Caseworker Watson spent two hours with
Trial Counsel the night before the penalty phase, but he said
they spent less than half an hour talking about his testimony.
Finally, Caseworker Watson said that Trial Counsel never told
him what questions he was going to ask, and Trial Counsel
never told him what to focus on during his testimony.
In response, the State introduced the deposition of Investigator
Yarbrough. Investigator Yarbrough remembered having
Petitioner sign a release to get his “records.” Investigator
Yarbrough then asked Caseworker Watson to bring Petitioner’s
“psychological records” with him when he came to testify
during the penalty phase. He “was sure” that Caseworker
Watson brought the documents with him to Georgia. He didn’t
recall whether he personally saw the documents, but he noted
that Caseworker Watson arrived in town with “a bag and a
briefcase.” Finally, Investigator Yarbrough said it was
“possible” that Trial Counsel saw the psychological documents,
even if he didn’t.
The State Habeas Court found that Trial Counsel “performed
adequately with regard to [the 1988 Reports],” and the
Supreme Court of Georgia concluded that finding was
reasonable. Whatley, 668 S.E.2d at 661 (“The [State] [H]abeas
[C]ourt’s conclusion that [T]rial [C]ounsel performed
adequately with regard to these reports is reasonable, as it is
supported by the presumption that counsel performed
adequately, by documentary evidence showing that counsel
obtained a signed release from [Petitioner] and requested the
materials from [Caseworker Watson], and by testimony from
[Investigator Yarbrough] confirming that counsel sought the
records from [Caseworker Watson].”).
Because we hold that Petitioner cannot show prejudice from
Trial Counsel’s failure to use the 1988 Reports during the

28a
The 1988 Reports note that Petitioner’s mother
neglected her parental duties, and he was raised by
his great-aunt and great-uncle. One report says that
his great-uncle “provided an excellent role model” for
Petitioner “during his formative years.” Another one
claims that Petitioner “reported a good relationship
with his great aunt and uncle.” The report also says
that Petitioner had “a stable upbringing in his early
years,” but Petitioner did note “that his great uncle
drank regularly and gave him beer” at a young age.
Petitioner reported that he began using marijuana
at age 15; he also used cocaine in high school.
The 1988 Reports contain two psychological
evaluations of Petitioner. One evaluation was done
by a psychologist who reported that Petitioner “has
uncontrollable impulses which brings him into
constant conflictual situations with others because of
his naive appreciation of how one plans, executes
and attains realistic goals.” The report also observed
that Petitioner “feels he will be able to get away with
anything because he can outsmart” others. It
described his “emotional understanding and
development” as “delayed and infantile.” The report
said Petitioner “is fighting against a very disturbed
and painful emotional state but decompensating
rapidly and escaping through drugs for relief.” It
noted Petitioner’s “schizophrenic symptoms” and
attributed much of his hardship to a desire to be
closer to his mother: “[Petitioner] is experiencing a
mental health breakdown and needs intensive
penalty phase, we need not decide whether Trial Counsel
provided ineffective assistance when dealing with the Reports.

29a
intervention though psychotherapy to help him
address his needs before he drifts into more serious
adventures in an attempt to get the attention of his
mother.” The report concluded by recommending
“long-term psychotherapy” and “drug therapy.”
The other report was done by a clinical
psychologist, and the report explains the findings of
many tests that were given to Petitioner. One test24
measured Petitioner’s “current level of intellectual
functioning” as being “in the Low Average range of
ability.”25 But the report pointed out that
Petitioner’s “potential is at least in the upper half of
the Average range … , if not higher.”26 As for
Petitioner’s “[p]ersonality [f]unctioning,” the report
noted that he “appears to be experiencing
considerable anxiety about his ego integrity,
suggesting that the anxiety is so great at times that
he comes close to being overwhelmed and losing his
sense of reality.” “Although some [of] his responses
indicate idiosyncrati[c] perceptions and thinking, he
does not appear to have schizophrenia.” The report
said that “[i]t is possible that under a great deal of
emotional stress [Petitioner] could become psychotic,
but such symptomology is likely to be temporary.”
Petitioner’s “most important need,” according to the
report, “is intensive psychotherapy to deal with the
The test is called the Wechsler Adult Intelligence ScaleRevised Test.
24

The report listed an IQ from 80 to 89 as the “Low Average
range of ability.”
25

The report listed an IQ from 90 to 109 as the “Average range
of ability.”
26

30a
emotional problems that underlie his drug usage.”
The report concluded with this: “Despite the
complexity of [Petitioner’s] problems, he has the
capacity to improve his functioning and [to] become a
productive member of society.”
According to Petitioner, if Trial Counsel had
read the 1988 Reports, he would have asked for a
trial continuance so he could investigate the
information in those Reports. A more thorough
investigation would have revealed a childhood that
was anything but perfect.
b.
To show what Petitioner’s childhood was really
like, and what a more thorough investigation would
have turned up, Petitioner presented affidavits from
seven people to the State Habeas Court. Notably,
three of the seven witnesses also testified during the
penalty phase. We focus on the testimony of those
three and summarize the testimony of the other four.
Lorraine Goodman said in her affidavit that the
great-aunt and great-uncle were “overly protective”
of Petitioner and “smothered him.” She suggested
that the Thomases did not let Petitioner play with
other children and kept him isolated from the
outside world. During the penalty phase of the trial,
Ms. Goodman said she was unaware of Petitioner
getting into any trouble while living with the
Thomases. She also said they took Petitioner to
church regularly, and she thought he was “a
respectful young man” when he was living with the
Thomases. Finally, Ms. Goodman said that she

31a
heard Petitioner testify that he had an “idyllic
childhood” with the Thomases—she never suggested
during the penalty phase that Petitioner did not in
fact have an ideal childhood.
Janet Wyche’s affidavit mirrored Ms. Goodman’s;
she said the Thomases were overly protective of
Petitioner and “never wanted [him] to play outside
with the other kids.” During her testimony at the
penalty phase of trial, Ms. Wyche said nothing about
Petitioner’s childhood or his experience living with
the Thomases.
Cleveland Thomas, Jr., said in his affidavit that
Petitioner’s great-uncle “drank.” He also said that he
has “always believed that something traumatic
happened to [Petitioner]” because Petitioner’s
attitude about school changed “all of a sudden”
before Petitioner was a teenager. This was just
something that Mr. Thomas “felt”—Petitioner never
told him anything of the sort. Nor did Mr. Thomas
imply that the Thomases were responsible for this
supposed traumatic event. During the penalty phase
of the trial, Mr. Thomas did not comment on
Petitioner’s childhood, other than to say that
Petitioner was “nice” and “mannerable” when living
with the Thomases.
The other four witnesses who submitted
affidavits to the State Habeas Court did not testify
during the penalty phase. They described
Petitioner’s childhood and painted a picture that was
very different from the one Petitioner painted during
his testimony at the penalty phase. We summarize
their affidavits below.

32a
Petitioner’s mother27 said that Cleveland
Thomas was abusive and that he drank a lot. She
claimed he yelled at Marie and choked her. She was
“terrified” when she found out that Cleveland and
Petitioner slept in the same bed while Petitioner was
growing up. This terrified her because, in her words,
Cleveland was a “child molester”; according to
Petitioner’s mother, Cleveland molested her when
she was a child. Petitioner’s mother described a time
when Petitioner came to visit her in Washington,
D.C. During the visit, she told Petitioner two “things
that he was not old enough to handle”: (1) the man
that Petitioner thought was his father was not
actually his father and (2) Cleveland raped her when
she was nine months pregnant with him. Finally,
one of her friends “forced herself on [Petitioner] and
had sex with him” during that visit.
Petitioner’s aunt28 called Cleveland “a drinker, a
womanizer, and a wife beater.” She said he was “a
mean, abusive man.” She claimed that Marie
“worked hard to make things look good from the
outside,” despite Cleveland’s behavior.
A neighbor29 said that she “felt sorry for”
Petitioner when they were growing up because
“Cleveland was a crazy drunk.” The Thomases never
let Petitioner do what the other kids were doing, and
this neighbor “just knew [Petitioner] was going to
grow up with problems because they were so
27

Her name is Claudette Whatley Johnson.

28

Her name is Allene Whatley.

29

Her name is Fetilda Dukes.

33a
overprotective.” She said Petitioner “was not raised
normally at all” because “[h]e was not allowed to
play with other kids, he slept … with Cleveland, and
he had to deal with Cleveland’s drunken, violent
episodes.”
Another neighbor30 from Petitioner’s childhood
said that the Thomases “were extremely protective
of” Petitioner; they never let him play outside. She
described Petitioner’s home life as “far from normal”
because Cleveland drank and would fight with
Marie. “Cleveland was known in our neighborhood
as a crazy, violent, and scary drunk,” she said.
These affidavits were vital to the mental health
opinions that Petitioner presented to the State
Habeas Court. We now turn to those opinions.
c.
Petitioner presented affidavits from a clinical
psychologist and a psychiatrist to explain how
Petitioner’s childhood—as described in the lay
witness testimony that we just laid out above—
affected Petitioner’s mental health.
First, we consider Dr. David Lisak’s (the clinical
psychologist) affidavit.31 Dr. Lisak was asked “to
30

Her name is Cara Jackson.

Dr. Lisak considered several things in forming his opinions.
He interviewed Petitioner 4 times, for a total of 16 hours, in
January and March of 2001. He reviewed Petitioner’s school
and medical records, as well as Petitioner’s mother’s
psychiatric records. He looked at the 1988 Reports and the
court-ordered pretrial evaluations that Dr. Bailey-Smith and
31

34a
evaluate [Petitioner’s] psychological development,
with particular focus on the impact of any childhood
abuse he may have experienced.”
Dr. Lisak described Petitioner as “a child, a
teenager, and eventually a young man almost torn in
two by the quarreling, violent, impulsive and often
intoxicated adults who were responsible for raising
him.” On the one hand, his great-aunt “tried
mightily to maintain a façade of normalcy, and to
provide [Petitioner] with at least the basics of a
normal upbringing.” On the other hand, his greatuncle—“a violent alcoholic and womanizer … [who]
terrorized the household with his drunken rages”—
“undid her efforts.” Dr. Lisak said that Cleveland
both “physically assaulted” and “sexually abused”
Petitioner.
Petitioner “became a pawn in the bitter conflict
between his … mother … and [the Thomases].” In
turn,
this
conflict
“ruptured”
Petitioner’s
understanding of “who he was and what his family
Dr. Fahey made. Finally, he considered documents related to a
lawsuit filed against Lorton Reformatory officials, as well as
the affidavits of these 14 people: Claudette Whatley Johnson,
Norman F. Whatley, Cleveland Thomas, Jr., Franklin White,
Leila Mae Dickson, Janet Wyche, Karla Humbles, Lorraine
Goodman, Fetilda Dukes, Nancy Ward, Eugene Watson, Allene
Whatley, Cara Jackson, and Joseph Johnson.
Dr. Lisak’s affidavit is written under eight headings:
“Summary of Findings,” “Family Background,” “[Petitioner’s]
Early Childhood,” “The
Revelations that
Shattered
[Petitioner’s] Childhood,” “Adolescence,” “Incarceration at
Lorton Prison,” “Release from Lorton,” and “Conclusions.” We
summarize the relevant parts.

35a
members were really like.” Dr. Lisak noted
Petitioner’s visit to Washington, D.C., the visit
where his mother told him (1) that his father wasn’t
who he thought he was, (2) that his great-uncle had
raped her, and (3) that his great-uncle was “waging a
bitter and nasty war” against her to keep her from
Petitioner.32 During the same visit, Petitioner was
raped by his mother’s friend.
Because of this damage, Petitioner “lived a dual
existence”: one part of his identity “was molded by
Marie” and her “desire for normalcy, while the other
part of his identity was that of “a tougher, drugusing and potentially violent youth who was adapted
to life on the streets.” By the time Petitioner was
arrested in 1995, Dr. Lisak said, “the abuse,
conflicts, rejection and abandonment that had
shaped [Petitioner] had yielded a very fragmented
personality.” Petitioner “was prone to severe
dissociative episodes, a consequence of years of
abuse; and he had developed unusual and at times
grandiose ideas that struck mental health evaluators
as far back as 1988 as being schizophrenic-like.”
Dr. Lisak said “[t]he lucid [Petitioner] co-existed
with these other aspects of his personality, but they
remained in conflict.” Unable to “integrate these
warring aspects of himself,” Petitioner’s decisions
“were impulsive and often highly irrational.”
Dr. Lisak concluded with this: “[T]here is a
continuous thread connecting his family’s history of
These are the three revelations that Dr. Lisak expanded on
under the heading “The Revelations that Shattered
[Petitioner’s] Childhood.” Dr. Lisak also discussed Petitioner’s
getting raped under this heading, calling it a “traumatic blow.”
32

36a
violence and substance abuse to the moment when
[Petitioner] was convicted of murder … and
sentenced to death.”
Next, we consider Dr. Richard Dudley’s (the
psychiatrist) affidavit.33 Dr. Dudley “performed a
psychiatric evaluation of” Petitioner. Beginning with
Petitioner’s family medical history, Dr. Dudley noted
that “several persons” in Petitioner’s mother’s family
had mental illnesses that can be passed down
genetically. Thus, Dr. Dudley concluded, Petitioner
“was born … with a significantly increased risk for
the development of similar psychiatric difficulties.”34
In light of all this, and the abusive childhood
that Dr. Lisak noted in his affidavit, Dr. Dudley
concluded that Petitioner was suffering from a
“mental illness … best described as a Psychotic
In forming his opinions, Dr. Dudley reviewed Petitioner’s
hospital records and school records, the 1988 Reports, the
transcript of the sentencing phase, the Supreme Court of
Georgia’s opinion in Whatley v. State, 509 S.E.2d 45 (Ga. 1998),
a video interview of Petitioner the day after his arrest,
Dr. Elpern’s report, Petitioner’s mother’s medical records,
pleadings from Petitioner’s lawsuit against Lorton Prison, and
the same affidavits that Dr. Lisak reviewed.
33

Dr. Dudley’s affidavit is written under two headings:
“Summary of Family Background and Social History” and
“Summary of Findings and Discussion.” In the “Summary of
Family Background and Social History” section, Dr. Dudley
summarized much of Dr. Lisak’s affidavit. We summarize only
the parts of the affidavit that are relevant to our analysis.
Specifically, Dr. Dudley said that Petitioner had a “high risk”
of developing a psychotic disorder, a mood disorder, and/or a
substance abuse disorder.
34

37a
Disorder NOS,[35] Depressive Disorder NOS, and
Polysubstance
Abuse
with
acute
cocaine
intoxication” when he committed the murder and
when he was sentenced to death.36 The “psychotic
disorder is primarily characterized by delusional
thinking of the grandiose and paranoid type.” As a
result, Petitioner’s “perceptions of himself and those
around him do not reflect reality,” and these
delusional perceptions inform his decisions and
actions.37 To explain the substance abuse disorder,
Dr. Dudley pointed to Petitioner’s “long drug history”
that began in his early teens. The drug abuse “seems
directly related to the abuse and trauma” Petitioner
experienced during his childhood because “[t]he
drugs provided a temporary respite” from these
difficulties.
Next, Dr. Dudley compared his diagnosis to the
diagnosis made by Dr. Bailey-Smith and Dr. Fahey.
(As we explain below, Dr. Bailey-Smith and
Dr. Fahey evaluated Petitioner before trial to see
whether he was competent to stand trial and to
analyze his level of responsibility.) As Dr. Dudley
put it, Dr. Bailey-Smith and Dr. Fahey diagnosed
“NOS” means “not otherwise specified.” Doctors generally use
that “when someone doesn’t meet the full criteria for the
diagnosis.”
35

Dr. Dudley’s opinion was “to a reasonable degree of medical
and scientific certainty.”
36

Dr. Dudley didn’t elaborate much on Petitioner’s depressive
disorder. He said this: “[Petitioner’s] episodes of depression are
so severe and cause such extreme impairment of his ability to
function that he warrants the diagnosis of depressive disorder
NOS.”
37

38a
Petitioner with “personality disorder NOS with
antisocial, borderline, narcissistic, and schizotypal
features and rule[d] out Bipolar Disorder.”
Dr. Dudley said that “[t]he constellation of
symptoms [they] described … and used to support
[their] diagnosis [was] similar to what [he] …
identified and used to make [his] diagnosis.” But,
“because the information from collateral sources
about [Petitioner’s] history is far more detailed now
[in 2001] than it was in 1997,” Dr. Dudley “believe[d]
that the diagnosis … [he] made better fit[] the
symptoms described.”
Finally, Dr. Dudley considered the role that
Petitioner’s mental state played in the murder:
[I]t is my opinion that [Petitioner’s] mental
capacity at the time of the offense may have
been substantially diminished. He suffered
from delusional thinking, was depressed,
was on cocaine, and the convergence of these
three disorders made him prone to even
further deterioration in stressful situations,
such as during a robbery. While I do not
believe that he was under a delusional
compulsion or could not understand right
from wrong, there is a strong possibility that
at the time of the offense, [Petitioner’s]
mental
capacity
was
substantially
diminished.
2.
In response, the State contested both prongs of
Strickland. Because we decide the Mitigation Claim

39a
under the prejudice prong, we focus on that part of
the State’s evidence.38 To show that Petitioner was
not prejudiced by Trial Counsel’s alleged
deficiencies—especially those related to presenting
evidence about Petitioner’s mental health—the State
called Dr. Bailey-Smith to testify at the evidentiary
On the first prong, the State argued that Trial Counsel did
not provide ineffective assistance (1) by failing to uncover—
before trial—evidence that Petitioner was abused as a child, as
revealed by the lay witness affidavits, or (2) by failing to hire
expert witnesses—such as Dr. Lisak and Dr. Dudley—to
explain whether this new information about Petitioner’s
childhood would have affected his mental health at the time he
committed the murder. To support its argument, the State
relied on Investigator Yarbrough’s testimony.
38

Investigator Yarbrough said that he met with Petitioner at
least 16 times between Petitioner’s arrest and trial. He asked
Petitioner several times to describe his background, where he
had grown up, and what he had experienced. Investigator
Yarbrough did not recall Petitioner ever mentioning that he
was sexually abused as a child. Had he, Investigator Yarbrough
would have told Trial Counsel and pursued the matter.
Investigator Yarbrough also believed that Trial Counsel would
have presented evidence showing that Petitioner was abused as
a child, if there had been any credible evidence of abuse.
Investigator Yarbrough contacted Petitioner’s mother, but she
wasn’t cooperative. During their meetings, Petitioner provided
Investigator Yarbrough with the names of potential witnesses
and where they could be contacted. Yarbrough got the names of
other potential witnesses while interviewing the ones
Petitioner identified. In time, with Petitioner’s help,
Investigator Yarbrough and Trial Counsel compiled a witness
list. Together, they reviewed it, struck some names, and added
others. Investigator Yarbrough interviewed all whose names
were listed and reported what he learned to Trial Counsel.
Trial Counsel interviewed several on the list himself, including
those he called to testify in the sentencing phase of the trial.

40a
hearing before the State Habeas Court. Before
delving into her testimony at the evidentiary
hearing, we first explain her connection to
Petitioner’s case.
a.
Dr. Bailey Smith and Dr. Fahey examined
Petitioner in December of 1996. The judge, who
would preside over Petitioner’s murder trial, asked
the doctors to assess (1) whether Petitioner was
competent to stand trial and (2) Petitioner’s degree
of criminal responsibility at the time of the murder.39
The doctors found that Petitioner was “in touch
with reality” and concluded “that intelligence was
not a significant issue in th[e] case.” But they still
decided to test Petitioner’s intelligence to gauge
“current functioning.”40 The test showed that
They were also ordered to assess the threat that Petitioner
posed to himself or the community if bail were granted.
39

They interviewed and tested Petitioner for eight hours on
December 13 and seven hours on December 31. To answer
these questions, the doctors relied on their interviews with
Petitioner; the results of the psychological tests they gave to
him; a copy of the Court Order authorizing the evaluation;
reports from the Georgia Bureau of Investigation and Griffin
Police Department, including witness statements; verbal
communication with the Spalding County Sheriff’s Department
personnel about Petitioner’s behavior and mental status while
in jail; Orders from the Superior Court; and a videotape of
police investigators’ questioning of Petitioner on November 28,
1995.
They did so by administering the Kaufman Brief Intelligence
Test.
40

41a
Petitioner was “functioning in the Average range of
intellectual abilities.” Next, the doctors gave
Petitioner two personality tests.41 His answers to one
test were suggestive of someone “with significant
psychopathology.” People with profiles like
Petitioner’s “generally appear boastful and
egocentric”; while they might “exaggerate their selfworth, their self-concept is actually quite poor.” They
noted that people with this type of profile may
daydream and fantasize in response to stress. As for
Petitioner, the doctors said “this appears to take the
form of magical thinking. … [Petitioner] thinks he is
unique and special, and ordained for a special
purpose. He believes he has unique and special
powers which can impact and often directly influence
other’s thinking and behavior, and consequently, the
outcome of some situations.”
Next, the doctors made a diagnosis: they ruled
out bipolar disorder and diagnosed him with
“Personality Disorder NOS with antisocial,
borderline, narcissistic, and schizotypal features.”
Finally, the doctors considered Petitioner’s
competency to stand trial. They said he had “the
verbal skills” to work with his lawyer and the
“conceptual skills” to weigh the strengths and
weaknesses of his case. The doctors did point out
that Petitioner seemed uninterested in using all his
skills to help his lawyer; they said this lack of
interest stemmed from his “lack of confidence in his
The Minnesota Multiphasic Personality Inventory-2 and the
Millon Clinical Multiaxial Inventory-III.
41

42a
attorney and the legal system” and from his belief
that he is a “special” person. Petitioner didn’t show
the level of anxiety that they expected someone is his
position to show, and this was because Petitioner
thought a “higher power” would “ultimately
intervene,” even if he were found guilty. In turn,
Petitioner did not think a death sentence was a
realistic possibility, which the doctors said was
problematic because he “may understand on a
cognitive, but not on a motivational level, the gravity
of his situation.”
As for the second question—Petitioner’s degree
of criminal responsibility at the time of the murder—
the doctors concluded that “[a]lthough [Petitioner]
indicated that he was experiencing a high level of
distress, there [was] no evidence that he was
suffering from a delusional compulsion at the time of
the alleged offense. [Petitioner’s] behavior at the
time of the alleged offense also indicate[d] he had the
ability to distinguish right from wrong.”
Dr. Bailey-Smith and Dr. Fahey did not have
access to the 1988 Reports when they evaluated
Petitioner in 1996.
b.
At the evidentiary hearing, the State used
Dr. Bailey-Smith’s testimony to rebut the 1988
Reports and the affidavits from Dr. Lisak and
Dr. Dudley.
First, the State showed Dr. Bailey-Smith the
1988 Reports and asked whether they caused her to

43a
“change any of [her] conclusions” about Petitioner.
She answered no and said she did not “think the
results [of her evaluations and testing] would have
been any different.”
Next, the State showed Dr. Bailey-Smith the
affidavits from Dr. Lisak and Dr. Dudley. The State
asked whether the affidavits were “written in the
typical fashion of psychological reports in the
community that [Dr. Bailey-Smith] [was] in.” She
said no and elaborated:
I’ve seen so many in this style I would have
to say. They look like they were written for
defense’s viewpoint. They are more
hypothetical, they are more creating—going
back and trying to reconstruct the history
and create a path of causation, this is what
caused this, this is what caused this. Not
what psychologists generally do when they
do a psychological [report] ….
These look more like someone is trying to
reconstruct history and describe a person’s
life and put it almost in a very clean box like
this happened and this is what this person
felt and this is what happened next…
[G]enerally most psychologists wouldn’t feel
as comfortable assigning causation based on
a particular feeling …. I couldn’t tell you why
you acted the way you did yesterday with
any degree of certainty. I don’t think any
psychologist could. We could tell you some
factors that might have led to your behavior

44a
yesterday. We couldn’t tell you the exact
factors that caused that.
These reports concern me a little bit in
that they are going back many, many years
and assigning a certain feeling and then
saying that feeling caused this behavior and
that the psychologist writing this is not
hypothesizing [and instead] … is certain….
And that’s really out of our realm of scientific
certainty. We can’t do it that well.
The State then directed Dr. Bailey-Smith to
Dr. Dudley’s opinion that Petitioner’s “mental illness
is best described as a psychotic disorder NOS,”
“primarily characterized by delusional thinking of
the grandiose and paranoid type.” The State asked
Dr. Bailey-Smith whether she saw “any evidence
that [Petitioner] had delusional thinking or fixed
delusions at the time of the crime or during [her]
evaluation.” She said she and Dr. Fahey did think
that Petitioner had some thought patterns that
“were different and bordered delusional thinking”
during their evaluations, but the doctors did not
think Petitioner had any actual “delusional
thoughts … during the time of the crime or during
[the] evaluation.” Dr. Bailey-Smith agreed that
Petitioner had no “fixed delusions” and said they
“did not think it went to the level that he was not in
touch with reality or didn’t know it was real.”
Instead, “It was more some odd thought patterns,
but [they] never thought [Petitioner] was delusional
when [they] talked to him. He was very coherent and

45a
very logical and very intelligent when [they] talked
to him.”
B.
The parties did not present evidence on the
Shackles Claim at the evidentiary hearing. Instead,
the State Habeas Court relied on the transcript of
the penalty phase.42 Petitioner argued that Trial
Counsel was ineffective for failing to object to the
shackling and, as a result, he was prejudiced during
the penalty phase. He also said the Supreme Court’s
decision in Deck v. Missouri, 544 U.S. 622, 125 S. Ct.
2007 (2005), “strongly supports [his] position.” He
claimed that—because shackling is inherently
prejudicial—“by definition” he was prejudiced due to
Trial Counsel’s failure to object.
The State argued that Petitioner was not
prejudiced. It pointed to the jury’s short deliberation
before recommending death (90 minutes) and the
overwhelming evidence at trial. It also argued that
Deck, which was decided several years after
Petitioner’s trial, did not apply.
C.
The State Habeas Court denied relief. Whatley,
slip op. at 63. It held that Petitioner could not show
prejudice on any of his three claims of ineffective
assistance of counsel. First, the Court held that
Petitioner was not prejudiced by Trial Counsel’s
During the guilt-innocence phase of the trial, the jurors were
unaware that Whatley was wearing shackles.
42

46a
failure to discover evidence of abuse that he
allegedly experienced as a child. Id. at 48–49. It
noted that the lay witness “affidavit testimony …
was either cumulative … , of questionable mitigating
value, biased in contradiction of the mitigation
strategy … at trial … or of other testimony
presented … at [the evidentiary] hearing or …
during the [penalty] phase, or [was] speculative.”43
Id. at 49.
Second, the Court held that Petitioner was not
prejudiced by Trial Counsel’s failure to examine the
1988 Reports or by his failure to ask Caseworker
Watson what the Reports revealed. Id. at 35. The
Court found, “as a matter of fact,” that the 1988
Reports “contained information that was just as
potentially harmful to Petitioner’s case as it was
potentially helpful.” Id. For example, one report said
that Petitioner showed no remorse for the robbery
crime and instead showed only embarrassment for
not acting smarter than he did. Id. The Court also
discounted the report that said Petitioner was
“experiencing a mental breakdown” and needed
intense psychotherapy. Id. It did so because that
report’s author didn’t actually diagnose Petitioner
with a psychological disorder and because the report
noted that Petitioner thought he could get away with
anything because he could outsmart others. Id.

The Court also found that Trial Counsel was not deficient in
failing to discover this evidence because Petitioner did not
inform Trial Counsel or Investigator Yarbrough about the
evidence and because it was not mentioned in Petitioner’s
earlier psychological reports. Id. at 47–48.
43

47a
Third, the Court held that Petitioner was not
prejudiced by Trial Counsel’s failure to hire a mental
health expert who would echo Dr. Lisak’s and
Dr. Dudley’s testimony that Petitioner was suffering
from a major mental illness at the time of the
murder. Id. at 49. The Court found that most of
Dr. Lisak’s and Dr. Dudley’s conclusions were
“speculative, at best.” Id. And “their finding, some
years later, that ‘Petitioner was delusional and out
of touch with reality at the time of his crimes’ upon
which their ultimate findings were largely based was
refuted by Dr. Bailey-Smith’s testimony.” Id.
Finally, the State Habeas Court found that
Petitioner was not prejudiced by Trial Counsel’s
failure to object to his wearing visible shackles
during the penalty phase. See id. at 21. The Court
pointed out that the jury had already convicted him
of malice murder (without knowing that he was
wearing shackles), and the jury was aware of his
escapee status. Id.
IV.
Petitioner appealed the State Habeas Court’s
denial of relief to the Supreme Court of Georgia.44
On the Mitigation Claim, Petitioner argued that
Trial Counsel failed to investigate and present a
mitigation
strategy.
Petitioner
specifically
mentioned Caseworker Watson, and he argued that
Petitioner filed an application for a certificate of probable
cause to appeal, and the Supreme Court of Georgia granted it.
Whatley v. Terry, 668 S.E.2d 651, 653 (Ga. 2008).
44

48a
Trial Counsel failed to even look at Watson’s file.
Had he looked, Trial Counsel would have discovered
the information about Petitioner’s family and the
prior mental evaluations, all of which was presented
to the State Habeas Court. Petitioner argued that he
was prejudiced by this lackluster investigation
during the penalty phase. Rather than presenting
Petitioner as someone who came from a “good strong
family,” Trial Counsel would have told the jury
about the abuse Petitioner suffered as a child and
the mental problems Petitioner had, if only Trial
Counsel had done a reasonable investigation. That
type of testimony, according to Petitioner, would
have convinced one juror to spare his life.
As we explain in more detail below, the Supreme
Court of Georgia assumed Trial Counsel performed
deficiently and considered all of the mitigating
evidence that Petitioner presented. See Whatley v.
Terry, 668 S.E.2d 651, 659–63 (Ga. 2008). It then
weighed the mitigating evidence against all of the
evidence that would be presented if the penalty
phase were retried. See id. It held that Petitioner
was not prejudiced by Trial Counsel’s deficient
performance. Id. at 659.
Moving to the Shackles Claim, Petitioner argued
that Trial Counsel provided ineffective assistance of
counsel by not objecting to his shackles. The Court
again assumed that Trial Counsel performed
deficiently and held that Petitioner did not show
Strickland prejudice. See id. at 663.
Petitioner appealed to the Supreme Court of the
United States, but it denied his petition for writ of

49a
certiorari. Whatley v. Terry, 556 U.S. 1248, 129 S. Ct.
2409 (2009) (mem.).
V.
Petitioner filed a petition for a writ of habeas
corpus in the District Court. The petition raised
several claims, including the Mitigation Claim and
the Shackles Claim now before us. The Court
granted relief on the Mitigation Claim. Whatley v.
Upton, No. 3:09-CV-0074-WSD, 2013 WL 1431649,
at *34 (N.D. Ga. Apr. 9, 2013). It explained that even
though Trial Counsel knew Petitioner had “prior
psychological
evaluations”
and
“a
troubled
upbringing,” Trial Counsel “chose not to pursue” this
information. Id. at *26. Thus, according to the
District Court, Trial Counsel did not reasonably
investigate Petitioner’s “background and mental and
psychological health,” id., and Trial Counsel’s
deficient investigation prejudiced Petitioner during
the penalty phase, id. at *34.
The District Court denied relief on the Shackles
Claim. Id. at *39. It found that Trial Counsel “could
have had a number of valid reasons for declining to
object to his client being seen in restraints during
the penalty phase.” Id. at *38. Thus, the District
Court found that Trial Counsel was not ineffective.
Id. Alternatively, the Court found that even if Trial
Counsel were ineffective, Petitioner was not
prejudiced. Id. at *39.

50a
VI.
The State appeals the District Court’s decision
granting the writ on the Mitigation Claim. Petitioner
cross-appeals the Court’s decision denying his
Shackles Claim. We set out the standard of review
and then consider each claim separately.
A.
Our review is constrained by the Antiterrorism
and Effective Death Penalty Act of 1996 (“AEDPA”):
Under AEDPA, a federal court may not grant
a habeas corpus application with respect to
any claim that was adjudicated on the merits
in State court proceedings, 28 U.S.C.
§ 2254(d), unless the state court’s decision
was contrary to, or involved an unreasonable
application of, clearly established Federal
law, as determined by the Supreme Court of
the United States, § 2254(d)(1).
Johnson v. Upton, 615 F.3d 1318, 1329 (11th Cir.
2010) (quoting Berghuis v. Thompkins, 560 U.S. 370,
380, 130 S. Ct. 2250, 2259 (2010)).
Here, we apply AEDPA and ask (1) whether the
Supreme Court of Georgia’s decisions were “contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined” in
Strickland, see 28 U.S.C. § 2254(d)(1), or (2) whether
the Supreme Court of Georgia’s decisions were
“based on an unreasonable determination of the facts

51a
in light of the evidence presented in the state court
proceeding,” id. § 2254(d)(2).
In answering these questions, we keep two
points in mind. First, “[a] state court’s determination
that a claim lacks merit precludes federal habeas
relief so long as ‘fairminded jurists could disagree’ on
the correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101, 131 S. Ct.
770, 786 (2011) (quoting Yarborough v. Alvarado,
541 U.S. 652, 664, 124 S. Ct. 2140, 2149 (2004)).
Second, we “presume[]” that the state court’s
findings of fact are correct. 28 U.S.C. § 2254(e)(1).
So, if Petitioner challenges state court rulings that
rest on findings of fact, he must overcome two
hurdles. One, he must rebut the presumption of
correctness that attaches to findings of fact, and he
must do so with “clear and convincing evidence.” Id.
Two, he must overcome the deference that we give to
the state court’s legal decision under § 2254(d).
To succeed on an ineffective assistance claim
under Strickland, Petitioner must show (1) that his
trial “counsel’s performance was deficient” and
(2) that it “prejudiced [his] defense.” 466 U.S. at 687,
104 S. Ct. at 2064.
Petitioner satisfies the second element only if he
shows there is “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Id. at 694, 104 S. Ct. at
2068. “It is not enough ‘to show that the errors had
some conceivable effect on the outcome of the

52a
proceeding.’” Richter, 562 U.S. at 104, 131 S. Ct. at
787 (quoting Strickland, 466 U.S. at 693, 104 S. Ct.
at 2067). Instead, “[c]ounsel’s errors must be ‘so
serious as to deprive the defendant of a fair trial, a
trial whose result is reliable.’” Id., 131 S. Ct. at 787–
88 (quoting Strickland, 466 U.S. at 687, 104 S. Ct. at
2064).
B.
With these principles in hand, we consider each
claim separately.
1.
First, we address the State’s appeal of the
District Court’s decision granting habeas relief on
the Mitigation Claim. The District Court refused to
defer to the Supreme Court of Georgia’s decision—
which it resolved under Strickland’s prejudice
prong—on the Mitigation Claim. Whatley, 2013 WL
1431649, at *34. To decide whether the District
Court erred, we begin with the exact version of the
claim that Petitioner presented—in his briefing—to
the Supreme Court of Georgia.45
In his brief to the Supreme Court of Georgia,
Petitioner criticized the way Trial Counsel portrayed
We do so because Petitioner brought several claims for
ineffective assistance of counsel before the State Habeas Court.
The State Habeas Court listed the claims based on their
numbers. See, e.g., Whatley, slip op. at 32. But the Supreme
Court of Georgia considered Petitioner’s claims of ineffective
assistance of counsel by subject matter, not by claim number.
Thus, we also consider the claims by subject matter.
45

53a
his childhood: “At trial, [Trial] [C]ounsel told the
jury in closing argument that [Petitioner] came from
a ‘good strong family.’” “Had counsel done a
reasonable investigation, he would have learned that
just the opposite was true.” “[H]ad [Trial] [C]ounsel
done a basic investigation, he would have been able
to present a compelling life history of [Petitioner],
much like the one presented in Dr. Lisak’s affidavit.”
That is, “[t]he jury would have heard powerful
testimony about a childhood filled with physical,
psychological, and sexual abuse.” The jury would
have heard about Petitioner’s “mental problems and
learned how they developed.” “For example, the jury
did not hear that [Petitioner’s] mother was raped by
her uncle [who raised Petitioner] when she was nine
months pregnant with [Petitioner].” Petitioner’s
mother then “left him to be raised by the rapist uncle
and his wife. The uncle was such a violent alcoholic
that when [Petitioner] was growing up, his aunt
would keep hammers by the doors of her house so …
she could fight off her husband’s violent attacks
during his drunken rages.” According to Petitioner,
“This is the type of testimony which could have
convinced one juror to vote for life.”
The Supreme Court of Georgia assumed that
Trial Counsel “performed deficiently,” but it held
that Petitioner failed to show Strickland prejudice:
“the absence of those professional deficiencies would
not in reasonable probability have resulted in a
different outcome in either phase of [Petitioner’s]
trial.” Whatley, 668 S.E.2d at 659.

54a
The Supreme Court of the United States has told
reviewing courts how to decide Strickland prejudice
in cases like this, cases where a petitioner alleges
that his lawyer was deficient in failing to present
mitigating evidence. The Supreme Court has said
that “Strickland’s point [is] that the reviewing court
must consider all the evidence—the good and the
bad—when
evaluating
prejudice.”
Wong
v.
Belmontes, 558 U.S. 15, 26, 130 S. Ct. 383, 390
(2009) (per curiam) (emphasis added) (citing
Strickland, 466 U.S. at 695–96, 700, 104 S. Ct. at
2068–69, 2071); see also id. at 22, 130 S. Ct. at 387–
88 (noting that the habeas petitioner could not show
prejudice, in part, because “aspects of [petitioner’s
mitigating] character [evidence] … would have
triggered admission of … powerful … evidence in
rebuttal”).
So, reviewing courts must consider (1) evidence
from the original guilt-innocence phase, (2) evidence
from the original penalty phase, (3) evidence the
petitioner presented to the state habeas court, and
(4) evidence the state presented to the state habeas
court. When deciding what evidence the state would
present in response, reviewing courts must consider
whether the proffered mitigating evidence would
“open[] the door” to other aggravating evidence. See
id. at 18, 130 S. Ct. at 385. The bottom line is that in
weighing all of the evidence, reviewing courts must
anticipate what a retrial of the penalty phase would
look like.

55a
Here, the Supreme Court of Georgia did just
that.46 See Whatley, 668 S.E.2d at 659–63. Although
it did not explicitly walk through the entire penalty
phase— the State’s case, Petitioner’s case, and the
State’s rebuttal—it did enough to show that it
weighed Petitioner’s new evidence against all of the
evidence, including any aggravating evidence the
new evidence would bring in. After all, under
AEDPA, we’re most concerned with the reviewing
court’s “ultimate conclusion,” not the quality of its
written opinion. See Gill v. Mecusker, 633 F.3d 1272,
1290–91 (11th Cir. 2011); see also Richter, 562 U.S.
at 98, 131 S. Ct. at 784 (noting that a state court
does not have to give “a statement of reasons” for its
decision).47
The Supreme Court of Georgia began the
reweighing process by discounting the affidavits—
especially those from Dr. Lisak and Dr. Dudley—
that Petitioner presented to the State Habeas Court:
it “note[d] that much of [his] arguments rely upon
the description and interpretation of his background
The State Habeas Court did as well. See Whatley, slip op. at
35, 48–49.
46

We think the Supreme Court of Georgia made three
assumptions in reweighing the evidence. First, it assumed the
State would rely on the evidence it presented in the initial
penalty phase. Second, it assumed Petitioner would abandon
the strategy that Trial Counsel used at the initial penalty
phase and would instead rely on the evidence he proffered to
the State Habeas Court. Third, it assumed the State would
counter Petitioner’s case in rebuttal by cross-examining
Petitioner’s witnesses and by introducing additional
aggravating evidence.
47

56a
in the affidavit testimony” from Dr. Lisak and
Dr. Dudley. Whatley, 668 S.E.2d at 659. The Court
acknowledged that experts may rely on “statements
of others” in forming their expert opinions. Id. But,
the Court said, “[T]hose opinions should be given
weight only to the extent that the statements upon
which they rely are themselves found to have been
proven reliable.”48 Id. So, in deciding whether a jury
“would have been swayed” by the additional
testimony from Dr. Lisak and Dr. Dudley, the Court
“d[id] not assume the correctness of the facts alleged
in the experts’ affidavits [and] instead …
consider[ed] the experts’ testimony in light of the
weaker affidavit testimony upon which that
testimony, in part, relied.” Id. (emphasis added)
(footnote omitted). With that, the Court “g[ave]
significant weight to the [State] [H]abeas [C]ourt’s
finding that [Petitioner’s] new experts’ affidavits
were ‘of questionable credibility and value.’” Id.
There are at least two findings of fact embedded
in the Court’s decision to discount the experts’
affidavits. First, the Court found that the facts
alleged in the affidavits were not reliable. We know
this because the Court did not assume the facts were
correct; in other words, the facts were not “proven
reliable.” Second, the Court found that the expert
opinions themselves were not credible because they
were based, in part, on unreliable facts. These
credibility-based determinations are findings of fact,
see Mansfield v. Sec’y, Dep’t of Corr., 679 F.3d 1301,
As the Court pointed out, “An expert witness must not be
permitted to serve merely as a conduit for hearsay.” Id.
48

57a
1310 (11th Cir. 2012) (labeling the state court’s
credibility finding a “factual finding” that is
presumed correct on federal habeas review),
therefore we presume they are correct, see 28 U.S.C.
§ 2254(e)(1).49
Although Georgia trial courts have broad
discretion to admit mitigating evidence during the
penalty phase of a capital case, “the hearsay rule is
not suspended.” Pace v. State, 524 S.E.2d 490, 505
(Ga. 1999). Hearsay may be admitted, however, if
the defendant demonstrates that “the potentially
mitigating influence of the testimony” would
outweigh “the harm” “the violation of the rule” would
cause. Collier v. State, 261 S.E.2d 364, 376 (Ga.
1979), overruled on other grounds by Thompson v.
State, 426 S.E.2d 895 (Ga. 1993).
This point on hearsay is relevant because
Petitioner does not say whether he would try to
introduce in a penalty phase retrial the affidavits
that he presented to the State Habeas Court that
paint the Thomases in a bad light. If he introduced
them, they would have little probative value. More
on that below.
Then, the Supreme Court of Georgia continued
the reweighing process and considered six pieces of
evidence that Petitioner said Trial Counsel should
have presented during the penalty phase. This
See also Bottoson v. Moore, 234 F.3d 526, 535 (11th Cir. 2000)
(analyzing “whether the finding of fact discounting [an expert’s]
opinion is entitled to the statutory presumption of correctness”
and concluding that it is).
49

58a
evidence, Petitioner argued, would have propped up
his mitigation defense. In considering the six pieces
of evidence, the Court analyzed how mitigating each
piece would be in a hypothetical retrial. Many of the
Court’s conclusions on mitigation flowed naturally
from the State Habeas Court’s findings of fact.
Although the Court didn’t always explicitly cite
these factual findings, we still presume they are
correct under § 2254(e)(1). As the Court itself
pointed out, it accepted the State Habeas Court’s
findings of fact unless they were clearly erroneous.
Whatley, 668 S.E.2d at 659. Plus, our review is not
limited to the reasons the Court gave in its analysis.
See Gill, 633 F.3d at 1291–92. So, we presume the
State Habeas Court’s relevant findings of fact are
correct, and we flag them below.
First, Petitioner argued that evidence showing
his great-uncle raped his mother would have been
mitigating. Whatley, 668 S.E.2d at 660. The Court
found that this evidence “would not have been
significantly mitigating[ because it] may have
offended the jurors if they perceived counsel as
attacking the one couple who, while they were still
living, had taken care of [Petitioner].” Id. This is a
natural conclusion to draw from one of the State
Habeas Court’s critical findings of fact. The State
Habeas Court found that the affidavit testimony
Petitioner presented was “biased in contradiction of
the mitigation strategy employed by [Trial Counsel]
at trial or … during the sentencing phase.” Whatley,
slip op. at 49 (order denying habeas relief). During
both the guilt and penalty phases, Petitioner painted
a positive picture of his great-aunt and great-uncle,

59a
the couple who took him in, raised him, and gave
him an ideal childhood. Evidence that Petitioner’s
great-uncle raped Petitioner’s mother no doubt
conflicts with the mitigation strategy, and we
presume the State Habeas Court’s finding—
including its finding that the affidavit evidence was
biased—is correct.
Second, Petitioner argued that evidence showing
that he was subjected to “brutal treatment” at
Lorton Prison would have been mitigating because it
would have showed why he never returned to the
D.C. halfway house. Whatley, 668 S.E.2d at 660. The
Court disagreed—“the jury would not have been
significantly swayed by an argument that
[Petitioner’s] fear of returning to prison justified his
escape from the halfway house.” Id. at 660–61.
Implicit in this statement is a finding that
Petitioner’s self-serving argument is not credible,
and we presume that finding is correct. Hannon v.
Sec’y, Dep’t of Corr., 562 F.3d 1146, 1150 (11th Cir.
2009) (noting that the presumption of correctness
“applies to fact findings made by both state trial
courts and state appellate courts”).
Third, Petitioner argued that the 1988 Reports
would have been mitigating because they showed
that his mother neglected him and that he had
mental health problems. See Whatley, 668 S.E.2d at
661. But as the Court explained, the Reports also
would have cut against Petitioner’s mitigation case:
“[the Reports] contain material that would have been
damaging to [Petitioner’s] mitigation case, including
statements that he lacked remorse for his crimes

60a
and believed he could ‘get away with anything.’” Id.
This finding mirrored the State Habeas Court’s; it
found “as a matter of fact” that the Reports
contained just as much potentially harmful
information as potentially helpful information.
Whatley, slip op. at 35 (order denying habeas relief).
We presume this finding is correct. The Supreme
Court of Georgia also noted that the Reports’
findings about Petitioner’s mental health were
“tentative,” and they would have had “little effect”
because “no clear findings of mental illness were
noted in another mental health examination
performed in preparation for [Petitioner’s] murder
trial.”50 Whatley, 668 S.E.2d at 661.
Fourth, Petitioner argued that additional
testimony51 “from his friends and … jail guards”
about his alleged remorse would have been
mitigating. Id. at 661–62. Rightly anticipating the
State’s rebuttal—the “bad”—the Court concluded
this evidence “would not have had a significant
impact on the jury, particularly because the [State]
would have been able to explain [Petitioner’s]
emotional reaction to learning that the victim had
died as being a concern for his own punishment
rather than true remorse for his actions.” Id. at 662.
Fifth, Petitioner argued that Trial Counsel
should have given Dr. Bailey-Smith the 1988
The Court presumably was referencing Dr. Bailey-Smith and
Dr. Fahey’s reports.
50

“Trial counsel presented testimony from [Petitioner] himself
suggesting that he was remorseful.” Id.
51

61a
Reports that were prepared as part of the YRA
Study. Id. Petitioner seemed to think Dr. BaileySmith’s report would have been more favorable if she
had seen the Reports. But as the Court concluded,
Dr. Bailey-Smith’s
testimony
defeated
that
argument. She testified “that [the 1988 Reports]
would not have changed her expert opinions if she
had seen them pre-trial and, therefore, [Trial
Counsel’s] use of her report would not have been
affected by his alleged failure to obtain the [1988
Records] either in a timely fashion or at all.” Id.
Thus, any argument that Dr. Bailey-Smith’s report
would have been more favorable if she had seen the
1988 Reports conflicts with Dr. Bailey-Smith’s own
testimony. The Court resolved this conflict in
Dr. Bailey-Smith’s favor, and we presume this
finding of fact is correct. The Court further
explained, “The diagnostic impression set out in
[Dr. Bailey-Smith’s] report contained hints of
mitigation, but overall it could have been more
aggravating than mitigating.”52 Id.

For example, Dr. Bailey-Smith “never concluded that
[Petitioner] suffered from psychosis.” Id. And “her report’s
description of the possible ‘psychopathology’ suggested that
[Petitioner] merely had a ‘boastful and egocentric’ attitude and
that he had a ‘form of magical thinking’ characterized merely
by a belief that he was ‘unique and special’ and had ‘unique and
special powers’ to influence others.” Id. This was her diagnosis:
“‘Rule Out [i.e., there are some signs of but not enough to reach
a diagnosis of] Bipolar Disorder’ and ‘Personality Disorder NOS
[not otherwise specified] with antisocial, borderline,
narcissistic, and schizotypal features.’” Id. (alterations in
original).
52

62a
Sixth, Petitioner argued that Trial Counsel
should have presented the 1988 Reports to the trial
court in a renewed motion for Petitioner to get his
own expert. See id. This allegedly would have
increased Petitioner’s chances of prevailing on the
motion. The Court held, as a matter of law, that
Trial Counsel’s failure to give the 1988 Reports
directly to the trial court did not prejudice
Petitioner’s ability to prevail on his motion for an
expert. Id. The Court pointed out that the
evaluations described in the Reports were
“conducted more than eight years before Dr. BaileySmith’s, and they reached conclusions similar to,
and in some respects less favorable than, the
conclusions
reached
in
Dr. Bailey-Smith’s
53
report.” Id.
Next, we consider Petitioner’s argument to the
District Court. There, he said the Supreme Court of
Georgia’s prejudice decision is not entitled to AEDPA
deference because it was an unreasonable
application of the Strickland prejudice standard, see
28 U.S.C. § 2254(d)(1), and because it was based on
an unreasonable determination of the facts in light
of the evidence presented to the State Habeas
Court,54 see id. § 2254(d)(2). The decision was based
“For example, although the older evaluations referred to
[Petitioner] as ‘evidenc[ing] symptoms of schizophrenia,’ those
symptoms are described in the reports as arising from
[Petitioner’s] use of illegal drugs.” Id. at 662–63 (second
alteration in original).
53

In addition to the evidence the parties presented during the
evidentiary hearing, the transcripts from both phases of
Petitioner’s trial were also before the State Habeas Court.
54

63a
on an unreasonable determination of the facts,
Petitioner said, because the Supreme Court of
Georgia failed to fully consider the evidence he
presented to the State Habeas Court.
The District Court found that Trial Counsel
performed deficiently. Whatley, 2013 WL 1431649, at
*26–27 (concluding that Trial Counsel failed to
conduct an adequate investigation). Then, instead of
reviewing the Supreme Court of Georgia’s analysis of
Strickland prejudice, it conducted its own analysis.
Id. at *27. That procedural error was fatal. As the
District Court itself said, it “reweigh[ed] the
evidence in aggravation against the totality of
available mitigating evidence, both adduced at trial
and in the state habeas proceedings.” Id. It “f[ound]
that in reweighing the evidence in aggravation
against the totality of available mitigating evidence,
from both the [penalty] phase at trial and from the
state habeas proceedings, there is a reasonable
probability that one member of the jury would have
voted for life instead of death.” Id. at *34.
Only then, after reweighing the evidence itself,
did the District Court consider the Supreme Court of
Georgia’s decision on prejudice. Id. But it never
asked whether the Supreme Court of Georgia’s
decision was reasonable. Instead, the District Court
held that the Court’s decision was not entitled to
AEDPA deference because it disagreed with the
Supreme Court of Georgia. See id. The District Court
disagreed with the Court’s factual findings on how
the jury would perceive the new mitigation evidence,
see id. at *33–34, so it rejected the Court’s ultimate

64a
conclusion: that there was no reasonable probability
the mitigation evidence affected the outcome, see id.
at *34.55
Now, we must review the District Court’s
decision. “We review de novo the District Court’s
decision about whether the state court’s ruling was
contrary to federal law, involved an unreasonable
application of federal law, or was based on an
unreasonable determination of the facts.” Consalvo
v. Sec’y for Dep’t of Corr., 664 F.3d 842, 844 (11th
Cir. 2011) (per curiam).
We hold that the District Court erred by deciding
Strickland prejudice— reweighing all of the
evidence—de novo. When a district court reviews a
state court’s decision under AEDPA, it must first
consider the claim as it was presented to the state
court. Next, it considers the state court’s decision. If
the state court applied the correct Supreme Court
precedent—here, the Supreme Court of Georgia
correctly applied Strickland—the district court
decides whether the state court applied the Supreme
Court precedent unreasonably. See 28 U.S.C.
§ 2254(d)(1). The district court also considers
whether the state court’s decision was based on an
unreasonable determination of the facts. Id.
The District Court explicitly said that that the Supreme
Court of Georgia’s decision on the performance prong of
Strickland was not entitled to deference under 28 U.S.C.
§§ 2254(d)(1), (2). See id. But it did not make the same explicit
statement about the Supreme Court of Georgia’s decision on
the prejudice prong. Instead, it said only that Petitioner was in
fact prejudiced. See id.
55

65a
§ 2254(d)(2). If the district court decides the state
court’s decision was based on an unreasonable
application of Supreme Court precedent, or if it
decides the state court’s decision was based on an
unreasonable determination of the facts, only then
can it review the claim de novo. See McGahee v. Ala.
Dep’t of Corr., 560 F.3d 1252, 1266 (11th Cir. 2009)
(reviewing a petitioner’s claim de novo after finding
that the petitioner satisfied § 2254(d)).
Here, the District Court reviewed the prejudice
decision de novo without first considering whether
the Supreme Court of Georgia’s findings of fact were
unreasonable. Again, the Supreme Court of Georgia
found that the evidence Petitioner presented to the
State Habeas Court had little probative value. See
Whatley, 668 S.E.2d at 659–63. In turn, the Court
reweighed all of the evidence and found that there
was no reasonable probability that the outcome of
the penalty phase would have been different, even if
the jury heard Petitioner’s proffered evidence. See id.
at 659. These findings were the foundation of the
Supreme Court of Georgia’s ultimate conclusion—
that Petitioner was not prejudiced by Trial Counsel’s
deficient performance. With no finding that the state
court’s decision was based on an unreasonable
determination of the facts, see 28 U.S.C. § 2254(d)(2),
and with no basis to say that the state court
unreasonably applied Strickland, see 28 U.S.C.
§ 2254(d)(1), the District Court should have been
constrained by AEDPA.
On top of deciding the prejudice issue de novo
and failing to consider the state courts’ findings of

66a
fact, the District Court obviously failed to presume
that these findings of fact were correct, which
AEDPA requires. See 28 U.S.C. § 2254(e)(1). To
make these findings of fact, the state courts assessed
credibility and considered the reliability of the
evidence that Petitioner presented to the State
Habeas Court. See Whatley, slip op at 49 (order
denying habeas relief) (noting that much of the
affidavit testimony Petitioner presented was
“biased” and conflicted with other evidence
presented at trial). These findings of fact—and any
credibility or reliability determinations that they
rested on—are presumed correct. See Mansfield, 679
F.3d at 1310 (labeling the state court’s credibility
finding a “factual finding” that is presumed correct
on federal habeas review). Remember, because these
findings of fact were the foundation for the Supreme
Court of Georgia’s conclusion that Petitioner was not
prejudiced, this presumption of correctness is the
first hurdle that Petitioner must clear, even before
getting to § 2254(d) deference.
In sum, given the District Court’s procedural
error, we would normally vacate its judgment
granting the writ on the Mitigation Claim and
remand the case to the District Court with
instructions. But because we have the same cold
record as the District Court had before it, we will do
the proper analysis ourselves.
We presume the Supreme Court of Georgia’s
factual findings are correct, 28 U.S.C. § 2254(e)(1), so
we must decide whether Petitioner has overcome
that presumption. The Supreme Court of Georgia

67a
found that the affidavits from Dr. Lisak and
Dr. Dudley were “of questionable credibility and
value.” See Whatley, 668 S.E.2d at 659. And it found
that the six pieces of evidence Petitioner proffered
would not have been mitigating. Id. at 660–62.
Above, we said that when a reviewing court
weighs all of the evidence, it reconstructs a
hypothetical retrial. And we also said that the
Supreme Court of Georgia did not explicitly walk
through every step of a hypothetical retrial. But it
didn’t have to. Indeed, we are not limited to the
reasons the Court gave and instead focus on its
“ultimate conclusion,” see Gill, 633 F.3d at 1291—
here, that Petitioner was not prejudiced by Trial
Counsel’s deficient performance. Under 28 U.S.C.
§ 2254(d), we must “determine what arguments or
theories … could have supported … the state court’s
decision.” See Richter, 562 U.S. at 102, 131 S. Ct. at
786 (emphasis added). Thus, we walk through some
of the steps of a hypothetical retrial to show why
Petitioner has not overcome the presumption of
correctness that applies to the Supreme Court of
Georgia’s findings of fact. These steps also show that
the Court’s decision was not an unreasonable
application of Strickland.
It’s unclear whether Petitioner would try to
introduce in a penalty phase retrial the affidavits
that he presented to the State Habeas Court. He
presented affidavits from lay witnesses and from
Dr. Lisak and Dr. Dudley; they all paint the
Thomases in a bad light. If Petitioner were

68a
permitted to introduce the affidavits, they would
have little probative value.
We take the lay witness testimony first. The
State would argue that these affidavits were little
more than after-the-fact attempts to save Petitioner
from the death penalty. Remember, three of the
witnesses who submitted affidavits also testified
during the initial penalty phase. They said nothing
about Petitioner growing up in an abusive
environment. In fact, Petitioner told the jury in
1997, “The household in which I was reared here in
Georgia … was a very stationary, very unconditional
as far as for loving and—and support, and ideally
everything that a child could—could ask for growing
up, I had with my great-aunt and great-uncle.” That
testimony is consistent with the 1988 Reports, which
say that Petitioner reported having a good
relationship with his great-aunt and great-uncle.
The Reports also note that Petitioner had a stable
upbringing.
So, the State would argue that Petitioner—
conveniently—never revealed the alleged abuse
before initiating his state habeas proceedings. That
is, he didn’t tell (1) the psychologists or psychiatrists
who evaluated him as part of the YCA Study in
1988; (2) Caseworker Watson, who worked with him
for 18 months to develop a sentencing plan in the
robbery case in the D.C. Superior Court;
(3) Dr. Bailey-Smith and Dr. Fahey, who evaluated
his competence to stand trial and his level of
responsibility before trial, in December 1996;
(4) Trial Counsel; or (5) Investigator Yarbrough. All

69a
these people were in Petitioner’s corner, so he had no
incentive to keep the alleged abuse from them. In
fact, the people involved with the YCA Study were
compiling information that Caseworker Watson
would then rely on when crafting a proposed
rehabilitation plan. Had Caseworker Watson known
of the alleged abuse, the proposed plan would have
been different. Petitioner must have known that.
If Petitioner presented this version of his
childhood by introducing the affidavits, the State
would expose it through argument. If the witnesses
testified live, the State would expose the same points
through cross-examination.
Presumably, Petitioner himself would take the
stand and tell this new version of his childhood.
Using the evidence we just explained, the State
would impeach him on cross-examination, gutting
his credibility. Additionally, the State would also
explore the reason Petitioner gave for leaving
Georgia and moving to Washington, D.C., in the fall
of 1987—a longing to be with his mother. The State
would refer to the 1988 Reports that quoted
Petitioner as saying, “I moved to D.C. from near
Atlanta in … 1987.” It would then remind Petitioner
that, at his trial in 1997, he testified that he went to
Washington, D.C., because he wanted to live with his
mother. After Petitioner agreed, the State would
refer him to the FBI report attached to Dr. BaileySmith and Dr. Fahey’s pretrial report. The FBI
report shows that Petitioner was arrested in Griffin,
Georgia, on October 2, 1987, and charged with two
counts of burglary, each committed on that date. He

70a
was then released on bail. The State would ask
Petitioner whether the FBI report is accurate and
whether he skipped bail and fled to Washington,
D.C., to avoid prosecution.
Now, Dr. Lisak’s and Dr. Dudley’s opinions. It
wouldn’t matter if Petitioner presented their
opinions by introducing their affidavits or by having
them testify. The result would be the same: the State
would refute their opinions with testimony from
Dr. Bailey-Smith. Before the State Habeas Court,
Dr. Bailey-Smith said Dr. Lisak’s and Dr. Dudley’s
reports “concern[ed] [her] a little bit in that they are
going back many, many years and assigning a
certain feeling and then saying that feeling caused
this behavior and that the [author] … is not
hypothesizing [and instead] … is certain.” She said
“that’s really out of our [psychologists’] realm of
scientific certainty. We can’t do it that well.” And she
noted that both reports “look like they were written
for defense’s viewpoint.” At a retrial, the State would
call Dr. Bailey-Smith as a witness, and her
testimony would seriously undermine the opinions of
Dr. Lisak and Dr. Dudley.
This picture of a hypothetical retrial shows that
Petitioner did not overcome with clear and
convincing evidence the presumption of correctness
that applies to the Supreme Court of Georgia’s
findings of fact. See 28 U.S.C. § 2254(e)(1). It also
shows that the Supreme Court of Georgia did not
unreasonably apply Strickland in finding that
Petitioner could not show Strickland prejudice. And
finally, the picture supports our holding that the

71a
District Court erred by disregarding the Supreme
Court of Georgia’s analysis of the prejudice issue and
by deciding it de novo.
2.
Petitioner cross-appeals the District Court’s
rejection of his Shackles Claim. Recall, before
Petitioner took the stand during the penalty phase,
the State raised the shackles issue. Whatley, 509
S.E.2d at 52. Trial Counsel didn’t object and simply
said, “Well, he’s convicted now.” Id. (alteration
omitted). Petitioner then testified, which included a
“physical demonstration of his version of events,”
with visible shackles. Whatley, 668 S.E.2d at 663.
On direct appeal, Petitioner raised a substantive
shackling claim, but the Supreme Court of Georgia
rejected it under the invited error doctrine. Whatley,
509 S.E.2d at 52. Doing so, the Court really treated
the substantive shackling claim as procedurally
defaulted; that is, it denied the claim because it was
not raised and rejected in the trial court. Petitioner
agrees that the Court treated the substantive claim
as procedurally defaulted.
Unable to bring the procedurally defaulted
substantive claim on collateral attack,56 Petitioner
Under Georgia law, “a failure to make timely objection to any
alleged [trial court] error or deficiency or to pursue the same on
appeal ordinarily will preclude review by writ of habeas
corpus.” Black v. Hardin, 336 S.E.2d 754, 755 (Ga. 1985). But
“an otherwise valid procedural bar will not preclude a habeas
corpus court from considering alleged constitutional errors or
deficiencies if there shall be a showing of adequate cause for
56

72a
brought an ineffective assistance of counsel claim
instead. Before the Supreme Court of Georgia again,
Petitioner argued that Trial Counsel performed
deficiently by failing to object to the shackles. On
Strickland’s prejudice prong, Petitioner argued that
“because shackling is ‘inherently prejudicial,’ by
definition, [he] was prejudiced by [Trial] [C]ounsel’s
failure to object.” To show that shackling is
“inherently prejudicial,” he cited Deck v. Missouri,
544 U.S. 622, 125 S. Ct. 2007 (2005), and Elledge v.
Dugger, 823 F.2d 1439 (11th Cir.) (per curiam),
opinion withdrawn in part on denial of reh’g, 833
F.2d 250 (11th Cir. 1987). Both of these cases say
that shackling a defendant without a justified state
interest violates a criminal defendant’s due process
rights under the Fourteenth Amendment. See Deck,
544 U.S. at 629, 125 S. Ct. at 2012; Elledge, 823 F.2d
at 1450–52.57 And if certain conditions are met,
these cases say that courts—on direct appeal—
should presume the defendant was prejudiced by the
unconstitutional shackling. See Deck, 544 U.S. at
635, 125 S. Ct. at 2015; Elledge, 823 F.2d at 1450–
failure to object or to pursue on appeal and a showing of actual
prejudice to the accused.” Id. Here, Petitioner has never argued
that he can show cause and prejudice to excuse the procedural
bar.
The defendants in Deck and Elledge would have been unable
to raise a Sixth Amendment ineffective assistance of counsel
claim on collateral attack because their trial counsel objected to
the shackles in both cases. See Deck, 544 U.S. at 625, 125 S. Ct.
at 2010; Elledge, 823 F.2d at 1450. They appealed on the
ground that the trial courts’ overruling their objections violated
the Fifth and Fourteenth Amendments. See Deck, 544 U.S. at
625–28, 125 S. Ct. at 2010–11; Elledge, 823 F.2d at 1442.
57

73a
52. Petitioner concluded his argument with a
hypothetical:
“Had
[Trial]
[C]ounsel
made
appropriate objections …, [Petitioner] would have
been tried without the unconstitutional prejudice of
being seen in shackles or had his sentence reversed
[on direct appeal] as a result of being tried while in
shackles.”
The Supreme Court of Georgia rejected this
claim. See Whatley, 668 S.E.2d at 663. It noted that
a presumption of prejudice would apply if
Petitioner’s claim were on direct appeal. See id. (“On
direct appeal where unconstitutional shackling has
occurred, there is a presumption of harm that can be
overcome only upon a showing by the State that the
shackling was harmless beyond a reasonable
doubt.”). But it refused to apply the presumption
because Petitioner’s shackling claim was based on
ineffective assistance of counsel (not due process),
and it was brought on collateral attack (not direct
appeal). See id. (“However, where, as here, the issue
is the ineffective assistance of trial counsel in failing
to object to such shackling, the petitioner is entitled
to relief only if he or she can show that there is a
reasonable probability that the shackling affected
the outcome of the trial.”). That is, the Court held
that Fourteenth Amendment due process cases did
not apply to Petitioner’s Sixth Amendment
ineffective assistance claim. So, it applied
Strickland’s actual prejudice standard and held
there was no reasonable probability that Trial
Counsel’s failure to object affected the sentence. See
id.

74a
Petitioner argues that the due process cases, and
the presumption of prejudice they bring with them,
do apply to his ineffective assistance of counsel
claim. And he says the Supreme Court of Georgia,
and the District Court in reviewing that Court’s
decision, erred by refusing to consider the outcome of
his hypothetical direct appeal.58
We pause briefly to consider exactly what
Petitioner is asking us to do. He is asking us to
consider what would have happened if Trial Counsel
had objected. And he is asking us to assume that the
trial court botched the objection, either by overruling
it without a hearing or by overruling it after holding
a hearing and erroneously finding that the state met
its burden under Elledge. Then, Petitioner says,
imagine that Trial Counsel raised the substantive
shackling claim on direct appeal. Of course, that
could never happen in this case because the
substantive shackling claim is procedurally barred.
But Petitioner pushes forward and says, finally, we
should assume that the Supreme Court of Georgia
applied Elledge and Deck, that it presumed
prejudice, and that it vacated his sentence—all
based on the procedurally defaulted substantive
shackling claim.

When we considered the Mitigation Claim, we focused on
how the District Court resolved the claim. We did so to explain
why the Court erred. Because we find no error with the District
Court’s decision on the Shackles Claim, and because we review
the claim de novo, we do not focus on the District Court’s
decision.
58

75a
The question before us is whether Petitioner can
borrow the presumed prejudice that would apply on
direct appeal—a direct appeal that would never
happen because the substantive claim is
procedurally defaulted—to show actual prejudice
under Strickland. The answer is obvious. Under
Georgia law, a petitioner cannot rely on the legal
standard that would have applied on direct appeal
(here, presumed prejudice)—if only the claim weren’t
procedurally
defaulted—to
show
ineffective
assistance of counsel on collateral attack (that is,
actual Strickland prejudice).59 Georgia case law
explains this.
In Seabolt v. Hall, the defendant was convicted
of murder after a jury trial. 737 S.E.2d 314, 315 (Ga.
2013). At the trial, a witness was allowed to testify
in chambers, and only the judge and the lawyers
were present. Id. at 316. The testimony was
transmitted live to the jury through television. Id.
The defendant’s lawyer did not object on the ground
that defendant had a constitutional right to confront
the witness, and the defendant did not raise the
issue on direct appeal. Id. The defendant then filed a
habeas petition and argued that trial counsel was
ineffective in failing to object and by failing to raise
the issue on direct appeal. Id. “Rather than decide
[the defendant’s] claim as it was raised [on collateral
attack], the [state] habeas court first analyzed the
case as if it were a direct appeal” and applied “a
At least not without arguing cause and prejudice to excuse
the procedural default. Petitioner does not make that argument
before us.
59

76a
presumption of prejudice.” Id. The Supreme Court of
Georgia reversed. Id. at 318. Even though prejudice
would have been presumed on direct appeal, the
Court noted, the defendant had to show actual
prejudice because the error was raised in the context
of an ineffective assistance of counsel claim. See id.
at 317. Nor did the defendant argue that she could
show cause and prejudice to excuse the procedural
default of the substantive claim. Id. at 737.60
Hall directly controls. Like the defendant in
Hall, Petitioner’s substantive claim is procedurally
defaulted. And like the defendant in Hall, Petitioner
says the court hearing his collateral attack should
treat the claim as though it were raised on direct
appeal. But Georgia law bars this. Petitioner must
show actual prejudice—as Strickland requires—to
succeed on his ineffective assistance claim. Or he
must show cause and prejudice to overcome the
procedural bar on the substantive claim. He does not
make this argument before us.61

Even outside the ineffective assistance of counsel context, the
Supreme Court of Georgia has made clear that “a convicted
defendant seeking to overcome a procedural bar is not entitled
to the benefit of a presumption of prejudice that would
otherwise apply.” Turpin v. Todd, 493 S.E.2d 900, 907 (Ga.
1997). Instead, the defendant must show actual prejudice to
overcome the procedural bar. Id. at 908–09.
60

Nor would his burden be any easier if he did. To excuse
procedural default, a petitioner must show actual prejudice, a
showing that the error “worked to his actual and substantial
disadvantage, infecting his entire trial with error of
constitutional dimensions.” Turpin, 493 S.E.2d at 907 (quoting
61

77a
We must respect Georgia’s procedural law.
Mincey v. Head, 206 F.3d 1106, 1135 (11th Cir. 2000)
(“It is well-settled that federal habeas courts may
not consider claims that have been defaulted in state
court pursuant to an adequate and independent
state procedural rule, unless the petitioner can show
‘cause’ for the default and resulting ‘prejudice,’ or ‘a
fundamental miscarriage of justice.’”). And we
cannot breathe life into Petitioner’s defaulted
claim—tossing Georgia procedural law aside—by
treating his collateral attack as a direct appeal.
Indeed, to apply a presumption of prejudice from
a procedurally defaulted claim would have courts
treating collateral review the same as direct review.
See Purvis v. Crosby, 451 F.3d 734, 743 (11th Cir.
2006) (“To hold that the presumption of prejudice
applies not only when properly preserved structural
[trial court] errors are raised on appeal but also
when related ineffective assistance claims are raised
in a collateral proceeding would diminish the
difference between direct and collateral review.”). In
turn, “Any defendant who could not make the
prejudice showing necessary to have a defaulted
claim of structural [trial court] error considered
could bypass that requirement by merely dressing
that claim in ineffective assistance garb and
asserting that prejudice must be presumed.” Id. So,
it’s hardly surprising that Georgia procedural law
prohibits a petitioner from relying on a substantive

United States v. Frady, 456 U.S. 152, 170, 102 S. Ct. 1584,
1595–96 (1982)).

78a
standard that would apply—if only the claim weren’t
defaulted—to then show prejudice under Strickland.
After all, “Consider the farce that would be
created if trial counsel, in a case such as [this], could
for strategic reasons agree to the challenged
arrangement [here, shackles] and then, if the
strategy failed, have the client’s conviction set aside
on appeal.” Hall v. Warden, 686 F. App’x 671, 690
(11th Cir. 2017) (Tjoflat, J., dissenting). This respect
for state procedural law has no doubt driven the
outcome in other cases where courts have said a
petitioner cannot borrow the legal standard from one
context and apply it in another. The borrowing is
prohibited because it borrows from a procedurally
defaulted claim. See, e.g., Premo v. Moore, 562 U.S.
115, 129–30, 131 S. Ct. 733, 744 (2011) (noting that
the state court’s decision that the petitioner failed to
show Strickland prejudice could not have been
“contrary to [Arizona v.] Fulminante, [499 U.S. 279,
111 S. Ct. 1246 (1991)], for Fulminante says nothing
about prejudice for Strickland purposes”); Jones v.
Secretary, 834 F.3d 1299, 1321 (11th Cir. 2016)
(“[W]hile Deck altered the burden of proof in a
substantive shackling claim brought under the Due
Process Clause, it did not affect the petitioner’s
burden to prove actual prejudice when raised in an
ineffective assistance of counsel claim on collateral
review….” (citing Marquard v. Sec’y for Dep’t of
Corr., 429 F.3d 1278, 1313–14 (11th Cir. 2005))).
Put simply, Petitioner cannot borrow presumed
prejudice from a hypothetical direct appeal—that
would never happen because the substantive

79a
shackles claim is procedurally defaulted—and use it
to show actual prejudice under Strickland.62 Doing
so would violate Georgia’s procedural laws and, for
that matter, common sense.
So, Petitioner must show actual prejudice, as
Strickland requires: “a reasonable probability that,
but for his trial counsel’s failure to object to [the]
shackling, the result of his sentencing would have
been different.” Jones, 834 F.3d at 1321 (alteration
The Dissent faults us (and the Georgia Supreme Court) for
distinguishing Deck. It says that we distinguish Deck (and the
other due process cases) because Deck “involved a due process
challenge on direct appeal and not an ineffective assistance of
counsel claim.” Dissenting Op. at 9. But, the Dissent argues,
“This distinction … is one without a difference.” Id. Two quick
points on this. First, the Dissent correctly explains the reason
we distinguished Deck. But the Dissent doesn’t explain the
analytical point we made by distinguishing it. We distinguished
Deck to explain why the presumption of prejudice that comes
with Deck does not apply in this context. That is, we drove
home the point that a presumption of prejudice that applies to
a properly raised substantive claim does not apply to an
ineffective assistance of counsel claim that’s based on a
procedurally defaulted substantive claim. We did not
distinguish Deck as a way of discounting the effect that
shackling has on a jury. Second, by calling the difference in
procedural posture a distinction without a difference, the
Dissent all but borrows presumed prejudice that would apply
on direct appeal to show actual prejudice under Strickland. For
the reasons we’ve explained, the law does not allow this sort of
borrowing. The Dissent does not go so far as to say that it’s
borrowing the prejudice, but that’s the practical effect of its
analysis. It thumbs the scale so far in favor of prejudice, based
on the “inherently prejudicial effect” of shackling, see id. at
8-10, that it’s difficult to imagine a situation when actual
Strickland prejudice wouldn’t be shown.
62

80a
in original) (quoting Marquard, 429 F.3d at 1313).
On top of that, he must show that the Supreme
Court of Georgia’s decision on actual prejudice is
unreasonable. He cannot. The Supreme Court of
Georgia reasonably concluded that the shackles had
little effect on the jury in this case. The evidence
showed that Petitioner had a violent criminal
history. He robbed a man at gunpoint and assaulted
a woman in public. He had been given many chances
to turn things around, but he never did. As for the
murder in this case, the State presented evidence
that showed Petitioner tried to kill two people—he
just happened to miss one of them—presumably
trying to leave no witnesses. He fired both shots at
close range. Put simply, the shackles were trivial in
light of evidence before the jury.63
Again, we give state court decisions “the benefit
of the doubt,” Woodford v. Visciotti, 537 U.S. 19, 24,
123 S. Ct. 357, 360 (2002) (per curiam), and we must
respect the state court’s decision “so long as
‘fairminded jurists could disagree’ on the correctness
of” it. Richter, 562 U.S. at 101, 131 S. Ct. at 786
(quoting Yarborough, 541 U.S. at 664, 124 S. Ct. at
2149). Petitioner has the burden of overcoming this
deferential standard, Cullen v. Pinholster, 563 U.S.
170, 181, 131 S. Ct. 1388, 1398 (2011), and he has
We are mindful that deciding Strickland prejudice is a factintensive question. That said, we think it is telling that the
Dissent cites just two out-of-Circuit cases that (1) found
Strickland prejudice based on shackling and (2) granted federal
habeas relief based on that prejudice. And one of those cases
doesn’t even mention the role the AEDPA deference plays in
federal review of state habeas proceedings.
63

81a
not done that here. The District Court’s decision on
this claim is affirmed.
VII.
The judgment of the District Court is
REVERSED IN PART AND AFFIRMED IN
PART.

82a
JORDAN, Circuit Judge, concurring in part and
dissenting in part:
I concur in the majority opinion with one
exception, and that exception is Mr. Whatley’s
ineffective assistance of counsel claim related to
shackling. On that claim, I respectfully dissent.
At the sentencing phase of his capital trial,
Mr. Whatley was called by his counsel to testify. He
stood up from the defense table and shuffled to the
witness stand, revealing to the jury that he was
restrained by leg shackles. The shackles had not
been visible to the jury during the guilt phase of the
trial because a curtain had been draped over the
defense table to shield them from view. The visible
shackles proved to be only the beginning of the
problem.
During cross-examination, the prosecutor asked
Mr. Whatley to come down into the well of the
courtroom. Mr. Whatley complied, with the shackles
around his ankles yanking his legs together as he
moved. The prosecutor then handed Mr. Whatley a
toy gun and said, “Now, this is not the type of gun
you had that day. I hope you’ll understand why I
don’t want to give you a real gun.” Mr. Whatley
grasped the prop as the jury looked on. The
prosecutor then instructed Mr. Whatley to re-enact
his crime (the fatal shooting of a store owner during
an armed robbery). As the demonstration unfolded,
Mr. Whatley was repeatedly told to point the gun at
the prosecutor, who was simultaneously directing
the scene and playing the role of the murder victim.

83a
The next day, the jurors who observed this
demonstration were asked to decide whether
Mr. Whatley should be sentenced to death. In his
closing argument, the prosecutor—with the image of
Mr. Whatley re-enacting the murder fresh in
everyone’s mind—harped on Mr. Whatley’s future
dangerousness and urged the jury to impose the
death penalty. The jury did as he requested,
sentencing Mr. Whatley to death.
I part company with the majority on the
prejudice prong of Strickland v. Washington, 466
U.S. 668 (1984). In my view, the Georgia Supreme
Court’s ruling—that the sight of Mr. Whatley reenacting the murder while shackled was not
prejudicial—constituted an unreasonable application
of clearly established Supreme Court precedent. See
28 U.S.C. § 2254(d)(1).
The Georgia Supreme Court erred in three
critical ways. First, it failed to conduct the prejudice
inquiry with proper regard for the inherent harm
that results from visible shackling. Second, it did not
take into account the fact that Mr. Whatley wore the
shackles not just while walking to the witness stand,
but while re-enacting the murder in front of the jury
with the prosecutor playing director and victim. And
third, it failed to analyze how the shackles may have
affected the jurors’ views regarding Mr. Whatley’s
alleged propensity for future violence, one of the
major themes of the prosecutor’s closing argument.

84a
I
The Supreme Court has long considered the use
of visible physical restraints (like handcuffs or leg
irons) on criminal defendants to be an inherently
prejudicial practice. See Deck v. Missouri, 544 U.S.
622, 626–29 (2005); Holbrook v. Flynn, 475 U.S. 560,
568–69 (1986); Illinois v. Allen, 397 U.S. 337, 343–44
(1970). Because visible restraints inevitably imply
that a defendant is a dangerous person, they are
justified only by a particularized and essential state
interest and should only be used as “a last resort.”
Allen, 397 U.S. at 344. For decades, we have
similarly viewed the risk of prejudice posed by
visible restraints to be so serious that due process
secures a defendant the right to contest their
necessity. See Elledge v. Dugger, 823 F.2d 1439,
1451–52 (11th Cir.) (defendant restrained at
sentencing phase), opinion withdrawn in part, 833
F.2d 250 (11th Cir. 1987); Zygadlo v. Wainwright,
720 F.2d 1221, 1223–24 (11th Cir. 1983) (defendant
restrained at guilt phase). The Georgia Supreme
Court has come to the same conclusion. See Allen v.
State, 221 S.E.2d 405, 409 (Ga. 1975) (explaining
that restraints should not be used on a criminal
defendant unless the trial court determines that
special circumstances warrant added security
precautions).
During the guilt phase of a trial, the use of
visible restraints seriously jeopardizes a defendant’s
right to a presumption of innocence. At the
sentencing phase, capital defendants are no longer
presumed innocent, but the Supreme Court still

85a
recognizes that the prejudicial effect of visible
restraints is substantial. See Deck, 544 U.S. at 633.
One reason is that “the defendant’s life turns on the
same jury’s answer to the question of future
dangerousness.” Marquez v. Collins, 11 F.3d 1241,
1244 (5th Cir. 1994) (emphasis in original). The use
of shackles “almost inevitably implies to a jury, as a
matter of common sense, that court authorities
consider the offender a danger to the community….”
Deck, 544 U.S. at 633. The Supreme Court has
explained, therefore, that “[t]he use of shackles can
be a thumb on death’s side of the scale.” Id.
In this case, the prosecutor made Mr. Whatley’s
propensity for future violence a major theme in his
argument for the death penalty. During closing
argument, the prosecutor warned the jury that
“Frederick Whatley is going to kill somebody else
unless you execute him. He is going to do that just as
sure as I’m standing here talking to you.” This point
was reiterated many times over. The jurors were told
that Mr. Whatley was “dangerous,” and that prison
would “only make him smarter and meaner.” They
were twice asked to consider whether Mr. Whatley
would “kill a guard if that guard [stood] between him
and freedom.” To make sure there were no doubts,
the prosecutor answered his own rhetorical question
for the jurors: “He will be a threat until the day he is
executed.”
II
To prove ineffective assistance of counsel, a
defendant must show that his counsel’s performance
fell below minimum professional standards, and that

86a
there is a reasonable probability that counsel’s error
affected the outcome of the proceeding. See
Strickland, 466 U.S. at 688, 694. To establish a
reasonable probability, Mr. Whatley does not need to
show that, but for his counsel’s errors, a different
outcome was more likely than not. See Williams v.
Taylor, 529 U.S. 362, 405–06 (2000) (explaining that
a defendant does not need to establish Strickland
prejudice by a preponderance of the evidence).
Instead, he need only establish “a probability
sufficient to undermine confidence in the outcome.”
Strickland, 466 U.S. at 694. Because Georgia
requires a unanimous jury to impose a death
sentence, we conduct the prejudice inquiry by asking
whether there is a reasonable probability that one
member of the jury would have returned a life
sentence rather than a death sentence. See Jones v.
GDCP Warden, 753 F.3d 1171, 1184 (11th Cir. 2014).
The Georgia Supreme Court assumed that trial
counsel’s failure to object to the visible shacking was
deficient performance, but it concluded that
Mr. Whatley had not established prejudice under
Strickland: “In view of the balance of the evidence
presented at his trial, we conclude as a matter of law
that [Mr.] Whatley cannot show that his trial
counsel’s failure to object to his shackling in the
sentencing phase in reasonable probability affected
the jury’s selection of a sentence.” Whatley v. Terry,
668 S.E.2d 651, 663 (Ga. 2008).
Under 28 U.S.C. § 2254(d)(1), we must defer to
the Georgia Supreme Court’s decision unless it “was
contrary to or involved an unreasonable application

87a
of, clearly established Federal law, as determined by
the Supreme Court of the United States.” A state
court decision involves an unreasonable application
of federal law if it “correctly identifies the governing
legal rule but applies it unreasonably to the facts of
a particular prisoner’s case….” Williams, 529 U.S. at
407–08. I believe that the Georgia Supreme Court’s
conclusion regarding prejudice involved an
unreasonable application of Strickland. I am mindful
that a state court decision is not unreasonable just
because a federal court would have reached a
different outcome, and recognize that the
§ 2254(d)(1) showing is a “difficult” one. See
Harrington v. Richter, 562 U.S. 86, 102 (2011). A
state court’s application of federal law must be
“objectively unreasonable” to warrant habeas relief.
See Williams, 529 U.S. at 409. But even giving the
Georgia Supreme Court’s prejudice determination
the deference it is due under AEDPA, I believe
Mr. Whatley is entitled to habeas relief.
A
As explained above, the Strickland prejudice
inquiry requires that we ask whether counsel’s error
(in reasonable probability terms) affected the
outcome. Because the relevant error is counsel’s
failure to object to the visible shackling at
sentencing while Mr. Whatley re-enacted the
murder, we should first ask whether the objection
would have been sustained. If a timely objection
would have been properly overruled, then
Mr. Whatley cannot show prejudice.

88a
A few considerations lead me to conclude that
the objection would have been sustained. First, it
was the prosecutor who expressed a concern about
the restraints at sentencing and asked the trial court
whether measures should be taken to prevent the
jurors from seeing Mr. Whatley in shackles. The
prosecutor told the trial court that he “was just
wondering about the chains.” The only response of
Mr. Whatley’s counsel was, “Well, he’s convicted
now.” This exchange reveals that the prosecutor
would not have opposed an objection if Mr. Whatley’s
counsel had raised one (and would not have
requested that Mr. Whatley be in shackles,
particularly given that he was planning on having
him re-enact the murder in front of the jury).
Second, “[t]he assessment of prejudice should
proceed on the assumption that the decisionmaker is
reasonably,
conscientiously,
and
impartially
applying the standards that govern the decision. It
should not depend on the idiosyncrasies of the
particular
decisionmaker,
such
as
unusual
propensities toward harshness or leniency.”
Strickland, 466 U.S. at 694. As the Georgia Supreme
Court noted, the standards governing shackling at
the time, even at a sentencing hearing, strongly
suggested that it was unconstitutional to shackle
capital defendants in front of the jury without a
showing that the particular defendant presented a
security risk. See, e.g., Moon v. State, 375 S.E.2d
442, 459 (Ga. 1988) (citing Elledge, 823 F.2d at
1451). Third, the prosecutor never presented any
evidence that warranted such a security measure.
Proceeding on the assumption that the trial court
was aware of the applicable authority at the time of

89a
the sentencing hearing, as Strickland instructs, it is
reasonably probable that it would have taken
measures to shield Mr. Whatley’s shackles from the
jury’s view. For example, it could have had
Mr. Whatley walk to the witness box when the jury
was out of the courtroom and could have had him reenact the crime from the witness box, where his
shackles were not visible.
The Georgia Supreme Court did not base its
prejudice ruling on whether or not the objection
would have been successful. That is to say, it did not
hold that the failure to object was not prejudicial
because the trial court would have overruled such an
objection. Rather, it held that, “in view of the
balance of evidence presented at trial,” the shackles
did not affect the outcome. Whatley, 668 S.E.2d at
663. That analysis was deficient.
To decide whether a defendant was prejudiced by
ineffective assistance of counsel at sentencing, we
typically correct for counsel’s error and “reweigh the
evidence in aggravation against the totality of
available mitigating evidence.” Wiggins v. Smith,
539 U.S. 510, 534 (2003). But in the shackling
context, the Supreme Court has explained that the
sight of visible restraints “inevitably undermines the
jury’s ability to weigh accurately all relevant
considerations— considerations that are often
unquantifiable and elusive—when it determines
whether a defendant deserves death.” Deck, 544 U.S.
at 633. See also Elledge, 823 F.2d at 1450 (“[A] jury
might view the shackles as first hand evidence of
future dangerousness and uncontrollable behavior

90a
which if unmanageable in the courtroom may also be
unmanageable in prison, leaving death as a proper
decision.”). The Georgia Supreme Court did not take
this inherently prejudicial effect into account. Nor
did it factor in the re-enactment of the murder in
front of the jury or the prosecutor’s dogged focus on
future dangerousness. See Whatley, 668 S.E.2d at
663.
The majority, like the Georgia Supreme Court,
distinguishes the Supreme Court’s opinion in Deck
because that case involved a due process challenge
on direct appeal and not an ineffective assistance of
counsel claim. This distinction, however, is one
without a difference. The question for us is whether
Mr. Whatley was prejudiced by being shackled
during sentencing in front of the jury while he reenacted his crime with the prosecutor (the avenging
angel who later asked for death) playing the victim.
Deck speaks directly to that issue: “The
appearance of the offender during the penalty phase
in shackles [ ] almost inevitably implies to a jury, as
a matter of common sense, that court authorities
consider the offender a danger to the community.”
Deck, 544 U.S. at 633. We have recognized that
reality as well. See United States v. Durham, 287
F.3d 1297, 1305 (11th Cir. 2002) (“One of the most
prominent concerns about the use of most methods of
restraint comes from the possibility of prejudice to
the defendant if those restraints are visible to the
jury.”); Elledge, 823 F.2d at 1451 (stating that
“[w]hen shackling occurs, it must be subjected to
close judicial scrutiny,” and a court must consider

91a
“whether less restrictive, less prejudicial methods of
restraint were considered or could have been
employed”) (citations omitted). See also Stephenson
v. Neal, 865 F.3d 956, 959 (7th Cir. 2017) (“The
possibility that the defendant’s having to wear [a
visible] stun belt—for no reason, given that he had
no history of acting up in a courtroom—
contaminated the penalty phase of the trial
persuades us to reverse the district court’s denial of
Stephenson’s petition for habeas corpus [claiming
ineffective assistance of counsel.]”); Roche v. Davis,
291 F.3d 473, 484 (7th Cir. 2002) (granting habeas
relief under § 2254(d) on an ineffective assistance of
counsel claim because “the extreme inherent
prejudice associated with shackling,” along with “the
considerable mitigating evidence,” established a
reasonable probability that the outcome would have
been different if counsel had not failed to object to
shackling the defendant at sentencing).
The majority points out that I have only been
able to cite two cases where a court found Strickland
prejudice due to shackling. See Majority Op. at 77
n.63. I concede that this case presents a somewhat
unique basis for an ineffective assistance claim—
where defense counsel neglected to object to his
client being shackled while he was forced to re-enact
the murder in front of the jury and where the
prosecutor focused on future dangerousness to
justify the death penalty. I would point out, however,
that the majority does not cite a single case where a
court concluded that the defendant was not
prejudiced under comparable circumstances. It
instead relies on two cases where there was no

92a
evidence that the jury ever saw the defendant in
shackles. See Jones v. Secretary, 834 F.3d 1299, 1319
(11th Cir. 2016); Marquard v. Sec’y for Dep’t of Corr.,
429 F.3d 1278, 1309 (11th Cir. 2005).
The majority claims not to “discount[ ] the effect
that shacking has on a jury,” and distinguishes Deck
because Mr. Whatley did not raise a substantive
shackling claim on direct appeal. See Majority Op. at
76 n.62. Yet the majority sidesteps the language in
Deck—and in Elledge—describing the inherent
prejudice that shacking causes in this context. It is
telling that the majority devotes several pages to
explaining that we do not presume prejudice when
the defendant challenges his shackling through an
ineffective assistance claim, but devotes only one
paragraph to whether there is a reasonable
probability that the shackling here affected the
outcome at Mr. Whatley’s capital sentencing
hearing.
B
Mr. Whatley’s crime, like all murders, was a
terrible offense which deserved severe punishment.
But the question the jury faced was whether that
punishment should be death—the ultimate sanction
imposed by society. Although the murder was
committed during an armed robbery, Mr. Whatley’s
criminal past was relatively minor, and he did not
have a significant history of violence. He had prior
convictions for forgery and simple assault, and when
he was a teenager, he was convicted of a robbery in
Washington D.C. for stealing one dollar.

93a
At sentencing, the prosecutor presented evidence
regarding Mr. Whatley’s alleged lack of remorse. The
centerpiece of the state’s lack-of-remorse argument
was that Mr. Whatley had expressed concern over
missing the Super Bowl because he had to be in
court. In response, defense counsel called mitigation
witnesses to testify on Mr. Whatley’s behalf. They
explained that Mr. Whatley had been abandoned by
his mother, that he had redeeming qualities, and
that he was deserving of forgiveness.
The jury found two statutory aggravating
circumstances: (1) the crime was committed while
Mr. Whatley was engaged in the commission of an
armed robbery; and (2) Mr. Whatley committed the
crime after escaping from a place of lawful
confinement (Mr. Whatley had fled from a halfway
house). These statutory aggravators, while serious,
are not the worst of the worst. I cannot agree with
the majority that the aggravating circumstances in
this case were so overwhelming that they rendered
“trivial” the sight of Mr. Whatley re-enacting his
crime while in chains. This is especially true given
that the prosecutor repeatedly argued that
Mr. Whatley’s future dangerousness demanded the
death penalty.
I might agree with my colleagues had the
shackles merely been visible to the jury when
Mr. Whatley walked to the witness box. Or if the
trial court had given a curative instruction to the
jury about the restraints. Or if Mr. Whatley was not
forced to re-enact the murder in front of the jury
while the prosecutor played the role of the victim. Or

94a
if the prosecutor had not explicitly made
Mr. Whatley’s future dangerousness a key theme in
favor of his request for death. But prejudice under
Strickland requires a holistic inquiry, and here the
confluence of circumstances leaves me no doubt that
there was prejudice.
In determining whether Mr. Whatley was
prejudiced, the majority does not consider the
circumstances under which the jury saw
Mr. Whatley in shackles. That context, I think, is
essential. The “concept of prejudice is defined in
different ways depending on the context in which it
appears,” and “when a court is evaluating an
ineffective-assistance claim, the ultimate inquiry
must concentrate on the ‘fundamental fairness of the
proceeding.’” Weaver v. Massachusetts, 137 S. Ct.
1899, 1911 (2017). Starting with the recognition that
visible shackling is “inherently prejudicial,” see
Holbrook v. Flynn, 475 U.S. 560, 568 (1986), the
degree of prejudice mounts as one considers how
visible the shackles were and how Mr. Whatley was
forced to wear them while he re-enacted the murder.
See Durham, 287 F.3d at 1305 (noting that,
compared to a stun belt, “handcuffs … are not so
easily concealed, and the possibility of prejudice is
more obvious in such cases”). When considered
together with the prosecutor’s focus on future
dangerousness during closing argument, the
prejudice in Strickland terms is undeniable.
III
The Georgia Supreme Court committed three
errors which rendered its prejudice determination

95a
unreasonable under § 2254(d)(1). First, it did not
take into account the inherently prejudicial effect of
shackling in a capital case. Second, it did not
consider the fact that Mr. Whatley had to re-enact
the murder in front of the jury in shackles with the
prosecutor playing the victim. Third, it failed to
account for the prosecutor’s focus on future
dangerousness in asking for the death penalty. It is
“reasonably probable” that at least one juror’s
decision was tipped in favor of death due to counsel’s
failure to object, and that sufficiently undermines
confidence in the outcome. I would grant
Mr. Whatley partial habeas relief and require the
state to provide him a new sentencing hearing.

96a
APPENDIX B
Case 3:09-cv-00074-WSD
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA
NEWNAN DIVISION
FREDRICK R. WHATLEY,
Petitioner,
v.
STEPHEN UPTON, Warden,
Georgia Diagnostic and
Classification Center,
Respondent.
OPINION AND ORDER
This matter is before the Court on Fredrick R.
Whatley’s (“Petitioner”) Motion to Alter and Amend
Judgment [58] (“Motion to Alter”).
I.

BACKGROUND

On June 4, 1996, a grand jury in the Superior
Court of Spalding County indicted Petitioner for
malice murder, felony murder, aggravated assault,
armed robbery, motor vehicle hijacking, possession
of a firearm during the commission of a crime, and
possession of a firearm by a convicted felon. (Resp’t’s
Ex. 1A at 9-11). The charges were tried before a jury

97a
in Spalding County, which, on January 16, 1997,
found Petitioner guilty of malice murder and the
other offenses with which he was charged. Petitioner
was sentenced to death.1 Whatley, 509 S.E.2d at 48
n.1. On December 4, 1998, the Supreme Court of
Georgia affirmed Petitioner’s conviction and
sentence. Id. at 53. Petitioner’s application for a writ
of certiorari to the United States Supreme Court was
denied. Whatley v. Georgia, 526 U.S. 1101, reh’g
denied, 527 U.S. 1016 (1999).
On August 6, 1999, Petitioner filed, in the Butts
County Superior Court, his state petition for writ of
habeas corpus. Whatley, 668 S.E.2d at 653. On
December 8, 2005, closing arguments on the state
habeas petition were heard in the Butts County
Superior Court, and on November 29, 2006, an order
was entered denying Petitioner’s habeas petition on
the grounds that several of Petitioner’s claims were
procedurally barred and that Petitioner was not
otherwise entitled to relief. Whatley, 668 S.E.2d at
653; (Resp’t’s Ex. 64 at 1, 3-4; Resp’t’s Ex. 71 at 63).
On October 6, 2008, the Supreme Court of Georgia
affirmed, Whatley, 668 S.E.2d at 664, and on May
18, 2009, the United States Supreme Court denied
Petitioner’s application for writ of certiorari, Whatley
v. Terry, 129 S. Ct. 2409 (2009).

In addition to his death sentence, Petitioner also was
sentenced to serve consecutive terms of life imprisonment for
armed robbery, two twenty-year terms for the aggravated
assault, a twenty-year term for motor vehicle hijacking, and a
five-year term for possessing a firearm during the commission
of a crime.
1

98a
On June 30, 2009, Petitioner filed his Federal
Petition for Writ of Habeas Corpus in this Court,
asserting eighteen claims. Of these, seventeen were
dismissed as either procedurally barred, abandoned,
or that Petitioner was not otherwise entitled to
relief. On April 9, 2013, relief was granted to
Petitioner on his claim of ineffective assistance of
counsel based on inadequate investigation (Claim IX,
Subpart A). (Order of Apr. 9, 2013, at 82.)
On May 7, 2013, pursuant to Federal Rule of
Civil Procedure 59(e), Petitioner moved the Court to
reconsider its order with respect to Claim IX,
Subpart C, in which Petitioner asserted a claim for
ineffective assistance of counsel based on his trial
attorney’s failure to object to Petitioner appearing
before the jury in shackles during the penalty phase
of his trial.
During the penalty phase, Petitioner was called,
while in shackles, to testify and reenact the murder
before the jury. In a bench conference prior to
Petitioner taking the stand, the prosecutor asked
whether the jury should leave the courtroom before
Petitioner took the stand so that they would not see
Petitioner’s shackles. (Resp’t’s Ex. 13A at 1412).
Petitioner’s counsel responded, “Well, he’s convicted
now.” Id. Thus, without any objection by his counsel,
the jury watched Petitioner take the stand and
testify while shackled.

99a
II. DISCUSSION
A. Standard for Granting a Motion to Amend
Judgment Pursuant to Rule 59(e)
A motion under Rule 59(e), which permits a
party to move for relief from a judgment, is granted
only under limited circumstances. To alter or amend
a judgment, the moving party must show either “an
intervening change in controlling law, the
availability of new evidence, or the need to correct
clear error or prevent manifest injustice.” United
States v. Battle, 272 F. Supp. 2d 1354, 1357 (N.D.
Ga. 2003). The Rule 59(e) movant “must
demonstrate why the court should reconsider its
decision and set forth facts or law of a strongly
convincing nature to induce the court to reverse its
prior decision.” Id. (internal quotations omitted). The
decision whether to grant a Rule 59(e) motion is
“committed to the sound discretion of the district
judge.” Am. Home Assurance Co. v. Glenn Estess &
Assocs., 763 F.2d 1237, 1238-39 (11th Cir. 1985). “[A]
Rule 59(e) motion [cannot be used] to relitigate old
matters, raise argument or present evidence that
could have been raised prior to entry of judgment.”
Michael Linet, Inc. v. Vill. of Wellington, 408 F.3d
757, 763 (11th Cir. 2005). “The function of a motion
to alter or amend a judgment is not to serve as a
vehicle to relitigate old matters or present the case
under a new legal theory [or] to give the moving
party another ‘bite at the apple’ by permitting the
arguing of issues and procedures that could and
should have been raised prior to judgment.” Mincey
v. Head, 206 F.3d 1106, 1137 n. 69 (11th Cir. 2000).

100a
B. Analysis
Petitioner contends that this Court committed
clear error by denying him relief on one of his claims
for ineffective assistance of counsel. In evaluating a
habeas petition under 28 U.S.C. § 2254, a district
court evaluates whether a state court’s adjudication
“was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d)(1). See also Williams v.
Taylor, 529 U.S. 362, 379 (2000). “The decision of a
state court is not ‘contrary to’ federal law unless it
‘contradicts the United States Supreme Court on a
settled question of law or holds differently than did
that Court on a set of materially indistinguishable
facts.’” Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316,
1325 (11th Cir. 2013) (en banc) (quoting Cummings
v. Sec’y, Dep’t of Corr., 588 F.3d 1331, 1355 (11th
Cir. 2009)). In determining whether federal law is
“settled” or “clearly established,” the court must look
at the status of the law “at the time the state
conviction became final.” In re Perez, 682 F.3d 930,
933 (11th Cir. 2012) (quoting Williams, 529 U.S. at
380). “The question under [Section 2254(d)(1)] is not
whether a federal court believes the state court’s
determination was correct but whether that
determination was unreasonable—a substantially
higher threshold.” Evans, 703 F.3d at 1325 (quoting
Cummings, 588 F.3d at 1355). This standard “was
intended to be, and is, a difficult one.” Johnson v.
Sec’y, DOC, 643 F.3d 907, 910 (11th Cir. 2011)
(quoting Harrington v. Richter, 131 S. Ct. 770, 786
(2011)).

101a
This Court determined, and Petitioner agrees,
that the law applicable to a claim for ineffective
assistance of counsel is set out in Strickland v.
Washington, 466 U.S. 688 (1984). Strickland
provides a two-part test for demonstrating
ineffective assistance:
First, the defendant must show that counsel’s
performance was deficient. This requires
showing that counsel made errors so serious that
counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show
that the deficient performance prejudiced the
defense. This requires showing that counsel’s
errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.
Strickland, 466 U.S. at 687.
Petitioner argues that this Court erred in
evaluating whether the Georgia Supreme Court
reasonably applied Strickland. The Georgia Supreme
Court considered Petitioner’s claim that competent
counsel would have objected to presenting Petitioner
to the jury in shackles during the penalty phase of
trial, and concluded that Petitioner could not, as a
matter of law, demonstrate that he had been
prejudiced. The opinion of Georgia Supreme Court
includes the following discussion:
Whatley argues that his trial counsel rendered
ineffective assistance by failing to object to his
being placed in visible shackles during the

102a
sentencing phase, including during his physical
demonstration of his version of events for the
jury. The Supreme Court of the United States
decided in 2005, well after Whatley’s trial and
direct appeal, that visibly shackling a defendant
during the sentencing phase is unconstitutional
unless the record shows “‘an essential state
interest’-such as the interest in courtroom
security-specific to the defendant on trial.” The
Warden argues that counsel should not be
regarded as having performed deficiently by
failing to object to the shackling, because the
practice had not yet been established as
unconstitutional. However, at the time of
Whatley’s trial, this Court had already strongly
suggested in dictum that it was unconstitutional
to place visible shackles on a death penalty
defendant during the sentencing phase without a
showing of particular need. We therefore
assume, at least for the purpose of this
discussion, that trial counsel performed
deficiently in failing to recognize the legal basis
for an objection to visible shackling in the
sentencing phase.
On direct appeal where unconstitutional
shackling has occurred, there is a presumption of
harm that can be overcome only upon a showing
by the State that the shackling was harmless
beyond a reasonable doubt. However, where, as
here, the issue is the ineffective assistance of
trial counsel in failing to object to such
shackling, the petitioner is entitled to relief only
if he or she can show that there is a reasonable

103a
probability that the shackling affected the
outcome of the trial. In view of the balance of the
evidence presented at his trial, we conclude as a
matter of law that Whatley cannot show that his
trial counsel’s failure to object to his shackling in
the sentencing phase in reasonable probability
affected the jury’s selection of a sentence.
Whatley, 668 S.E.2d at 663 (footnotes omitted).2
Petitioner maintains that his counsel’s failure to
object to his shackling must be considered as
evidence of counsel’s incompetence, because his
decision not to object to Petitioner’s shackles was not
a reasonable trial strategy. It is not necessary to
consider this trial strategy question here. The
Georgia Supreme Court assumed that trial counsel’s
performance was deficient. The Georgia Supreme
Court based its decision only on the second
Strickland prong, whether Petitioner was prejudiced
by counsel’s failure to object to Petitioner’s visible
shackles. The Supreme Court found that Petitioner
had not been prejudiced. Id.3 In its April 9, 2013,
The United States Supreme Court held in Deck v. Missouri,
544 U.S. 622, (2005) that shackling at the penalty phase of a
trial was unconstitutional. This rule, however, does not apply
retroactively to Petitioner’s conviction in 1997. See Marquard v.
Sec’y for Dep’t of Corr., 429 F.3d 1278, 1312 (11th Cir. 2005)
(holding that Deck did not apply retroactively to a 1993
conviction).
2

The Supreme Court of Georgia also “assume[d], at least for
the purpose of this discussion,” that Petitioner’s lawyer’s
conduct, when evaluated under the first Strickland prong, was
deficient. Id.
3

104a
Order, this Court held that it was unable to
conclude, as a matter of law, that it was
unreasonable for the Georgia Supreme Court to find
that Petitioner had not been prejudiced by counsel’s
failure to object. The Court, on the record before it,
determined that Petitioner’s claim for relief was
required to be denied. (Order of Apr. 9, 2013, at 94.)
See Evans, 703 F.3d at 1325.
In requesting the Court to reconsider this
finding in its order, Petitioner argues that the
prejudice he suffered is apparent in this case
because, had his counsel objected, Petitioner’s
shackles would have been removed or action taken to
prevent their detection, or Petitioner would have
preserved the right to challenge his shackling on
appeal. Petitioner argues that had this issue been
preserved for appeal, his sentence and conviction
would have been vacated. Petitioner claims his
success on appeal is self-evident because the Georgia
Supreme Court, as noted, “had already strongly
suggested in dictum that it was unconstitutional to
place visible shackles on a death penalty defendant
during the sentencing phase without a showing of
particular need.” See Whatley, 668 S.E.2d at 663.
The Court addressed in its April 9, 2013, Order
the argument that Petitioner raises in his Motion to
Alter. The question is whether Petitioner can
demonstrate that, absent shackles, the jury would
not have sentenced him to death. See Strickland, 466
U.S. at 695 (“When a defendant challenges a death
sentence such as the one at issue in this case, the
question is whether there is a reasonable probability

105a
that, absent errors, the sentencer-including an
appellate court, to the extent it independently
reweighs the evidence-would have concluded that
the balance of aggravating and mitigating
circumstances did not warrant death.”). The Georgia
Supreme Court concluded that Petitioner could not
make this showing, and Petitioner has not provided
this Court with any basis for concluding that this
determination is unreasonable. Indeed, as this Court
previously found,
[c]onsidering the evidence that was introduce at
trial, the jury’s implicit rejection of Whatley’s
[version of events], the State’s case in
aggravation during the penalty phase, and that
there was some support for a need to protect the
jury during the reenactment, the Court is unable
to conclude—even if there were unprofessional
errors by his counsel—that there is a reasonable
probability that Whatley would have received a
sentence other than death had Whatley’s counsel
objected to his being seen in shackles.
(Order of Apr. 9, 2013, at 94.) Petitioner did not
demonstrate any error with this analysis, and the
Court does not find any now.4

In its April 9, 2013, Order, the Court determined that
Petitioner was entitled to habeas relief on his claim of
ineffective assistance of counsel based on inadequate
investigation (Claim IX, Subpart A). In this Opinion and Order,
the Court recognized that Petitioner’s counsel also may have
conducted himself outside the bounds of professional
competence by failing to object to Petitioner’s shackling during
the sentencing phase of Petitioner’s trial. However, the Court
4

106a
Petitioner has failed to demonstrate either “an
intervening change in controlling law, the
availability of new evidence, or the need to correct
clear error or prevent manifest injustice,” Battle, 272
F. Supp. 2d at 1357. Petitioner’s motion under
Rule 59(e) is required to be denied.
III. CONCLUSION
Accordingly, for the foregoing reasons,
IT IS HEREBY ORDERED that Fredrick R.
Whatley’s Motion to Alter or Amend Judgment [58]
is DENIED.
SO ORDERED this 9th day of October, 2013.
/s/William S. Duffy
WILLIAM S. DUFFY JR.
UNITED
STATES
DISTRICT JUDGE

specifically finds that Petitioner’s shackling is not an
independent basis for habeas relief because Petitioner is unable
to show that counsel’s failure to object to the shackling affected
the jury’s decision to impose the death penalty. That is, the
Court does not find that the cumulative effect of Petitioner’s
counsel’s errors warrants habeas relief, except as determined in
the April 9, 2013, Order.

107a
APPENDIX C
No. 3:09-cv-0074-WSD
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA NEWNAN DIVISION
FREDRICK R. WHATLEY,
Petitioner,
v.
STEPHEN UPTON, Warden,
Georgia Diagnostic and
Classification Center,
Respondent.
OPINION AND ORDER
This matter is before the Court on Fredrick R.
Whatley’s (“Petitioner” or “Whatley”) Petition for
Writ of Habeas Corpus by a Person in State Custody
(“Federal Petition for Writ of Habeas Corpus”) [1].

108a
I.

BACKGROUND1

On June 4, 1996, a grand jury in the Superior
Court of Spalding County indicted Petitioner with
malice murder, felony murder, aggravated assault,
Under 28 U.S.C. § 2254(e)(1), “[i]n a proceeding instituted by
an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be
presumed to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and
convincing evidence.” The Court held in its March 20, 2012,
Order that Petitioner was not prevented from diligently
developing the factual basis for his claims in the state habeas
court, that Petitioner did not suffer a deprivation of due
process, and that the determination of factual issues made by
the state habeas court shall be presumed to be correct. (Order
of Mar. 20, 2012, at 13-14); See Also Slater v. Sec’y, Dep’t of
Corr., 260 F. App’x 177, 179 (11th Cir. 2007) (district court did
not err in denying petitioner’s request for evidentiary hearing
and applying presumption of correctness to state court’s factual
findings where petitioner received full and fair evidentiary
hearing on his claims in state court). Thus, the facts in this
action that are taken from the state habeas court and Georgia
Supreme Court findings are presumed to be correct unless they
are rebutted by clear and convincing evidence. See 28 U.S.C.
§ 2254(e)(1); Whatley v. Terry, 668 S.E.2d 651 (Ga. 2008);
Whatley v. State, 509 S.E.2d 45 (Ga. 1998); (Resp’t’s Ex. 71
[14.14]). Having reviewed the record in this action, the Court
finds that where the Court does not accept as true a specific
fact, a finding based on an interpretation of multiple facts, or a
general interpretation of facts by the state courts, Petitioner
has rebutted these facts and inferences based on clear and
convincing evidence that exists in the record. The Court in this
Order also reviews the evidence presented in the state court
proceedings to determine if the state court adjudication of the
claims resulted in a decision that was based on an
unreasonable determination of the facts. See 28 U.S.C.
§ 2254(d), (e)(1).
1

109a
armed robbery, motor vehicle hijacking, possession
of a firearm during the commission of a crime, and
possession of a firearm by a convicted felon. (Resp’t’s
Ex. 1A at 9-11). These charges were tried before a
jury in Spalding County, which, on January 16,
1997, found Petitioner guilty of malice murder and
the other offenses with which he was charged.
Petitioner was sentenced to death. Whatley, 509
S.E.2d at 48 n.1. On December 4, 1998, the Supreme
Court of Georgia affirmed Petitioner’s conviction and
sentence. Id. at 53. Petitioner’s application for a writ
of certiorari to the United States Supreme Court was
denied. Whatley v. Georgia, 526 U.S. 1101, reh’g
denied, 527 U.S. 1016 (1999).
On August 6, 1999, Petitioner filed his state
petition for writ of habeas corpus (“state habeas
petition”) in the Butts County Superior Court.
Whatley, 668 S.E.2d at 653. The petition was
amended on April 30, 2001. Id.
On July 30, 2002, an evidentiary hearing on the
state habeas petition was held at the Georgia
Diagnostic and Classification Center. Id.; (Resp’t’s
Ex. 39). At the hearing, Petitioner presented
affidavits, depositions, documentary evidence, and
witness testimony in support of his claims. (Resp’t’s
Exs. 39-43).2

The hearing was held before Fulton County Superior Court
Judge Roland W. Barnes. Judge Barnes was murdered in his
courtroom on March 11, 2005, by Brian Nichols, and Fulton
County Superior Court Judge John S. Langford was assigned to
complete Petitioner’s state habeas proceeding, including based
2

110a
On December 8, 2005, closing arguments on the
state habeas petition were heard in the Butts
County Superior Court, and on November 29, 2006,
an order was entered denying Petitioner’s habeas
petition on the grounds that several of Petitioner’s
claims were procedurally barred and that Petitioner
was not otherwise entitled to relief. Whatley, 668
S.E.2d at 653; (Resp’t’s Ex. 64 at 1, 3-4; Resp’t’s Ex.
71 at 63). On October 6, 2008, the Supreme Court of
Georgia affirmed the denial of Petitioner’s request
for habeas corpus relief. Whatley, 668 S.E.2d at 664.
Petitioner’s application for writ of certiorari was
denied by the United States Supreme Court on May
18, 2009. Whatley v. Terry, 129 S. Ct. 2409 (2009).
On June 30, 2009, Petitioner filed his Federal
Petition for Writ of Habeas Corpus in this Court. In
his Petition, Whatley asserts the following eighteen
(18) claims:
Claim I – The State failed to disclose exculpatory
information under the rule of Brady v.
Maryland, 373 U.S. 83 (1963), and Giglio v.
United States, 405 U.S. 150 (1972).
Claims II and III – Petitioner was deprived of an
impartial jury through improper juror exclusion
and inclusion.
Claim IV – Petitioner’s constitutional rights
were violated by the introduction of prejudicial
and inflammatory evidence at trial.
on the record of the July 30, 2002, evidentiary hearing over
which Judge Barnes presided. (Resp’t’s Ex. 64 at 1, 3-4).

111a
Claim V – Petitioner’s constitutional rights were
violated when he was visibly shackled during his
trial and sentencing.
Claim VI – Petitioner’s constitutional rights
were violated because the trial court did not
provide him with the necessary assistance of
competent and independent mental health
experts.
Claim VII – Petitioner’s constitutional rights
were violated because his trial counsel’s
overwhelming caseload rendered the adversarial
process meaningless under United States v.
Cronic, 466 U.S. 648 (1984).
Claim VIII – Petitioner’s constitutional rights
were violated because his trial counsel’s
overwhelming caseload created an actual conflict
of interest between Whatley’s rights and the
rights of the other indigent criminal defendants
represented by his trial counsel.
Claim IX – Petitioner’s trial counsel rendered
ineffective assistance of counsel before, during,
and after his trial because of counsel’s:
A – Failure to investigate and prepare
evidence in mitigation, and to rebut evidence
in aggravation, at Petitioner’s sentencing;
B – Mishandling of requests for mental
health experts;

112a
C – Failure to object to unwarranted and
improper shackling of Petitioner during
sentencing;
D – Failure to obtain assistance of a
ballistics expert and to move for a ballistics
expert;
E – Failure to object to the prosecutor’s
improper
closing
argument
during
sentencing;
F – Failure to move to strike for cause
certain prospective jurors;
G – Failure to object to the trial court’s
improper response to a juror question
regarding the possibility of parole; and
H – “Additional areas”
assistance of counsel.

of

ineffective

Claim X – Petitioner was deprived of his right to
effective assistance of counsel in the filing of his
motion for new trial, and on direct appeal.
Claim XI – Petitioner’s constitutional rights
were violated when the prosecutor and other law
enforcement officials engaged in serious
misconduct by secretly paying and threatening a
witness in violation of the principles in Giglio v.
United States.
Claim XII – Petitioner’s constitutional rights
were violated when the prosecutor engaged in

113a
improper conduct during his closing argument
because of the prosecutor’s:
A – Improper argument that Whatley
committed other crimes and that his
criminal history was more extensive than the
evidence showed;
B – Improper “testimony” about conditions in
prison;
C – “Other instances of misconduct” during
closing argument; and
D – Argument, without evidentiary support,
that Whatley would kill again.
Claim XIII – Petitioner’s constitutional rights
were violated when the trial court erroneously
failed to answer the jury’s question about parole
eligibility.
Claim XIV – Petitioner’s constitutional rights
were violated when he was required to be
represented by an attorney who was known by
the courts to be a racist.
Claim XV – Petitioner’s death sentence is tainted
by racial bias and discrimination of the
decision-makers in his case.
Claim XVI – Petitioner’s constitutional rights
were violated when the trial court failed to
inquire into a report from the court-appointed

114a
mental health expert that there were serious
concerns about his competency.
Claim XVII – Petitioner was tried while
incompetent in violation of his constitutional
rights.
Claim XVIII – When the cumulative effect of the
errors are considered, Petitioner is entitled to
relief.
On November 9, 2009, Stephen Upton, Warden,
Georgia Diagnostic and Classification Center
(“Respondent”) filed his Motion and Brief in Support
of Procedural Defenses to Petitioner’s Procedurally
Defaulted and Unexhausted Claims Raised in his
Petition for Writ of Habeas Corpus. On March 29,
2011, the Court issued its Order on Respondent’s
procedural defenses and concluded that Petitioner’s
Claims II, IV, VI, XIV, XV, and XVI were
procedurally defaulted, without prejudice to
Petitioner demonstrating cause and prejudice to
excuse the default; that Petitioner’s Claim XI was
not procedurally defaulted, but only if Petitioner can
show cause and prejudice to set aside his procedural
default; and, that Petitioner’s Claim XVII was not
procedurally defaulted. (Order of Mar. 29, 2011, at
17). On May 11, 2011, Petitioner filed his Motion for
Evidentiary Hearing [29], which the Court denied on
March 20, 2012. (Order of Mar. 20, 2012, at 15).
Twelve claims remain in the habeas proceeding.
Petitioner briefed only Claims I, VII, VIII, IX, XI,

115a
XII, and XVIII.3 In his Brief in Support of his
Petition, Petitioner asserts, for the first time, that
his federal habeas action should be stayed and held
in abeyance in light of Georgia’s new lethal injection
protocol.
This action arises from Petitioner’s conviction in
the Superior Court of Spalding County of malice
murder, two counts of aggravated assault, armed
robbery, motor vehicle hijacking, and possession of a
firearm during the commission of a crime. Petitioner
was sentenced to death based on his malice murder

Because Petitioner did not brief Claims III, V, X, XIII, and
XVII, these claims are deemed abandoned. See Isaacs v. Head,
300 F.3d 1232, 1253 n.6 (11th Cir. 2002). Petitioner also did not
brief the following subparts of his ineffective assistance of
counsel claim, Claim IX: Subpart E, “Counsel Was Ineffective
for Failing to Object to Improper Closing Argument Made by
the Prosecutor During the Sentencing Phase;” Subpart F, “Trial
Counsel Was Ineffective for Failing to Strike for Cause
Prospective Jurors;” Subpart G, “Counsel Failed to Object to
the Court’s Improper Response to a Juror Question Regarding
the Possibility of Parole;” and Subpart H, “Additional Areas of
Ineffective Assistance of Counsel.” The Court deems these
subparts of Claim IX to be abandoned. See id. The Court also
finds that Petitioner failed to show that the state court
adjudication on the merits of these unbriefed claims resulted in
a decision that “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined
by the Supreme Court of the United States” or “was based on
an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” See
28 U.S.C. § 2254(d)(1), (2).
3

116a
conviction.4 The Georgia Supreme Court described
the events that led to his conviction as follows:
At 8:45 p.m. on January 26, 1995, Whatley
entered Roy’s Bait Shop in Griffin armed
with a .32 caliber revolver he had stolen from
a relative. The only persons inside the store
at the time were the owner, Ed Allen, and an
employee named Tommy Bunn. Whatley
forced Bunn to lie on the floor behind the
service counter and held the .32 caliber
revolver to Bunn’s head, and he threatened
to shoot Bunn if Allen did not comply with
his demand for the money from the cash
register. Allen placed the money in a paper
sack, and Whatley took it. Whatley backed
around to the front of the counter and fired
two shots, one shot striking Allen in the
chest from a range of 15 to 18 inches and a
second shot striking the counter that Bunn
was lying behind from a range of 8 inches.
Allen pursued Whatley and fired his .44
caliber single-action pistol at him. Whatley
left the store and encountered Ray Coursey,
who had just arrived at the store in an
automobile. Whatley held the revolver to
Coursey and demanded a ride. Allen came
out of the store and continued firing his
In addition to his death sentence, Petitioner also was
sentenced to serve consecutive terms of life imprisonment for
armed robbery, two twenty-year terms for the aggravated
assault, a twenty-year term for motor vehicle hijacking, and a
five-year term for possessing a firearm during the commission
of a crime.
4

117a
pistol at Whatley. Whatley exited Coursey’s
automobile on the side opposite from Allen’s
position, and he fled on foot. At some point,
Whatley was shot in the right knee. After
Whatley ran away, Allen returned to the
store, told Bunn to call 911, lay down on the
floor, and died of internal bleeding.
Whatley, 668 S.E.2d at 653.5
II. DISCUSSION
A. Section 2254 Standard of Review
Under 28 U.S.C. § 2254, as amended by the
Antiterrorism and Effective Death Penalty Act
(“AEDPA”),
[a]n application for a writ of habeas corpus
on behalf of a person in custody pursuant to
the judgment of a State court shall not be
granted with respect to any claim that was
adjudicated on the merits in State court
“We quote extensively from the [state court’s] decision
because its factfinding, arguments and theories must be the
focus of our inquiry under AEDPA. The Supreme Court has
made clear that ‘a habeas court must determine what
arguments or theories supported… the state’s court decision;
and then it must ask whether it is possible fairminded jurists
could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the
Supreme Court].’” Evans v. Sec’y, Dep’t of Corrs., 681 F.3d
1241, 1250 n.11 (11th Cir. 2012) (quoting Harrington v.
Richter, 131 S. Ct. 770, 786 (2011)), vacated other grounds, 703
F.3d 1316 (11th Cir. 2013) (en banc).
5

118a
proceedings unless the adjudication of the
claim—
(1) resulted in a decision that was
contrary to, or involved an unreasonable
application of, clearly established Federal
law, as determined by the Supreme Court of
the United States; or
(2) resulted in a decision that was
based on an unreasonable determination of
the facts in light of the evidence presented in
the State court proceeding.
28 U.S.C. § 2254(d). A state court’s determination of
factual issues is “presumed to be correct” unless a
petitioner “rebut[s] the presumption of correctness
by clear and convincing evidence.” Id. § 2254(e)(1).
In evaluating a habeas petition under
§ 2254(d)(1), a district court must first determine the
applicable “clearly established Federal law, as
determined by the Supreme Court of the United
States.” Williams v. Taylor, 529 U.S. 362, 379 (2000)
(quoting 28 U.S.C. § 2254(d)(1)). “The decision of a
state court is not ‘contrary to’ federal law unless it
‘contradicts the United States Supreme Court on a
settled question of law or holds differently than did
that Court on a set of materially indistinguishable
facts.’” Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316,
1325 (11th Cir. 2013) (en banc) (quoting Cummings
v. Sec’y, Dep’t of Corr., 588 F.3d 1331, 1355 (11th
Cir. 2009)). In determining whether federal law is
“settled” or “clearly established,” the court must look
at the status of the law “at the time the state

119a
conviction became final.” In re Perez, 682 F.3d 930,
933 (11th Cir. 2012) (quoting Williams, 529 U.S. at
380).
Second, the court must determine whether a
state court decision is “‘contrary to, or involved an
unreasonable application of,’ that clearly established
law.” Williams, 529 U.S. at 379 (quoting 28 U.S.C.
§ 2254(d)(1)). “The question under [§ 2254(d)(1)] is
not whether a federal court believes the state court’s
determination was correct but whether that
determination was unreasonable—a substantially
higher threshold.” Evans, 703 F.3d at 1325 (quoting
Cummings, 588 F.3d at 1355). “Error alone” by the
state court “is not enough” to warrant habeas corpus
relief because “an unreasonable application of
federal law is different from an incorrect application
of federal law,” and “even a strong case for relief
does not mean the state court’s contrary conclusion
was unreasonable.” Johnson v. Sec’y, DOC, 643 F.3d
907, 910 (11th Cir. 2011) (quoting Harrington, 131 S.
Ct. at 786 (2011)); Accord Evans, 703 F.3d at 1326.
The inquiry requires the court to “determine what
arguments or theories supported or, [if none were
stated], could have supported [ ] the state court’s
decision” and then to “ask whether it is possible that
fairminded jurists could disagree that those
arguments or theories are inconsistent with the
holding in a prior decision of [the Supreme Court].”
Evans, 703 F.3d at 1326 (alterations in original)
(quoting Reese v. Sec’y, Fla. Dep’t of Corr., 675 F.3d
1277, 1286–87 (11th Cir. 2012)). This standard “was
intended to be, and is, a difficult one.” Johnson, 643
F.3d at 910 (citing Harrington, 131 S. Ct. at 786).

120a
But there are cases that merit relief under the
standard. See id. at 911.
B. The Claims of the Federal Habeas Petition
1. Claim I - Petitioner’s claim that favorable
evidence was suppressed in violation of
Brady v. Maryland
Whatley claims that favorable evidence was
suppressed in violation of Brady v. Maryland when
the State failed to disclose, prior to trial, a second
statement that Tommy Bunn (“Bunn”), a key
prosecution witness, gave regarding the events of Ed
Allen’s death (the “January 27th Statement”). See
373 U.S. 83 (1963). This second statement was given
to local law enforcement the day after Allen’s death.
The state habeas court and the Supreme Court of
Georgia found that Whatley’s Brady claim6 was
procedurally defaulted.7

Under Brady, “suppression by the prosecution of evidence
favorable to an accused upon request violates due process
where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.”
373 U.S. at 87. When the Government withholds evidence, a
Brady violation occurs only if the evidence is (1) favorable to
the accused (because it is exculpatory or impeaching) and (2)
material (so that its non-disclosure caused the defendant
prejudice). See, E.g., Cone v. Bell, 556 U.S. 449, 469-70 (2009);
Strickler v. Greene, 527 U.S. 263, 281-82 (1999); Allen v. Sec’y,
Fla. Dep’t of Corr., 611 F.3d 740, 745-46 (11th Cir. 2010). The
government’s failure to produce to a defendant impeaching or
exculpatory evidence in its possession constitutes a violation of
a defendant’s due process rights if: (i) the government
suppressed the evidence either willfully or inadvertently; and
6

121a
“[W]here the state court correctly applies a
procedural default principle of state law to arrive at
the conclusion that the petitioner’s federal claims
are barred, Sykes requires the federal court to
respect the state court’s decision.” Bailey v. Nagle,
172 F.3d 1299, 1302 (11th Cir. 1999) (citing
Wainright v. Sykes, 433 U.S. 72 (1977)); See Also
Mincey v. Head, 206 F.3d 1106, 1135 (11th Cir. 2000)
(“It is well-settled that federal habeas courts may
not consider claims that have been defaulted in state
court pursuant to an adequate and independent
state procedural rule, unless the petitioner can show
‘cause’ for the default and resulting ‘prejudice,’ or ‘a
(ii) prejudice ensued, i.e., the evidence was material. Banks v.
Dretke, 540 U.S. 668, 691 (2004). Favorable evidence is
material if it “could reasonably be taken to put the whole case
in such a different light as to undermine confidence in the
verdict.” Id. at 698 (quoting Kyles v. Whitley, 514 U.S. 419, 435
(1995)). A defendant “must show a reasonable probability of a
different result.” Id. at 699 (quoting Kyles, 514 U.S. at 435).
Petitioner seems to assert that Respondent waived his
procedural default defense to the Brady claim by failing to raise
it in his Answer. (See Pet’r’s Reply Br. in Supp. of Pet. at 2).
The Court notes, however, that Respondent stated in his
Answer that “Respondent expressly adopts and relies upon any
findings made by the state courts as to the procedural default
of any and all claims not timely raised at trial and on appeal as
required by O.C.G.A. § 9-14-48(d).” (Resp’t’s Answer at 11). The
state habeas court and Supreme Court of Georgia both found
this claim was procedurally defaulted. See Whatley, 668 S.E.2d
at 655; (Resp’t’s Ex. 71 at 55-56); See Also Coleman v.
Thompson, 501 U.S. 722, 735 n.1 (1991) (Claims may also be
procedurally defaulted if a petitioner failed to present them in
state court and “the court to which the petitioner would be
required to present his claims in order to meet the exhaustion
requirement would now find the claims procedurally barred.”).
7

122a
fundamental miscarriage of justice.’”). When a state
court addresses the merits of a claim and finds a
procedural default, a district court should apply the
procedural bar and decline to reach the merits of the
claim. See Harris v. Reed, 489 U.S. 255, 264 n.10
(1989); Osborne v. Terry, 466 F.3d 1298, 1315 (11th
Cir. 2006); White v. Singletary, 972 F.2d 1218, 1227
(11th Cir. 1992); Richardson v. Thigpen, 883 F.2d
895, 898 (11th Cir. 1989); Hittson v. Humphrey,
No. 5:01-CV-384 (MTT), 2012 WL 5497808, at *8
n.10 (M.D. Ga. Nov. 13, 2012).
a.

State court adjudication

The state habeas court found that Whatley’s
Brady-based claim was not raised at trial or on
direct appeal, and thus was procedurally defaulted.
Whatley, 668 S.E.2d at 655. Under Georgia law, a
petitioner may excuse his procedural default of an
evidence suppression claim in a habeas proceeding
by satisfying a two-part cause and prejudice test. See
id. To satisfy the “cause” prong, a petitioner must
show that the State breached a “constitutional duty”
to disclose the information forming the basis of the
claim. See id. at 655 n.8 (citing Turpin v. Todd, 493
S.E.2d 900 (Ga. 1997)). To demonstrate prejudice, a
petitioner must show:
(1) the State possessed evidence favorable to
the defendant; (2) the defendant did not
possess the favorable evidence and could not
obtain it himself with any reasonable
diligence; (3) the State suppressed the
favorable evidence; and (4) had the evidence
been disclosed to the defense, a reasonable

123a
probability exists that the outcome of the
trial would have been different.
Schofield v. Palmer, 621 S.E.2d 726, 731 (Ga. 2005)
(applying Brady, 373 U.S. at 87).
The state habeas court determined that the
January 27th Statement was disclosed and available
to Whatley at the time of his trial and direct appeal
and thus Whatley failed to satisfy his burden to
show his procedural default should be excused. The
Supreme Court of Georgia also found that Whatley
did not satisfy his burden of setting aside the
procedural default, but disagreed with the state
habeas court’s rationale for concluding that
Whatley’s
evidence
suppression
claim
was
procedurally defaulted. The Georgia Supreme Court
determined that the state habeas court erred when it
applied the cause and prejudice test to Whatley’s
evidence suppression claim because there was cause
to excuse Whatley’s failure to raise the issue of
nondisclosure of the January 27th Statement at trial
and on direct appeal. The state Supreme Court
based this conclusion on (1) the nondisclosure of the
statement prior to the completion of Whatley’s trial
and direct appeal, and (2) the failure of the State to
disclose the “arguably contradictory” January 27th
Statement by Bunn. See Whatley, 668 S.E.2d at 655.
The Supreme Court of Georgia stated in its opinion:
Whatley forced Bunn at gunpoint to lie on
the floor next to the cash register during the
robbery, and Bunn remained there until all
of the shooting had stopped. The theory
presented to the jury by the State at trial

124a
was that, as Whatley began backing away
from the service counter, he fired twice, once
at Allen at close range and once downward
toward Bunn. Bunn’s testimony under direct
examination in the guilt/innocence phase
was consistent with this theory, as he
maintained that he had heard two shots
fired before Allen stepped over him to pursue
Whatley. Trial counsel then cross-examined
Bunn by specifically referring to a statement
Bunn made to police on the night of the
murder, January 26, 1995. The written
investigative summary counsel was referring
to in his cross-examination reports that
Bunn stated as follows on January 26:
[Whatley] moved off of me and backed
around the counter, when he went
around the counter and Ed come around
over top of me going after him. I don’t
know where he was. I was still laying on
the floor when I heard the shot.
Counsel did not read this statement aloud at
trial but, instead, simply had the witness
himself acknowledge that he did not tell the
police in his January 26 interview that shots
were fired before Allen stepped over him.
Counsel specifically stated that it was the
January 26 interview that he was relying on
in forming his questions to Bunn. Bunn
explained his account in his January 26
interview regarding the timing of the shots
by stating that he was “upset” during that

125a
interview. Counsel, by pointing out to Bunn
that Allen had not bled on him, was also able
to get Bunn to admit on cross-examination
that he did not know when Allen was shot.
Whatley testified in the sentencing phase to
a version of events different from Bunn’s:
Whatley claimed that he never intended to
shoot anyone and that he fired at Allen only
after Allen pulled out his gun.
At the habeas hearing, Whatley presented an
audio recording of an interview of Bunn that
was conducted the day after the murder,
January 27. Whatley obtained the recording
through an Open Records Act request to the
Griffin Police Department, which request
was legally available only after Whatley’s
criminal case was concluded. Like the
January 26 statement used by counsel at
trial, part of the January 27 interview at
least arguably suggests that Allen stepped
over Bunn to pursue Whatley before any
shots were fired. Bunn stated as follows in
the January 27 interview:
[Whatley] done got the money and all,
you know. I figured he’s going on out,
and that’s when I see Ed go over me, and
he went out, and that’s when the
shooting and all starts.
However, earlier in this January 27
interview, Bunn gave a different chronology,
stating as follows:

126a
Then [Whatley] got off me, and backed
around the corner, you know. I guess he
was going on back toward the door. I
heard something start shooting. Then I
seen Ed come across me, on around the
corner, too. Next thing I know I just kept
hearing, ya know, gun shots.
Thus, at the most, the January 27 interview
contains two contradictory chronologies, one
placing the shooting before Allen stepped
over Bunn to pursue Whatley and one
placing the shooting after. Furthermore, in
between these two arguably contradictory
chronologies in the January 27 interview,
Bunn expressed uncertainty when asked
specifically whether the shots began before
or after Allen stepped over him and went
around the corner of the counter. Bunn was
then further asked, “Who started shooting?”
He responded as follows: “I guess [Whatley].
But, you know, I don’t know.” He then
provided the following explanation for his
uncertainty: “[I]t happened so quick, and I’m
all shook up, too.”
Whatley argues that his cross-examination of
Bunn would have been enhanced if counsel
had been provided the January 27 interview,
particularly because counsel could have
emphasized that, although Bunn might have
been confused because he was “upset” on
January 26, he would have calmed down by
January 27 and would have given a more

127a
accurate account of the crime. Whatley
argues that the portion of the January 27
interview in which Bunn arguably indicated
that Allen began to pursue Whatley before
any shots were fired could have been used to
show that Whatley did not enter the store
with the intent to commit murder, which the
jury might have found mitigating in the
sentencing phase.
Id. at 653-54.
Although it found cause to excuse Whatley’s
procedural default based on the State’s failure to
disclose the January 27th interview, the Supreme
Court of Georgia also found that Whatley failed to
satisfy the prejudice prong. The Supreme Court
determined that prejudice did not result from the
failure to disclose the January 27th Statement
because, had the statement been disclosed to the
defense, there is no reasonable probability that the
outcome of the trial would have been different. See
id. at 659.8
The Supreme Court of Georgia reasoned that
Whatley failed to establish prejudice under the rule
established in Brady v. Maryland:
We conclude that Whatley has failed to
satisfy the fourth element [of the test for
The evaluation of the prejudice prong for excusing a
procedural default of an evidence suppression claim is
“co-extensive” with a merits evaluation of a claim under the
standard of Brady v. Maryland. See Whatley, 668 S.E.2d at 656.
8

128a
prejudice under Brady], a showing that
having the January 27 interview at trial
would have created a reasonable probability
of a different outcome. As we noted above,
the January 27 interview arguably contains
contradictory statements by Tommy Bunn
regarding whether the first shots were fired
before or after Ed Allen began to pursue
Whatley, as well as statements expressing
uncertainty regarding the timing of those
shots. However, Bunn himself ultimately
testified under cross-examination at trial
that he could not recall whether the shots
came first or whether Allen’s stepping over
him to pursue Whatley came first. Thus, the
jury, either with or without being presented
with the full January 27 interview, would
have concluded that Bunn could not be relied
upon to establish a detailed chronology.
Furthermore,
the
district
attorney
persuasively argued that Whatley must have
fired at Allen before Allen was armed,
because Allen was shot in the chest at a
range of 15 to 18 inches and because it
otherwise would have been unlikely for
Whatley to have shot Allen in the chest from
such a close distance without being shot
himself by Allen somewhere other than just
in the leg. Furthermore, Whatley’s account of
events cannot be reasonably reconciled with
the testimony at trial indicating that he fired
a shot toward either Allen or Bunn from a
distance of merely eight inches from the

129a
service counter. We conclude as a matter of
law that there would not have been a
reasonable probability of a different outcome
at trial if Whatley had been provided the
January 27 interview and, therefore, that he
can neither show merit to his underlying
evidence suppression claim nor satisfy the
prejudice prong of the cause and prejudice
test, issues that are “co-extensive.”
Id. at 656.
The Supreme Court of Georgia weighed the
evidence presented in the state court proceedings,
determined that timely disclosure of the “arguably
contradictory” January 27th Statement would not
have affected the outcome of the proceedings, and
applied the clearly established Federal law standard
established in Brady v. Maryland to determine that
Whatley failed to satisfy his burden of showing that
his procedural default should be excused. See
Whatley, 668 S.E.2d at 655-56.
b.

Review
of
adjudication

the

state

court

The January 27th Statement, while it arguably
might
have
been
helpful
on
Bunn’s
cross-examination, was, as the Supreme Court of
Georgia noted, contradictory, uncertain, and not
dispositive of the determination of who fired first
during the robbery by Whatley.9 The Court also
The Court has reviewed Bunn’s testimony at trial, as well as
the January 27th Statement, and concludes the Supreme Court
9

130a
notes, as did the Supreme Court of Georgia, that the
timely disclosure of the January 27th Statement
would not have presented a reasonable probability of
changing the outcome at trial because the weight of
the evidence admitted at trial—to include ballistics
evidence regarding Whatley having discharged his
handgun at the counter while demanding money
from Allen—supported that Allen was shot at close
range while behind the counter before obtaining his
firearm and pursuing Whatley, which is inconsistent
with Whatley’s alternative theory that he fired the
fatal shots only after Allen fired first and as Whatley
was running out of the bait shop.
The Court finds the Supreme Court of Georgia
correctly, and reasonably, applied Georgia’s two-part
test for excusing a procedural default in determining
that Whatley’s Brady claim is procedurally barred.10
of Georgia’s finding that Bunn testified that he was not sure
whether Whatley or Allen fired first and that Bunn could not
recall the sequence of events during the robbery of the bait
shop is not an unreasonable determination of the facts. See
Whatley, 668 S.E.2d at 655-56; (Resp’t’s Ex. 11 at 894-935;
Resp’t’s Ex. 41F at 1406-21).
Petitioner argues that the Supreme Court of Georgia “clearly
and explicitly found this claim procedurally defaulted” and the
Court should conduct a de novo review because there was no
ruling on the merits of Petitioner’s Brady claim. (Pet’r’s Br. in
Supp. of Pet. at 22-24). Petitioner overlooks that, in
determining that Petitioner’s Brady claim was procedurally
defaulted, the Supreme Court of Georgia concurrently
evaluated whether Whatley could “prevail on the underlying
evidence suppression claim” on the merits by applying the rule
established in Brady v. Maryland to find “that Whatley has
failed to satisfy the fourth element [of the Brady analysis], a
showing that having the January 27 interview at trial would
10

131a
The Court respects and defers to the state court’s
determination that the claim is procedurally barred
and finds Whatley is not entitled to relief on this
claim. See Harris, 489 U.S. at 264 n.10; Bailey, 172
F.3d at 1302; Richardson, 883 F.2d at 898.
Even if Whatley was entitled to a de novo review
of this claim, the Court finds the Supreme Court of
Georgia correctly applied Georgia’s procedural
default principles and the standards under Brady,
and did not arrive at a decision that “was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined by
the Supreme Court of the United States,” “was based
on an unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding,” or that Whaley was prejudiced by the
unavailability of Bunn’s second statement. 28 U.S.C.
§ 2254(d)(1), (2); See Also Wiggins v. Smith, 539 U.S.
510, 520-21 (2003); Williams, 529 U.S. at 379, 385.
have created a reasonable probability of a different outcome.”
Whatley, 668 S.E.2d at 655-56 (Whatley “can neither show
merit to his underlying evidence suppression claim nor satisfy
the prejudice prong of the cause and prejudice test, issues that
are ‘co-extensive.’”). Even considering the merits of Petitioner’s
Brady claim, the Court concludes the state court adjudication
did not result in a decision that “was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States” and
was not “based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” See 28 U.S.C. § 2254(d)(1), (2). The Court does not
find the Supreme Court of Georgia unreasonably interpreted
the facts or unreasonably applied clearly established Federal
law in deciding this claim.

132a
Whatley is not entitled to relief on his suppression of
evidence claim.
2. Claim IX – Ineffective assistance of
counsel under Strickland v. Washington11
Whatley contends he was denied, in several
ways, his constitutionally guaranteed right to the
effective assistance of counsel, including because his
trial lawyer failed to investigate and to offer to the
sentencing jury substantial mitigating evidence
about his background and mental health. He claims
the Georgia habeas court and the Georgia Supreme
Court failed to find his effective assistance of counsel
right was violated and that he is entitled to federal
habeas relief because his trial counsel was
ineffective during his trial.
The threshold question under the AEDPA is
whether the state courts, in adjudicating Whatley’s
ineffective assistance of counsel claim, applied a rule
of law that was “clearly established” at the time his
state-court conviction became final. See 28 U.S.C.
§ 2254(d)(1). The Supreme Court has held that “[i]t
is past question that the rule set forth in Strickland
[v. Washington, 466 U.S. 668 (1984)] qualifies as
‘clearly established Federal law, as determined by
the Supreme Court of the United States.’” Williams,
529 U.S. at 391.

The Court considers Petitioner’s Strickland claim (Claim IX)
before his Cronic and actual conflict of interest claims (Claims
VII and VIII) because these claims derive from a claim under
Strickland.
11

133a
The next question is whether the Georgia state
court adjudication of the death sentence was
“contrary to” or was an “unreasonable application of”
Strickland. See 28 U.S.C. § 2254(d)(1).
“The Supreme Court has described this
standard as ‘a highly deferential’ one that
‘demands that state-court decisions be given
the benefit of the doubt.’” [Johnson v. Upton,
615 F.3d 1318, 1329 (11th Cir. 2010)]
(quoting Renico v. Lett, 559 U.S. 766, 130 S.
Ct. 1855, 1862, 176 L. Ed.2d 678 (2010)). The
decision of a state court is not “contrary to”
federal law unless it “contradicts the United
States Supreme Court on a settled question
of law or holds differently than did that
Court
on
a
set
of
materially
indistinguishable facts.” Cummings v. Sec’y
for Dep’t of Corr., 588 F.3d 1331, 1355 (11th
Cir. 2009) (quoting Kimbrough v. Sec’y, Dep’t
of Corr., Fla., 565 F.3d 796, 799 (11th Cir.
2009)). The decision of a state court is not an
“unreasonable application” of federal law
unless the state court “identifies the correct
governing legal principle as articulated by
the United States Supreme Court, but
unreasonably applies that principle to the
facts of the petitioner’s case, unreasonably
extends the principle to a new context where
it should not apply, or unreasonably refuses
to extend it to a new context where it should
apply.” Id. (quoting Kimbrough, 565 F.3d at
799). “The question under [the Act] is not
whether a federal court believes the state

134a
court’s determination was correct but
whether
that
determination
was
unreasonable—a
substantially
higher
threshold.”
Id.
(quoting
Schriro
v.
Landrigan, 550 U.S. 465, 473, 127 S. Ct.
1933, 1939, 167 L. Ed. 2d 836 (2007)).
Evans, 703 F.3d at 1325.
“[E]valuating whether a rule application was
unreasonable requires considering the rule’s
specificity. The more general the rule, the more
leeway courts have in reaching outcomes in
case-by-case determinations.” Id. at 1326 (quoting
Richter, 131 S. Ct. at 786). “The Strickland standard
is a general one, so the range of reasonable
applications is substantial.” Id. (quoting Premo v.
Moore, 131 S. Ct. 733, 740 (2011)).
Under Strickland, a defendant is constitutionally
denied effective counsel if two showings are made:
First, the defendant must show that
counsel’s performance was deficient. This
requires showing that counsel made errors so
serious that counsel was not functioning as
the “counsel” guaranteed the defendant by
the
Sixth
Amendment.
Second,
the
defendant must show that the deficient
performance prejudiced the defense. This
requires showing that counsel’s errors were
so serious as to deprive the defendant of a
fair trial, a trial whose result is reliable.

135a
Strickland, 466 U.S. at 687. To establish
ineffectiveness, a “defendant must show that
counsel’s representation fell below an objective
standard of reasonableness.” Id. at 688. This
Strickland test necessarily is one that requires
application on a case-by-case basis. See Wright v.
West, 505 U.S. 277, 308 (1992). To conclude that
Whatley’s counsel was constitutionally ineffective,
the Court must find that rejection of his
ineffectiveness claim was either “contrary to, or
involved an unreasonable application of” Strickland.
“[A] federal habeas court [may] ‘grant the writ if the
state court identifies the correct governing legal
principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts’ of
petitioner’s case.” Wiggins, 539 U.S. at 520 (citing
Williams, 529 U.S. at 413). “In order for a federal
court to find a state court’s application of [Supreme
Court] precedent ‘unreasonable,’ the state court’s
decision must have been more than incorrect or
erroneous… [it] must have been ‘objectively
unreasonable.’” Wiggins, 539 U.S. at 520-21 (citing
Lockyer v. Andrade, 538 U.S. 63, 75 (2003)); See Also
Rompilla v. Beard, 545 U.S. 374, 380 (2005);
Strickland, 466 U.S. at 688 (“The proper measure of
attorney
performance
remains
simply
reasonableness
under
prevailing
professional
norms.”). “To obtain [federal] habeas relief a ‘state
prisoner must show that the state court’s ruling on
the claim being presented in the federal court was so
lacking in justification that there was an error well
understood and comprehended in existing law
beyond
any
possibility
for
fairminded
disagreement.’” Evans, 703 F.3d at 1326 (quoting

136a
Reese, 675 F.3d at 1286). “The decision of a state
court is not an ‘unreasonable application’ of federal
law unless the state court ‘identifies the correct
governing legal principle as articulated by the
United States Supreme Court, but unreasonably
applies that principle to the facts of the petitioner’s
case, unreasonably extends the principle to a new
context where it should not apply, or unreasonably
refuses to extend it to a new context where it should
apply.’” Id. at 1325 (quoting Cummings, 588 F.3d at
1355).
In evaluating reasonableness, “hindsight is
discounted by pegging adequacy to ‘counsel’s
perspective at the time’ investigative decisions are
made [and] by giving a ‘heavy measure of deference
to counsel’s judgments.’” Rompilla, 545 U.S. at 381
(quoting Strickland, 466 U.S. at 689, 691) (internal
citation omitted). The evaluation is conducted “as if
one stood in counsel’s shoes.” Id. In determining
reasonableness of counsel’s representation, a court
may consider strategic decisions counsel may make
for not introducing mitigating evidence. The
deference owed to strategic decisions is judged based
on the adequacy of the investigation supporting
those judgments. As the Supreme Court stated in
Strickland:
[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible
options
are
virtually
unchallengeable; and strategic choices made
after less than complete investigation are
reasonable precisely to the extent that

137a
reasonable professional judgments support
the limitations on investigation. In other
words, counsel has a duty to make
reasonable investigations or to make a
reasonable decision that makes particular
investigations
unnecessary.
In
any
ineffectiveness case, a particular decision not
to investigate must be directly assessed for
reasonableness in all the circumstances,
applying a heavy measure of deference to
counsel’s judgments.
466 U.S. at 690-91; See Also Wiggins, 539 U.S. at
524 (“investigations into mitigating evidence ‘should
comprise efforts to discover all reasonably available
mitigating evidence and evidence to rebut any
aggravating evidence that may be introduced by the
prosecutor’”) (quoting ABA Guidelines for the
Appointment and Performance of Counsel in Death
Penalty Cases 11.4.1(c), p. 93 (1989)).12
In evaluating the reasonableness of an
investigation, a court “must consider not only the
quantum of evidence already known to counsel, but
also whether the known evidence would lead a
reasonable attorney to investigate further.” Wiggins,
In reviewing the application of Strickland in Williams v.
Taylor, 529 U.S. 362 (2000), the Supreme Court “concluded
that counsel’s failure to uncover and present voluminous
mitigating evidence at sentencing could not be justified as a
tactical decision to focus on Williams’ voluntary confessions,
because counsel had not ‘fulfill[ed] their obligation to conduct a
thorough investigation of the defendant’s background.’”
Wiggins, 539 U.S. at 522 (quoting Williams, 529 U.S. at 396).
12

138a
539 U.S. at 526-27 (courts cannot use “strategic
decision” as a post hoc rationalization to explain
counsel’s investigation shortfalls and inattention to
mitigation investigation). In evaluating whether an
investigation
met
Strickland’s
performance
standards, the Supreme Court has
emphasize[d] that Strickland does not
require counsel to investigate every
conceivable line of mitigating evidence no
matter how unlikely the effort would be to
assist the defendant at sentencing. Nor does
Strickland require defense counsel to present
mitigating evidence at sentencing in every
case. Both conclusions would interfere with
the “constitutionally protected independence
of counsel” at the heart of Strickland.
Wiggins, 539 U.S. at 533.
There are, however, some fundamental
benchmarks for a required investigation. For
example, failure to examine a defendant’s prior
conviction file falls below the level of reasonable
performance where counsel knows that the
government intends to prove that the defendant had
a history of felony convictions indicating the use or
threat of use of violence as an aggravating factor.
Rompilla, 545 U.S. at 383. “[O]btain[ing]
information that the State has and will use against
the defendant is not simply a matter of common
sense,” it is also what the ABA Standards for
Criminal Justice require, standards the Supreme
Court has “long referred to as ‘guides to determining
what is reasonable.’” Id. at 387 (quoting Wiggins,

139a
539 U.S. at 524);13 See Also Bobby v. Van Hook, 130
S. Ct. 13, 19 (2009) (“This is not a case in which the
defendant’s attorneys failed to act while potentially
powerful mitigating evidence stared them in the
face, or would have been apparent from documents
any reasonable attorney would have obtained. It is
instead a case, like Strickland itself, in which
defense counsel’s ‘decision not to seek more’
mitigating
evidence
from
the
defendant’s
background ‘than was already in hand’ fell ‘well
within the range of professionally reasonable
judgments.’”) (internal citations omitted).
The analytical template a federal habeas court is
required to use to evaluate ineffective assistance of
counsel claims under Strickland has been refined by
13

The ABA Standards for Criminal Justice provide:
It is the duty of the lawyer to conduct a prompt
investigation of the circumstances of the case and to
explore all avenues leading to facts relevant to the merits
of the case and the penalty in the event of conviction. The
investigation should always include efforts to secure
information in the possession of the prosecution and law
enforcement authorities. The duty to investigate exists
regardless of the accused’s admissions or statements to the
lawyer of facts constituting guilt or the accused’s stated
desire to plead guilty.

1 ABA Standards for Criminal Justice 4-4.1 (2d ed. 1982
Supp.). The commentary accompanying the Standards explain
that defense counsel “has a substantial and important role to
perform in raising mitigating factors,” and that “[i]nformation
concerning the defendant’s background, education, employment
record, mental and emotional stability, family relationships,
and the like, will be relevant, as will mitigating circumstances
surrounding the commission of the offense itself.” Id. at 4-55.

140a
the United States Supreme Court and the Eleventh
Circuit in recent years, especially claims regarding
the
adequacy
of
counsel’s
pre-trial
and
pre-sentencing investigations. The Supreme Court in
Wiggins considered, under Strickland, the Maryland
state courts’ considerations of the adequacy of
counsel’s investigation. The Supreme Court held:
[T]he Maryland Court of Appeals’ conclusion
that the scope of counsel’s investigation into
petitioner’s background met the legal
standards set in Strickland represented an
objectively unreasonable application of our
precedent. Moreover, the court’s assumption
that counsel learned of a major aspect of
Wiggins’ background, i.e., the sexual abuse,
from the DSS records was clearly erroneous.
Wiggins, 539 U.S. at 528-29 (counsel’s investigation
into Wiggins’ background did not reflect reasonable
professional judgment and counsel’s decision to end
investigation when they did was neither consistent
with professional standards that prevailed in 1989,
nor reasonable in light of evidence counsel uncovered
in the social services records—evidence that would
have led a reasonably competent attorney to
investigate further) (internal citation omitted).
Thus, if a federal habeas court finds that an
investigation was inadequate or based on facts
clearly erroneously found, a state court conclusion to
the contrary may be an unreasonable application of
Strickland. If so, the federal habeas court must next
determine if a petitioner was prejudiced by the
inadequate investigation. “In assessing prejudice, we

141a
reweigh the evidence in aggravation against the
totality of available mitigating evidence. In this case
our review is not circumscribed by a state court
conclusion with respect to prejudice, as neither of the
state courts below reached this prong of the
Strickland analysis.” Id. at 534.14 In evaluating
prejudice the court evaluates the “totality of the
available mitigation evidence—both that adduced at
trial, and the evidence adduced in the habeas
proceeding….” Williams, 529 U.S. at 397-98
(“Mitigating evidence unrelated to dangerousness
may alter the jury’s selection of penalty, even if it
does not undermine or rebut the prosecution’s
death-eligibility case.”); See Also Wiggins, 539 U.S.
at 537 (“Had the jury been able to place petitioner’s
excruciating life history on the mitigating side of the
scale, there is a reasonable probability that at least
one juror would have struck a different balance.”).
a.

Claim IX, Subpart A – Petitioner’s
claim that his trial counsel provided
ineffective assistance of counsel
based on his failure to conduct an
adequate investigation, prepare a

“[E]vidence about the defendant’s background and character
is relevant because of the belief, long held by this society, that
defendants who commit criminal acts that are attributable to a
disadvantaged background….may be less culpable than
defendants who have no such excuse.” Penry v. Lynaugh, 492
U.S. 302, 319 (1989), overruled on other grounds by Atkins v.
Virginia, 536 U.S. 304 (2002); Eddings v. Oklahoma, 455 U.S.
104, 112 (1982) (consideration of life history “part of the process
of inflicting the penalty of death.”).
14

142a
case in mitigation, or rebut the
State’s evidence in aggravation
To evaluate a state court’s adjudication of the
constitutional
effectiveness
of
counsel’s
penalty-phase investigation and presentation, the
Court must determine whether an adequate
investigation was conducted and, if not, then
consider the evidence presented during the penalty
phase and the evidence offered in the state habeas
proceeding to assess whether there was prejudice to
Whatley from an investigation found to be
inadequate. See Wiggins, 539 U.S. at 520-34, 537;
Williams, 529 U.S. at 397-98. The Court first reviews
the factual findings of the state court and then its
adjudication of Whatley’s claim that he was provided
ineffective assistance of counsel in the investigation
of his case. In doing so, the Court considers whether
the Georgia state court adjudication of this claim
was “contrary to” or was an “unreasonable
application of” Strickland.
i.

State court adjudication

The state habeas court made the following
factual findings regarding Whatley’s background:
Frederick Ramon [sic] Whatley was born on
June 7, 1968 in Griffin, GA to Claudette
Whatley[,] a very young, unmarried female.
Identity of his father is either unknown or is
of conflicting information. The “father” has
never been significantly involved in
Whatley’s life. The mother, though an
occasional person in his life, abandoned or

143a
failed to function in any reasonable
inspirational or meaningful parenting role.
Frederick was, for all practical purposes
raised by his mother’s maternal aunt, Marie
Thomas and her husband, Cleveland
Thomas. The Thomas’ [sic] were regarded as
a religious family who provided guidelines to
Frederick during his formative years. He
presented no problem in that home and was
an active participant in church activities. In
his early school years he performed well but
in later high school years his performance
and grades became very poor. He was
suspended from Griffin High School in 1986
for sexual misconduct in the school building.
He apparently began involvement with and
use of a variety of illegal drugs at about age
15. He became sexually active at an early
age, including sexual relationships with
women twice his age. He received a high
school equivalency certificate of some kind
apparently as a pre-condition to being
accepted into the Navy. He ultimately was
turned down by both the Navy and the Army
due to drug involvement. He has no history
of sustained employment and no noted job
skills. He deals poorly with authority figures
and with women. Several times he left
Georgia to go to the District of Columbia to
be with his mother. Each of these sojourns
resulted badly, with Frederick getting into
trouble with the law, fighting with his
mother, using drugs with his mother, being
ejected from her house to allow space for her

144a
then current male companion. He is an
admitted regular user of illegal drugs. He
has been in trouble with the law, mostly in
Washington D.C. His criminal record is
follows:
 Forgery and uttering, Washington
D.C., Sentenced 4/24/88
 Robbery,
Washington
D.C.,
Sentenced
3/30/89,
Probation
Revoked 12/21/90
 Simple Assault, Washington D.C.
Sentenced 12/12/90
He has served prison time in the Lorton
(District of Columbia) prison, where he had
some involvement in a prison riot. In 1995,
he was sentenced to a community based
controlled residential facility commonly
called a “halfway house.” At some point he
failed to return to the facility and a warrant
was issued for “escape” from a correctional
facility. He left the District of Columbia at
that time and traveled to Griffin, Georgia.
He became involved in the drug trade there,
needed money and planned the robbery
(colloquially referred to as a “lick”). He
pilfered a gun from his cousin. The following
day he coaxed a friend to drive him to a beer
store on a secondary street so he could hit a
“lick.” The friend was to pick him up a few
minutes later on the other side of an
adjacent road embankment….

145a
There is some mention in the evidence (and
in Whatley’s information that he gave to
Attorney Mostiler) that Whatley’s childhood
was “ideal.” He was adequately cared for and
supervised by his extended family during his
younger years. When he began to have
interaction with his mother, by visits from
her or by visits to her in Washington D.C.,
his behavior began to deteriorate — using
drugs, sometimes with his mother, learning
of her sexual promiscuity history and
exploits, and being exposed to and
encouraged in sexual activity with females of
a variety of ages.
Mental health and intellect evaluations
conducted after his arrests were inconclusive
except to the effect that, as a youthful
offender in Washington a fairly extensive
mental examination was performed. This
young man was felt to have fairly high
intellect — even college potential, but he was
selfishly impatient and had poor judgment.
He failed to achieve success in a probation
program crafted specifically for him. He had
difficulty getting along with people either in
or out of prison. He appears to have
developed into a “loner” with no willingness
to be trained, no ability to get or maintain
employment and no track record of success
except in criminal conduct.
(Resp’t’s Ex. 71 at 7-9).

146a
Regarding
Mostiler’s
investigation
into
Whatley’s history for information to be used as
mitigating evidence and his investigation into the
State’s evidence in aggravation, the state habeas
court found:
A review of the evidence showed that
counsel’s pursuit and investigation of
mitigation evidence began long before the
commencement of Petitioner’s trial. Further,
a review of the guilt phase transcript showed
that
trial
counsel
elicited
arguably
mitigating evidence from State’s witness
Tommy Bunn during the guilt phase of trial
when he had Mr. Bunn admit that he did not
know who fired the first shot.
In an attempt to find other potential
mitigating evidence to present at trial,
counsel and his investigator met with
Petitioner on many different occasions.
During these meetings, Petitioner was asked
about his life and background and any
information, including potential witnesses,
that, he thought would be helpful to his case.
The evidence showed that investigator
Yarbrough shared the information that
Petitioner provided to him with counsel.
Additionally, the evidence showed that
investigator Yarbrough contacted and
attempted to interview each of the potential
witnesses Petitioner identified prior to trial
including his biological mother, Mr. Watson,
the program director for the Washington

147a
D.C.
Public
Defender’s
Office,
and
Petitioner’s
former
Washington
D.C.
attorney and informed counsel of the
substance of these conversations so that
counsel could make an informed decision as
to whether to call these witnesses to testify.
Although Mr. Yarbrough attempted to
convince Petitioner’s biological mother to
testify on Petitioner’s behalf, the evidence
showed that she was not cooperative….
As to Mr. Watson, although investigator
Yarbrough was unable to make contact with
him upon his initial attempts, this Court
finds that the evidence showed that counsel
interviewed Mr. Watson several times prior
to his testifying for the sentencing stage.
In addition to contacting and attempting to
interview the aforementioned individuals,
the evidence showed that investigator
Yarbrough also interviewed the son of
Petitioner’s uncle, Cleveland Thomas, Jr.,
Reverend McDougal who knew Petitioner
from church, his wife, Mrs. McDougal, Nancy
Ward, one of Petitioner’s former Sunday
school teachers, Arnetta Hall and Barbara
Ellis, friends of Petitioner, Linda Dixon, a
member of Petitioner’s church, and Reverend
Walker, another clergy person who knew
Petitioner from church on counsel’s behalf to
attempt to uncover further potential
mitigating evidence, and provided counsel

148a
with the information he learned as a result
of these interviews.
[T]he evidence showed that counsel declined
to call them either because “they didn’t want
to testify” or because “there wasn’t anything
that they could tell us that would help”
Petitioner’s case.
To further pursue potential mitigating
evidence, the evidence showed that counsel
sought and obtained a court-ordered pre-trial
psychological evaluation of Petitioner….
In addition to the defense team’s…attempts
to secure mitigating evidence,…the evidence
showed that the defense team attempted to
interview all of the State’s penalty phase
witnesses prior to their taking the stand.
(Id. at 42-44 (internal record citations omitted)).
With regard to Mostiler’s investigation into
Whatley’s prior mental health history, the state
habeas court further stated:
The evidence showed that counsel learned in
advance of trial that Petitioner had
previously been evaluated in connection with
his Washington D.C. criminal cases. To
facilitate his acquisition of these reports,
counsel had Petitioner sign a release form
which was faxed to Eugene Watson of the
Washington D.C. Public Defender’s Office
who, by Petitioner’s own admission, had

149a
access to these reports. As counsel’s
investigator testified, he specifically recalled
Mr. Mostiler asking him to “dig up a release
form and make sure that it was sent to
Watson” to obtain “anything that Watson
had.” Further, investigator Yarbrough
testified that he recalled informing Mr.
Watson that Mr. Mostiler wanted all of
Petitioner’s Washington D.C. records and
additionally recalled that Mr. Watson
brought several documents with him when
he came to Georgia to meet with Mr.
Mostiler prior to his testimony in this case.
(Id. at 32-33 (internal record citations and footnote
omitted)). Although there was evidence in the state
court proceedings that Mostiler sent a written,
signed request for records to Watson prior to trial,
the state habeas court noted that the evidence was
ambiguous regarding whether those files were
delivered to Mostiler prior to the conclusion of
Whatley’s trial. (Id. at 33-34).15
Investigator Yarbrough testified it was possible Mostiler
reviewed documents in Watson’s possession prior to the end of
the trial, but Watson submitted an affidavit denying that this
information was available to Mostiler prior to trial. (Resp’t’s
Ex. 71 at 33-34). The record evidence and the state court
determination therefore are that there is no evidence that
Mostiler ever received Whatley’s psychological records. At most
the record and the state court determination are that
Yarbrough testified that he assumed Watson brought some
unknown and unspecified documents to Georgia because he had
a bag and briefcase with him. Yarbrough’s testimony at his
deposition on these matters was vague, speculative, and
circumspect. For example, Yarbrough stated he tried to get in
15

150a
With regard to the presentation of evidence in
mitigation during the penalty phase of Whatley’s
trial, the state habeas court noted:
A review of the sentencing phase transcript
showed that trial counsel called eleven
witnesses to testify on Petitioner’s behalf.
These witnesses, which consisted of
touch with Whatley’s former attorney, but then immediately
stated: “I may have never made contact with him at all….”
(Dep. Yarbrough at 26). In another exchange, Yarbrough’s
information about contacting Whatley’s mother was
consistently qualified by his claim that it was to the “best of
[his] recollection,” signaling that after the passage of many
years, it was the best he could recall in the absence of any
handwritten notes. (Id. at 37). Yarbrough could not recall “off
the top of [his] head” if Mostiler had a strategy in mitigation,
but merely presumed there was one. (Id. at 47). On cross
examination and through leading questions, the State had to
explain to Yarbrough that Mostiler did not have an
independent psychological evaluation completed. (Id. at 49-50).
Yarbrough was confused regarding whether funds were made
available by the State to obtain the assistance of Watson at
trial. (Id. at 50). Yarbrough could not recall if he, as the
investigator, knew of the existence of prior psychological
reports for Whatley, could not recall seeing any documents that
Watson brought with him to Georgia, could not recall the
substance of any conversations between Watson and Mostiler,
and could not remember ever seeing Whatley’s prior
psychological reports that were produced in the state habeas
court. (Id. at 55, 61, 64). Contrasted against Watson’s clear
affidavit testimony that no mental health documents were
provided to Mostiler, the Court finds that there is no proof, and
the state court factual findings do not support, that Mostiler
received Whatley’s prior mental health records from Watson
and it was unreasonable and plainly erroneous for the state
court to give the weight it did to Yarbrough’s faulty memory
and deposition testimony.

151a
Petitioner, several of his friends, a relative,
and Eugene Watson, the program developer
for the Washington, D.C. Federal Defender’s
Office, testified either concerning Petitioner’s
background, his redeeming qualities and
their desire for his life to be spared, and/or
Petitioner’s remorse for his crimes.
(Id. at 45).
The state habeas court also noted that, although
Mostiler did not tell the witnesses the questions he
would ask or rehearse their testimony, Mostiler’s
investigator spoke with each witness “prior to trial
about their potentially helpful testimony and then
reported [that] information to counsel.” (Id. at
45-46). The state habeas court found that there was
no credible evidence at the time of the trial that
Whatley had been sexually abused as a child, that
Whatley did not inform his counsel or counsel’s
investigator of any prior sexual abuse, and that
there are no allegations of sexual abuse in Whatley’s
prior psychological evaluations or pre-trial mental
health evaluation. (Id. at 47-48).
Based on the state habeas court’s findings of
fact, the Supreme Court of Georgia concluded—as to
all of Whatley’s various ineffective assistance of
counsel claims—”as a matter of law that, even if
counsel performed deficiently in the ways we assume
in the discussion below, the absence of those
professional deficiencies would not in reasonable
probability have resulted in a different outcome in
either phase of Whatley’s trial, and, accordingly, we
affirm the habeas court’s denial of Whatley’s

152a
ineffective assistance claim.” Whatley, 668 S.E.2d at
659.
Regarding Whatley’s specific claim of ineffective
assistance of counsel based on an inadequate
investigation into his background to develop
evidence in mitigation and rebut the State’s evidence
in aggravation, the Supreme Court of Georgia
stated:
Whatley argues that trial counsel rendered
ineffective assistance by failing to contact
certain witnesses and by failing to use the
testimony of other witnesses, including, in
particular, witnesses from the District of
Columbia. Whatley argues that counsel
failed to make use of testimony from his
mother; however, the defense investigator
testified that he made repeated attempts to
contact her but that she “was not that
cooperative” and that his “first interview
with [her] went to hell in a handbasket.”
Whatley contends that trial counsel failed to
contact the defense attorney who had
represented him in the District of Columbia;
however, the defense investigator testified
that he contacted the attorney and then “put
him on the phone with” trial counsel when
the investigator grew nervous answering the
attorney’s questions about Whatley’s murder
case.16 Whatley argues that trial counsel
The Court notes again here that the Supreme Court of
Georgia’s reliance on the memory and recollection of Yarbrough
for the conclusion that events, such as this supposed phone call,
16

153a
failed to obtain criminal records in the
District of Columbia, but transcripts of
Whatley’s criminal proceedings were served
on defense counsel and placed in the trial
record by the prosecution, so trial counsel
certainly were aware of them. The
psychological records associated with those
criminal proceedings are discussed below.
Whatley argues that trial counsel rendered
ineffective assistance by failing to contact his
step-siblings; however, these minors were
living with Whatley’s uncooperative mother.
He argues that trial counsel should have
contacted one of his aunts and two of his
uncles; however, a review of their affidavit
testimony reveals little mitigating evidence
that was unknown to trial counsel and that
would have been admissible. We note that
these affidavits in large part concern things
that affected Whatley’s family members,
such as his mother, aunts, and uncles, rather
than things that would have directly affected
Whatley.
Whatley argues that trial counsel rendered
ineffective assistance in failing to develop
evidence regarding Cleveland and Marie
Thomas, Whatley’s great uncle and great
aunt, who raised him but who had passed
away by the time of Whatley’s trial. First,
occurred that are not documented in writing in Whatley’s case
file is unreasonable in light of the vague, unreliable, and
uncertain nature of his deposition testimony.

154a
the evidence shows that the investigation
into Whatley’s life with the Thomases was
not
deficient,
because
the
defense
investigator testified that he met 16 times
with Whatley and contacted the Thomases’
son, who testified at trial. Whatley told trial
counsel and testified at trial that he had an
“ideal” childhood living with the Thomases.
Vague allegations now that Cleveland
Thomas drank too much, abused Marie
Thomas, shared a bed with Whatley, and
touched him inappropriately fail to show
that the defense team was deficient in its
attempts to find mitigating evidence,
because the defense investigator testified
that Whatley never revealed these alleged
facts. The allegation that Cleveland Thomas
raped Whatley’s mother might have been
discoverable pre-trial, because there are
references to it in her mental health records;
however, this allegation, and the alleged fact
that she informed Whatley of the rape when
he was a boy, would not have been
significantly mitigating, particularly in light
of the fact that use of the allegations may
have offended the jurors if they perceived
counsel as attacking the one couple who,
while they were still living, had taken care of
Whatley.
Whatley argues that trial counsel rendered
ineffective assistance by failing to obtain
evidence that Whatley, along with other
inmates, had been involved in a successful

155a
lawsuit against guards at the prison in the
District of Columbia where he was
previously incarcerated. He argues that
evidence that he suffered brutal treatment at
the prison could have been used at trial to
explain why he never returned to a halfway
house in the District of Columbia when he
was out past curfew one night. This
argument lacks merit, because the jury
would not have been significantly swayed by
an argument that Whatley’s fear of
returning to prison justified his escape from
the halfway house. Furthermore, Whatley
has not shown that he informed his trial
counsel of the alleged brutality, and Whatley
did not mention being afraid of returning to
prison when he testified in the sentencing
phase about his escape from the halfway
house.
Whatley argues that trial counsel made
deficient use of the testimony available from
Eugene Watson, a caseworker in the District
of Columbia who designed a rehabilitation
plan for Whatley as part of Whatley’s
criminal proceedings there. Based on the
testimony of the defense investigator and
billing records, it is clear that trial counsel
had repeated contacts with Watson and
considered Watson’s testimony to be the
centerpiece of the sentencing phase strategy.
The record shows that, not only did counsel
communicate with Watson by telephone, but
counsel also met with Watson in person

156a
several times once he arrived in Georgia and
that counsel even arranged to have Watson
with him and Whatley in a room near the
courtroom during breaks at trial. Watson’s
habeas testimony downplaying the level of
contact he had with trial counsel does not
show the habeas court’s conclusion that
counsel performed adequately to be error in
light of the entire record.
Whatley also argues that trial counsel failed
to properly prepare mitigation witnesses for
their testimony. The record supports the
habeas court’s finding that the defense team,
through the efforts of both trial counsel and
the defense investigator, interviewed the
mitigation witnesses and were aware of their
potential testimony. Although it might be
understandable that those witnesses now
state that they felt ill at ease because trial
counsel did not give them detailed
instructions about what they should expect
at trial, it was not unreasonable attorney
conduct for trial counsel not to rehearse his
witnesses’ testimony with them. As the
habeas court found and as was supported by
the testimony of the defense investigator,
trial counsel reasonably chose not to overly
prepare his witnesses, because he wanted
their testimony to come across as sincere.
Whatley argues that trial counsel failed to
obtain several mental health reports that
had been prepared in the District of

157a
Columbia as a result of his criminal
activities there and that trial counsel failed
to interview the experts who authored the
reports. The habeas court’s conclusion that
trial counsel performed adequately with
regard to these reports is reasonable, as it is
supported by the presumption that counsel
performed adequately, by documentary
evidence showing that counsel obtained a
signed release from Whatley and requested
the materials from Whatley’s caseworker in
the District of Columbia, and by testimony
from the defense investigator confirming
that counsel sought the records from
Whatley’s caseworker. This conclusion is not
made erroneous simply because Whatley’s
caseworker, in giving his habeas testimony,
could not recall providing the materials to
counsel. The habeas court also correctly
concluded that Whatley would not have been
prejudiced by counsel’s alleged failure to
obtain and use these mental health reports
or to present testimony from the experts who
authored them. A review of the reports
confirms the habeas court’s finding that they
contain material that would have been
damaging to Whatley’s mitigation case,
including statements that he lacked remorse
for his crimes and believed he could “get
away with anything.” The reports did note
signs of neglect by Whatley’s biological
mother and a potential for psychotic
symptoms under stress; however, these
tentative findings would have proved of little

158a
effect, particularly in light of the fact that no
clear findings of mental illness were noted in
another
mental
health
examination
performed in preparation for Whatley’s
murder trial.
Trial counsel presented testimony from
Whatley himself suggesting that he was
remorseful. However, Whatley argues that
trial counsel rendered ineffective assistance
by failing to present additional testimony
about his alleged remorse from his friends
and from jail guards. This additional
testimony about Whatley’s remorse would
not have had a significant impact on the
jury, particularly because the prosecutor
would have been able to explain Whatley’s
emotional reaction to learning that the
victim had died as being a concern for his
own punishment rather than true remorse
for his actions.
Whatley argues that trial counsel failed to
present any records from his past other than
his school records. Other than the records
discussed elsewhere in this opinion, Whatley
has not elaborated on what records trial
counsel failed to obtain or how that failure
affected his trial.
Whatley, 668 S.E.2d at 660-62 (alteration in original)
(footnote omitted).
ii.

Review of the
adjudication

State

court

159a
Whatley asserts that his counsel, Mostiler, failed
to conduct an adequate investigation, prepare a case
in mitigation, or rebut the State’s evidence in
aggravation by not developing evidence about
childhood sexual and physical abuse, failing to
obtain information about his background and mental
health, and failing to prepare for the examination of
the State’s witnesses at trial. Whether Mostiler,
individually
and
through
his
investigator,
adequately prepared for trial and undertook an
adequate investigation into Whatley’s background
that was not “outside the wide range of
professionally competent assistance” is an important
issue that deserves critical analysis. See Strickland,
466 U.S. at 690.
a)

Whether Mostiler conducted an
adequate investigation into
Whatley’s background

The Court initially finds that it was not
unreasonable for Mostiler not to develop mitigating
evidence regarding childhood physical or sexual
abuse including because Whatley did not tell his
counsel about any childhood sexual abuse and there
otherwise was no available information indicating
childhood abuse. See DeYoung v. Schofield, 609 F.3d
1260, 1288 (11th Cir. 2010) (“[A] defense attorney
‘does not render ineffective assistance by failing to
discover and develop evidence of childhood abuse
that his client does not mention to him.’”); (Resp’t’s
Ex. 13B at 1468; Resp’t’s Ex. 71 at 48); See Also
McClain v. Hall, 552 F.3d 1245, 1251-52 (11th Cir.
2008); Lambrix v. Singletary, 72 F.3d 1500, 1505-06

160a
(11th Cir. 1996). The Court acknowledges that
Mostiler’s investigation began promptly, involved his
investigator seeking to contact each of the State’s
witnesses,
obtained
Whatley’s
school
and
criminal-history records, and involved interviews of
people who knew Whatley and who provided
information about Whatley’s upbringing and
background. See Sears v. Upton, 130 S. Ct. 3259,
3264-67 (2010) (adequate investigation should
include more than spending one day talking to
witnesses selected by a petitioner’s mother and
should include efforts to determine if significant
mental or psychological impairments exist);
Rompilla, 545 U.S. at 383, 389-90 (adequate
investigation should include examination of school
and criminal-history records); Williams, 529 U.S. at
393-96
(investigation
inadequate
where
penalty-phase preparations did not commence until
one week before trial); Johnson, 643 F.3d at 931-33
(investigation inadequate where no inquiry into
petitioner’s background and preparation of case in
mitigation did not begin until the “eleventh hour”
before trial); Ferrell v. Hall, 640 F.3d 1199, 1227-31,
1237-38 (11th Cir. 2011) (counsel not inadequate for
failing to investigate mental health issues where
petitioner’s behavior not unusual, but investigation
inadequate where penalty-phase preparations did
not
begin
until
immediately
following
guilt-innocence phase); Williams v. Allen, 542 F.3d
1326, 1340-41 (11th Cir. 2008) (investigation
unreasonable where trial counsel relied upon a

161a
single family member for
petitioner’s background).17

information

about

The concern with the adequacy of counsel’s
representation of Whatley involves the adequacy of
Mostiler’s investigation into Whatley’s background
and mental health issues and Whatley’s claim of
prejudice based on Mostiler’s failure “to obtain
several mental health reports that had been
prepared in the District of Columbia as a result of
his criminal activities there and…to interview the
experts who authored the reports.” Whatley, 668
S.E.2d at 659-662. An understanding of the dates
these reports were created, their contents, Mostiler’s
knowledge of their existence,18 and what
investigative steps he took to understand their
meaning and to investigate these mental health
As the Supreme Court of Georgia noted, it was not
unreasonable to take penalty-phase testimony from Whatley’s
witnesses without detailed witness preparation in order to
avoid having it sound rehearsed. See McClain, 552 F.3d at 1253
(quoting Gordon v. United States, 518 F.3d 1291, 1301 (11th
Cir. 2008)) (“The relevant question is not what actually
motivated counsel, but what reasonably could have motivated
counsel.”); Provenzano v. Singletary, 148 F.3d 1327, 1330 (11th
Cir. 1998) (“The question of whether an attorney’s actions were
actually the product of a tactical or strategic decision is an
issue of fact, and a state court’s decision concerning that issue
is presumptively correct.”).
17

The Court notes that it is difficult to determine what
Mostiler knew because he died and, unlike in most habeas
actions, was unavailable to testify regarding his knowledge and
decisions. Although Mostiler did not testify, the record is
complete enough to reconstruct what information was conveyed
to him and what he knew through his handwritten notes, time
record, billing record, and Yarbrough’s deposition.
18

162a
issues further, is the necessary first step to evaluate
the
constitutional
adequacy
of
Mostiler’s
investigation into Whatley’s background and mental
health history and whether his development of a
penalty-phase strategy was ineffective assistance.
b)

Evidence of Whatley’s mental
health history

On April 19, 1988, the Superior Court of the
District of Columbia issued an order that committed
Whatley for observation and study under the Youth
Rehabilitation Act of 1985. (Pet’r’s Habeas Court Ex.
30). The order was based on Whatley’s robbery of a
citizen of $1.00 in the Georgetown section of
Washington, D.C., on January 28, 1988. (Id.). A
report was produced by a classification committee
(the “Classification Committee Report”), based on
information developed during the study and
observation of Whatley. (Id.). Part of the study was
conducted by a psychologist, Dr. Shaw. (Id.). The
Classification Committee Report contained detailed
background information about Whatley. (Id.). This
background information was similar in meaningful
ways to the information in the post-trial affidavits
presented in the state habeas court. (Id.). The
background information includes details about
Whatley’s upbringing, his strained relationship with
his mother and his history of substance abuse, and
concludes that he “evidences symptoms of
schizophrenia and uses it to deal with his problems”
and is a “deeply disturbed person.” (Id.). The
Classification Committee Report observed that
“Whatley is not a criminally oriented individual,

163a
rather one whose parental abandonment has
prompted anti-social behavior.” (Id.). The examining
psychologist, Dr. Shaw, recommended a treatment
program that includes “long-term psy[]chotherapy,
drug therapy and stabilization in an educational
program.” (Id.).
On August 18, 1988, Whatley was administered
a neuropsychological evaluation by Dr. Sarah Jane
Elpern, Ph.D., in Virginia. (Pet’r’s Habeas Court Ex.
34). The results of this evaluation contain
information about Whatley’s difficult relationship
with his mother, his upbringing in Georgia, his drug
use, and his overall functioning and intelligence.
(Id.). The evaluation concludes there is evidence of
brain dysfunction. (Id.). Dr. Elpern recommended
that Whatley be provided drug treatment,
psychotherapy, and vocational rehabilitation. (Id.).
It is undisputed that the Classification
Committee Report and the August 18, 1988,
neuropsychological report (collectively, the “1988
Reports”) were both in the possession of Watson
throughout the duration of Mostiler’s representation
of Whatley.
The evidence also is that Whatley directed
Mostiler to these materials. On May 19, 1995,
Mostiler noted on his time record to “order
psychological” from Watson and listed Watson’s
number and address in Washington, D.C. (Resp’t’s
Habeas Court Ex. 20).19 Mostiler, however, did not
There are also undated, handwritten notes by Mostiler in the
state habeas court record about Watson and the need to
19

164a
order any psychological records from Watson for
more than nineteen (19) months.
On September 29, 1995, Mostiler noted in his
time record that Whatley had psychological testing
done in 1988 and that Mostiler wanted to “check
Personal Growth Center” for records from a
counseling center in Griffin, Georgia, to which
Whatley had been sent by his great uncle and aunt.
(Resp’t’s Habeas Court Exs. 20 and 61). Mostiler did
not take any steps to obtain these psychological
records for more than fifteen (15) months.
Not until November 8, 1996, shortly before trial
was to begin, was any psychological evaluation of
Whatley conducted and it was ordered by the trial
judge, based on a request by Mostiler, for Whatley to
be given an evaluation to assess Whatley’s: “1)
competency to stand tr[ia]l, 2) degree of criminal
responsibility at the time of the act, and 3) the
threat posed to himself or the community if bond
was granted.” (Resp’t’s Habeas Court Ex. 61).
The competency evaluation was conducted on
December 13, 1996, by Drs. Karen Bailey-Smith and
Margaret A. Fahey, who interviewed and tested
Whatley for approximately eight (8) hours. (Id.).20
Drs. Bailey-Smith and Fahey did not have access to

coordinate his attendance at trial. (Resp’t’s Habeas Court Ex.
74).
On December 31, 1996, they also interviewed and tested
Whatley for seven (7) hours. (Resp’t’s Habeas Court Ex. 61).
20

165a
the 1988 Reports or any other
counseling records for Whatley. (Id.).

psychological

On December 19, 1996, about three weeks before
the trial began, Whatley’s investigator, for the first
time, contacted Watson about his testifying on
Whatley’s behalf and to determine what information
he had about Whatley’s background and activities in
Washington, D.C.21 (See Pet’r’s Habeas Court Ex.
19). Mostiler was responsible for determining what
Watson might know and whether what he knew
would be helpful at trial. (Dep. Yarbrough at 61-62).
On January 3, 1997, Drs. Bailey-Smith and
Fahey issued their competency report (the “Court
Report”). (Resp’t’s Habeas Court Ex. 61). The Court
Report found Whatley competent to stand trial and
determined that he could distinguish right from
wrong at the time of the offense. (Id.). The Court
Report also noted:
- “There
are
no
obvious
memory
impairments evident but he did indicate that
he frequently loses his ‘focus’ for periods of
30 to 60 minutes and will have no
recollection afterward of what transpired
during these episodes.”

Yarbrough testified that when Watson asked Yarbrough
questions that he was not comfortable answering, he put
Watson on the phone with Mostiler and they spoke at that
time. (Dep. Yarbrough at 58-59). Watson stated in his affidavit
that he did not speak to Mostiler until after the trial started.
(Pet’r’s Habeas Court Ex. 4).
21

166a
- “[Whatley] expressed some paranoia in
terms of evil forces seeking to undermine
him and influence his mind.”
- “Judgement [sic], as measured by
common-sense type questions, is somewhat
impaired.”
- “He has some insight into his condition,
but does not appear to fully appreciate the
extent to which his thinking deviates from
the norm.”
- “His responses on the [Minnesota
Multiphastic
Personality
Inventory-2]
resulted in an interpretable profile, which is
suggestive of an individual with significant
psychopathology.”
- Individuals, such as Whatley, with an
interpretable
profile
“often
become
disorganized and they may engage in
excessive daydreaming and fantasy. At such
times, their thinking may become autistic
and circumstantial. Their behavior may be
unpredictable and they may act out
unexpectedly. At such times, their judgment
and reality testing may be quite poor. In Mr.
Whatley’s case, this appears to take the form
of magical thinking. Specifically, Mr.
Whatley thinks he is unique and special, and
ordained for a special purpose. He believes
he has unique and special powers which can
impact and often directly influence other’s

167a
thinking and behavior, and consequently, the
outcome of some situations.”
- “Based on all available information, the
examiners believe that Mr. Whatley’s
behavior can be best described by the
following diagnoses: Rule Out Bipolar
Disorder [and] Personality Disorder [Not
Otherwise
Specified]
with
antisocial,
borderline, narcissistic, and schizotypal
features.”
- “Although he expressed a cognitive
understanding of the fact that he could
receive the death penalty, due to his belief in
his own importance and the fact that he has
been endowed with a special mission, he does
not think that a death sentence is a realistic
possibility. He indicated that he believes that
God would intervene to prevent this from
happening.”
- “Due to his belief in his own importance
and his special mission, Mr. Whatley does
not think that a death sentence is a realistic
possibility.”
(Id.). The Court Report, which was received three
days before trial started, also included a “brief social
history” that stated, based exclusively on what
Whatley conveyed to the examining psychologists,
that he had a troubled relationship with his
psychologically-troubled mother, that Whatley had
engaged in substance abuse as a youth, and that
Whatley had received unknown, prior psychological

168a
counseling as a youth at the Personal Growth Center
in Griffin, Georgia. (Id.).
On January 6, 1997, on the first day of voir dire,
Mostiler, for the first time, spoke with Watson on the
phone. (Pet’r’s Habeas Court Exs. 4, 44). Three days
later, on January 9, 1997, while in the middle of
trial, Mostiler spoke again with Watson. (Pet’r’s
Habeas Court Ex. 44). Also on January 9, 1997,
Mostiler sent to Watson a records release
authorization for Whatley’s records and asked
Watson if he could come to Georgia for the trial if
they flew him in the following Tuesday. (Resp’t’s
Habeas Court Ex. 71).
At some point early in the trial, Whatley,
Mostiler and Yarbrough exchanged a series of
handwritten questions and answers on a piece of
paper. (See Dep. Yarbrough at 24-26; Resp’t’s
Habeas Court Ex. 75). At the top of the page was an
entry written by Yarbrough about a witness. (Dep.
Yarbrough at 24-26; Resp’t’s Habeas Court Ex. 75).
Beneath this entry, Whatley wrote a note asking to
talk to Mostiler during a break. (Dep. Yarbrough at
24-26; Resp’t’s Habeas Court Ex. 75). In the next
entry, Whatley asks if any efforts had been made to
get Whatley’s 1988 psychological records from
Watson or Mr. Stern, Whatley’s former attorney in
the District of Columbia, to compare to the
court-ordered evaluation. (Dep. Yarbrough at 24-26;
Resp’t’s Habeas Court Ex. 75). Even though Mostiler
had already spoken on the phone twice with Watson,
Mostiler wrote a note in response to Whatley asking
who were Stern and Watson. (Dep. Yarbrough at

169a
24-26; Resp’t’s Habeas Court Ex. 75). In a later
handwritten note, Whatley stated that Watson was
the program developer from Washington, D.C., who
supervised his rehabilitation program after his
armed robbery conviction. (Dep. Yarbrough at 24-26;
Resp’t’s Habeas Court Ex. 75). Beneath this entry,
Yarbrough wrote that several calls had been made to
find Stern or Watson, but the calls were
unsuccessful. (Dep. Yarbrough at 24-26; Resp’t’s
Habeas Court Ex. 75).
On January 15, 1997, after Whatley’s conviction,
Watson arrived in Georgia to testify at Whatley’s
sentencing proceeding. (Pet’r’s Habeas Court Ex. 4).
Mostiler’s billing statement indicates the he
“interviewed” Watson for two hours that day in
anticipation of his testimony the following day.
(Pet’r’s Habeas Court Ex. 44). Yarbrough’s
deposition and Watson’s affidavit state that this was
a dinner meeting and did not involve any
substantive review of Watson’s knowledge of
Whatley or the documents that Watson may have
had in his possession. (Dep. Yarbrough at 63-64;
Pet’r’s Habeas Court Ex. 4).
On January 16, 1997, Watson testified at trial.
Watson mentioned, but did not discuss, the 1988
Records and briefly discussed Whatley’s social
history and background. Mostiler focused his
questioning on Watson’s opinion of how Whatley
would react to a long prison sentence.
c)

Mostiler’s
knowledge
and
possession of Whatley’s mental
health information

170a
The record in the state habeas court supports the
timeline stated above. The record does not show that
Mostiler ever received or reviewed the 1988 Reports.
Yarbrough testified that he talked to Watson on
December 19, 1996, just before trial, and that during
this call he believes he asked Watson what
documents he had about Whatley and whether
Watson could bring any documents he had with him
when he came to Georgia so Mostiler could review
them. (Dep. Yarbrough at 60-61). Yarbrough
testified that he could not recall seeing the 1988
Reports and could not recall if Mostiler ever saw
them.22 (Id. at 61). Watson stated in his affidavit
that he did not talk to Mostiler until after the trial
began, that Mostiler had not prepared a defense case
in mitigation, and that Mostiler did not ask for, and
he did not provide him with, any of the documents
he brought with him from Washington, D.C., to
include the 1988 Reports. (Pet’r’s Habeas Court Ex.
4).
It is, however, undisputed that Mostiler knew of
the existence of prior psychological reports, including
When asked by counsel for the State in his October 11, 2002,
deposition if it was possible Mostiler saw these documents,
Yarbrough acknowledged that it was possible. (Dep. Yarbrough
at 62). Yarbrough was not aware what Mostiler discussed with
Watson and did not know when or where they met other than a
meeting in a meeting area in the basement of the courthouse
during a trial break and over dinner. (Id. at 64). Yarbrough did
not state what was discussed during these meetings. (Id.).
Yarbrough vaguely recalled a discussion of some kind between
Mostiler and Watson at Mostiler’s office regarding some
psychological issue, the specifics of which he did not remember.
(Id.).
22

171a
the 1988 Reports, as early as May 19, 1995,
including based upon information that Whatley
provided to him, and that Mostiler did not, for
nineteen (19) months, even talk to Watson. When he
did, he generally asked him to bring any documents
he had on Whatley. There is no evidence he asked
specifically for the 1988 Reports or asked Watson
what they showed. This is so even though he knew
the result of the Court Report on Whatley’s
competency and thus knew the mental health and
psychological assessment presented in the report.
(See Pet’r’s Habeas Court Ex. 1; Resp’t’s Habeas
Court Ex. 61; Dep. Yarbrough at 48). The Court
Report stated that Whatley had significant
psychological issues and the “brief social history” in
the Court Report indicated Whatley’s difficult
relationship with his psychologically-troubled
mother, and that Whatley had a substance abuse
problem. (See Resp’t’s Habeas Court Ex. 61).
Mostiler did not act on the information contained in
the Court Report and did not ask for a continuance
to develop evidence in mitigation based on the
contents of the report. The question is whether
Mostiler’s failure to act in the face of the evidence
that his client had significant signs of psychological
issues by conducting further investigation, his
failure to obtain the 1988 Reports once aware of
them, his failure to ask Watson about the findings in
the 1988 Reports, and his failure to request a
continuance to look into these significant
psychological and mental health issues, was
objectively reasonable for counsel representing a
defendant in a capital case, particularly where the
evidence of his guilt was significant and where the

172a
expectation was high that the penalty phase would
be the most important part of Whatley’s prosecution.
See Johnson, 643 F.3d at 932-33.
The Supreme Court of Georgia’s factual finding
that Mostiler “facilitated” the receipt of the 1988
Reports by having a release signed by Whatley, and
the inference made that Mostiler reviewed the 1988
Reports in Georgia when Watson arrived to testify at
trial, to suggest later that Mostiler made strategic
decisions not to introduce the 1988 Reports or their
contents is disputed by the record and is erroneous.
The state habeas court’s further finding that the
evaluations in the 1988 Reports and those conducted
by Drs. Bailey-Smith and Fahey were “inconclusive”
is demonstrated by the reports themselves and this
finding is also erroneous.
d)

Whether
Mostiler
acted
reasonably by not conducting
further
investigation
into
Whatley’s mental health based
on the information known to
him

The Supreme Court and the Eleventh Circuit
have made clear that when a document or
information in the possession of a trial counsel
indicates significant adverse circumstances or
mental health problems in the background of a
defendant facing the death penalty, a reasonably
competent attorney will necessarily pursue this
information to make an informed choice among
possible defenses and strategies for a case in
mitigation. See Wiggins, 539 U.S. at 525; Johnson,

173a
643 F.3d at 933. It is unreasonable to fail to
investigate further where “potentially powerful
mitigation evidence stare[s] [an attorney] in the face
or would have been apparent from documents any
reasonable attorney would have obtained.” See
Bobby, 130 S. Ct. at 19 (internal citation omitted).
The information developed is not required to be
presented as mitigating evidence, but the
information must be developed so a trial counsel
may make informed decisions about defenses and
mitigation strategies. See Wiggins, 539 U.S. at
523-25; Johnson, 643 F.3d at 932-33.
In Williams, a petitioner challenged the
adequacy of his counsel’s investigation into his
background and asserted that his counsel provided
ineffective assistance by failing to investigate and
discover information about his “nightmarish
childhood,” lack of education, and deficits in
cognitive thinking. 529 U.S. at 393-95. Counsel for
petitioner failed to begin to prepare for the penalty
phase until a week before trial and a diligent
investigation would have uncovered records
containing substantial mitigating evidence, much
like the circumstances here where Mostiler could
have obtained the 1988 Reports had he made even a
minimal, much less a diligent, effort to obtain the
documents from Watson. See id. at 394-96. In
Williams, this failure to investigate and uncover
available evidence of a significant mitigating nature
constituted an inadequate investigation that, under
Strickland, constituted ineffective assistance of
counsel. Id.

174a
In Wiggins, the Supreme Court considered facts
similar to those here. See 539 U.S. at 521-22. There
the Court considered the adequacy of counsel’s
investigation into a petitioner’s background and
mental health in a death penalty case. Id. Counsel
obtained limited records and received reports from a
psychologist who conducted a number of tests on
petitioner, similar to the court-ordered evaluation
testing that was conducted in this action. See id. at
523. The report of the examining psychologist in
Wiggins revealed “features of a personality disorder”
and counsel knew rudimentary information about
petitioner’s background and life history based on a
handful of documents obtained during an
investigation, which included facts that petitioner
had a poor relationship with his alcoholic mother
and had a troubled upbringing. Id. at 523-25.
Counsel did not expand their investigation beyond
these sources of information and did not further
investigate or develop information about petitioner’s
background or social history. Id. The Supreme Court
found that petitioner’s counsel in Wiggins did not
exercise reasonable judgment by failing to conduct
further inquiry into his background in light of the
information that was in his possession and that this
conduct “fell short of the professional standards that
prevailed in…1989,” the same standards that
applied during Mostiler’s representation of Whatley.
See id. at 523-24, 534.
In Johnson, the Eleventh Circuit, in a case
similar to the one here, addressed the inadequacy of
a counsel’s investigation into a petitioner’s
background and mental health issues where there

175a
was “overwhelming evidence of guilt” such that “any
reasonable attorney would have known…that the
sentence stage was the only part of the trial in which
[petitioner] had any reasonable chance of success.”
See 643 F.3d at 931-32. In Johnson, the petitioner
reported to his counsel that “he had a bad childhood,
including an alcoholic and abusive father who would
abandon the family,” similar to Whatley’s report to
Mostiler and Yarbrough that he was abandoned by
his mother. See id. at 932. Petitioner’s counsel did
not follow up on or develop any information beyond
taking, at face value, his father’s denial of an
abusive relationship. Id. at 932-33. The Circuit
found that, given the overwhelming evidence of
petitioner’s guilt, it was unreasonable for counsel not
to investigate petitioner’s claim of an abusive and
troubled childhood. Id. Finding that counsel failed to
adequately
investigate
the
information
communicated to him by his client, the Circuit held
that counsel’s conduct “was ‘outside the wide range
of professionally competent assistance’” guaranteed
by the Sixth and Fourteenth Amendments to the
Constitution. Id. at 934 (quoting Strickland, 466
U.S. at 690).
In Pooler v. Sec’y, Fla. Dep’t of Corr., 702 F.3d
1252 (11th Cir. 2012), the petitioner alleged that his
counsel failed to conduct an adequate background
investigation, failed to present mental health
information in mitigation, and failed to obtain
records on his behalf that he told him about. The
Eleventh Circuit found effective the assistance of
counsel that was provided, but in doing so
underscored the adequacy of the investigation

176a
required. See Pooler, 702 F.3d at 1270-74. The
Circuit based its conclusion on the fact that an
extensive, multi-source investigation was conducted
by counsel and his investigator, and that counsel
obtained confirmation of Pooler’s background
information by means other than those that the
petitioner alleged were required. Id. The Circuit
concluded that
(1) trial counsel was already performing a
mitigation
investigation
into
Pooler’s
background, including an inquiry into his
medical and psychological history; and (2)
well before trial, counsel read the reports
from, and heard the competency-hearing
testimony of, multiple experts who had
evaluated Pooler’s then-current mental
functioning. And most importantly, nothing
in those expert reports during competency
proceedings, or in the additional mitigation
search [counsel] performed, suggested a need
for mental health experts to look further.
Id. at 1273. The Circuit noted that counsel diligently
attempted and made a concerted effort to obtain
documents about Pooler’s military service, education,
and employment history and that it was reasonable
to stop looking when he did and after obtaining
information from relatives on the matters expected
to be covered in those records. See id. The Circuit
observed that Pooler was not “a case where counsel
ignored evidence in his possession that cast doubt
upon his client’s story or suggested the need for

177a
further investigation.” Id. at 1272. The facts in
Whatley’s case are very different.
The Court finds that Williams, Wiggins, and
Johnson are substantially similar to the
circumstances here and support, together with
Pooler, that Mostiler’s conduct in response to the
information in his possession—and provided to him
by Whatley—about Whatley’s background and
mental health was objectively unreasonable.23
Whatley’s counsel did not take the routine step of
arranging to get the 1988 Reports, even after
Whatley advised him of their existence and, as a
result, Mostiler did not have them at a time when
meaningful further investigation was possible
regarding the significant information about Whatley
and his mental health that was set out in the
reports. Even when Mostiler became aware of the
Court Report, indicating that Whatley showed signs
of “significant psychopathology,” “magical thinking,”
paranoia, blackout episodes, and a belief that God
would intervene in his case to prevent him from
being sentenced to death, Mostiler did not
The issue on this claim is whether Mostiler undertook a
constitutionally adequate investigation. The Court recognizes
that the Supreme Court of Georgia found based on the record
that some unspecified, unknown documents were provided by
Watson to Mostiler on the eve of Watson’s testimony on the last
day of trial. This factual determination by the Supreme Court
of Georgia, to the extent it is supported by the record, does not
undermine the conclusion that Mostiler’s investigation of
Whatley’s background was inadequate because Mostiler’s
conduct in investigating Whatley’s background prior to trial is
what is relevant to the analysis of the adequacy of his
investigation.
23

178a
investigate further and did not request
continuance for the time necessary to do so.

a

Mostiler even received information, presumably
from Whatley, about the adverse circumstances of
Whatley’s youth and the existence of the 1988
Reports, and yet did not conduct any further
investigation to develop this information. See Pooler,
702 F.3d at 1269; Johnson, 643 F.3d at 932-35. In
short, confronted with the undisputed facts known
by Mostiler before trial—to include that Whatley had
undergone previous psychological examination in
1988 in Washington, D.C., and that Whatley had
signs of “significant psychopathology” based on the
court-ordered competency examination that was
received by Mostiler before trial—Mostiler chose not
to pursue any further investigation of Whatley’s
background or his mental health by either ensuring
that he obtained Whatley’s mental health records
from Watson before trial, or by requesting an
independent mental health examination by a defense
expert who could have developed the mental health
and social history information that was self-evident
in the 1988 Reports and the Court Report.
The Court finds that, because it was reported to
Mostiler that his client had prior psychological
evaluations performed in 1988, that Whatley had a
troubled upbringing, and that his client had signs of
“significant psychopathology” and other serious
mental health issues based on the results of the
court-ordered mental health examination, under
these circumstances, no reasonably competent
counsel would choose not to pursue additional

179a
mental health, social history, or other additional
information about his client, and the failure to do so
violated the professional standards to which Mostiler
was required to abide in his death penalty
representation of Whatley. See, E.g., Rompilla, 545
U.S. at 381; Wiggins, 539 U.S. at 522-27, 533; CF.
Bobby, 130 S. Ct. at 19. There simply is no evidence
of a conscious, deliberate effort by Mostiler to pursue
obviously available information as part of his
penalty-phase investigation and there is no evidence
that an adequate investigation was done upon which
counsel could competently rely to make reasonable,
meaningful strategic decisions. See Strickland, 466
U.S. at 690-91; Pooler, 702 F.3d at 1272-73. Even
giving significant deference to Mostiler’s judgments
and considering his perspective at the time his
decisions in Whatley’s case were made, Mostiler’s
conduct, under the circumstances here and
specifically his failure to inquire further into
Whatley’s background and mental and psychological
health, “was ‘outside the wide range of professionally
competent assistance’” guaranteed by the Sixth and
Fourteenth Amendments. See Johnson, 643 F.3d at
934 (quoting Strickland, 466 U.S. at 690). There can
be no post hoc rationalization that can explain this
serious deficiency in his investigation of this case or
his representation of Whatley. See, E.g., Rompilla,
545 U.S. at 381; Wiggins, 539 U.S. at 522-27, 533;
CF. Bobby, 130 S. Ct. at 19.
Considering
the
investigatory
and
case-preparation actions taken by Mostiler and his
knowledge of Whatley’s background, the Court finds
Mostiler failed to “conduct[] an adequate background

180a
investigation [and did not] reasonably decide[] to end
the background investigation when he did.” See
Johnson, 643 F.3d at 931-32 (citing Strickland, 466
U.S. at 690-91); See Also Wiggins, 539 U.S. at
522-27, 533; DeYoung, 609 F.3d at 1285-88;
Chandler v. United States, 218 F.3d 1305, 1315 n.15
(11th Cir. 2000) (ambiguities or omissions in the
record regarding a trial counsel’s investigation are
not sufficient to overcome presumption of
reasonableness on part of trial counsel). The Court
finds that fairminded jurists would not disagree that
the Supreme Court of Georgia’s conclusion that
Mostiler conducted an adequate investigation into
Whatley’s background and mental health issues was
objectively unreasonable under the facts of this case,
outside the wide range of professionally competent
assistance, and contrary to clearly established
Federal law. See Wiggins, 539 U.S. at 520-22,
526-27; Wright, 505 U.S. at 308; Strickland, 466 U.S.
at 687; Evans, 703 F.3d at 1325-26; Johnson, 643
F.3d at 934. The Court finds that the failure to
conduct an adequate investigation and enacting a
mitigation presentation without one failed to meet
the professional norms that apply to the
representation of defendants in death penalty cases
and that fairminded jurists would all agree that the
state court’s finding of an adequate investigation is
an
objectively
unreasonable
application
of
Strickland. See Wiggins, 539 U.S. at 520-21; Evans,
703 F.3d at 1326. Finally, the Court concludes that
the Supreme Court of Georgia’s decision was based
on an unreasonable determination of the facts
presented in the state court proceedings, including
that Mostiler sought to “facilitate” obtaining the

181a
1988 Reports and received and reviewed them when
Watson came to Georgia, and the clearly erroneous
assumption that a decision was made that the
contents of the 1988 Reports were not helpful in
mitigation and that this was the likely reason they
were not presented. These facts were not supported,
and in fact were contradicted, by the record. See
Wiggins, 539 U.S. at 528-29, 534.
e)

Whether Mostiler’s inadequate
investigation
prejudiced
Whatley

Having determined that Mostiler’s performance
and investigation of Whatley’s background and
mental health issues was inadequate and violated
Whatley’s Sixth and Fourteenth Amendment rights,
the Court must next determine if Whatley was
prejudiced such that there is a reasonable
probability that the outcome of the sentencing phase
would have been different had Mostiler conducted an
adequate investigation. See, E.g., Wiggins, 539 U.S.
at 534, 536-38; Williams, 529 U.S. at 397-98. To do
so, the Court must reweigh the evidence in
aggravation against the totality of available
mitigating evidence, both adduced at trial and in the
state habeas proceedings. See Wiggins, 539 U.S. at
534, 536-38; Williams, 529 U.S. at 397-98.
f)

The evidence adduced at trial
and in the state habeas
proceedings

During the penalty phase of Whatley’s trial, the
State presented evidence of Whatley’s lack of

182a
remorse for the death of Allen, evidence of Whatley’s
dangerousness, and evidence about Whatley’s prior
convictions for forgery, armed robbery, and assault.
The State also presented evidence of Whatley’s
status as an escapee from a halfway house at the
time of the murder. The State’s argument that death
was an appropriate punishment was based on the
premise that Whatley “is dangerous and he’s always
going to be dangerous until the day he’s executed.”
(Tr. at 1323).
To show lack of remorse, the State presented
witnesses who testified regarding Whatley’s request
to have the money he stole from the bait shop
returned to him and Whatley’s concern during the
trial about how long it would take to be processed to
state prison after the conclusion because he did not
want to miss the Super Bowl. (Id. at 1324-32). To
illustrate dangerousness, the State presented
testimony from a detective from Washington, D.C.,
and introduced a number of exhibits and testimony
regarding Whatley’s commission of an armed
robbery using a shotgun in Washington, D.C., in
1988. (Id. at 1332-48). The victim of the armed
robbery testified that Whatley placed the shotgun in
his back and that he heard two clicking noises after
Whatley did so, to support that Whatley had readied
the weapon to fire. (Id. at 1348-53).
The State introduced exhibits that documented
Whatley’s convictions for the offenses of forgery and
simple assault, as well as exhibits and testimony
regarding his probation revocation and assignment
to the halfway house from which he escaped before

183a
returning to Georgia in January 1995. (State’s Trial
Exs. 42, 43, 50, 51).
In arguing against the imposition of the death
penalty, Whatley’s counsel sought to highlight the
adverse upbringing that Whatley experienced and
argued that, even though he had been in trouble
with the law, Whatley’s youth and rehabilitative
potential made death an inappropriate punishment.
(Tr. at 1323-24). Whatley’s counsel presented the
testimony of eleven witnesses, including Whatley,
several friends who knew him while growing up in
Georgia, relatives, and Watson.24 (Id. at 1355-1510).
These witnesses “testified either concerning
Petitioner’s background, his redeeming qualities and
their desire for his life to be spared, and/or
Petitioner’s remorse for his crimes.” (Resp’t’s Ex. 71
at 45).
Whatley’s friends and relatives generally
testified about his redeeming qualities, his
upbringing, and asked that his life be spared.25 (Tr.
One of Whatley’s eleven witnesses was the custodian of the
records for the Griffin-Spalding County Schools, through whom
Whatley introduced a copy of his school records for
consideration by the jury during the sentencing phase.
24

Whatley’s friend, Barbara Ellis, testified that Whatley had
redeeming qualities and was a good person. Janet Wyche, a
cousin, testified about how Whatley previously lived with her in
Griffin, Georgia, was obedient, and stayed out of trouble. Linda
Dixon testified about how she taught Whatley in Sunday school
while he was growing up and how he was a nice and respectful
young man. Cleveland Thomas, Jr., testified about how
Whatley was raised by his father and stepmother, expressed
his belief that Whatley had potential to do great things with his
25

184a
at 1355-1412). Several witnesses testified about
Whatley’s lack of a relationship with his mother and
that he was raised by his great uncle and aunt,
Cleveland Thomas, Sr. and Marie Thomas. One of
Whatley’s relatives, Lorraine Goodman, explained
that Whatley did not know his father, that Whatley’s
mother was incapable of raising him, that his
mother abandoned him, and that Whatley was very
involved in his church as a youth. (Id. at 1366-74).
Goodman testified that Whatley returned to Griffin,
Georgia, before the murder of Allen, was not
working, and that she had to ask him to stop staying
at her home when he failed to pay rent. (Id.).
Whatley’s older cousin, Franklin White, testified
about Whatley’s upbringing in the Griffin, Georgia,
community. (Id. at 1374-79). White, who knew
Whatley most of his life, explained that Whatley was
a nice young boy who was very involved in church
activities. (Id.). White explained that, when Whatley
returned to Griffin from Washington, D.C., White
tried to help him, provided him money, saw Whatley
interact favorably with his young grandchildren
when they were at his house, and that he did not
expect him to steal his handgun. (Id.).
life, and pleaded with the jury to spare Whatley’s life. Arnetta
Hall testified about how she knew Whatley while growing up,
how he was a respectful man, and that his life is worth saving.
Nancy Ward, who taught Whatley in Sunday school while he
was growing up in Griffin, testified about how Whatley was a
nice, well-mannered, and helpful young man who deserves
forgiveness. Ward also testified about how Whatley’s mother
left him in Georgia to be raised by the Thomases when she left
for Washington, D.C.

185a
Watson explained that he worked with Whatley
in 1989 to develop a rehabilitation plan for him
while he was awaiting sentencing after his armed
robbery conviction. (Id. at 1486-1510). Watson
explained that he sought to understand Whatley’s
social history and psychological background. (Id. at
1489-90). Watson told the jury how he developed a
social history of Whatley based on numerous
discussions with Whatley and after speaking with
the Thomases, while they were still alive. (Id.).
Watson stated that he attempted to contact
Whatley’s mother on multiple occasions, but was
unable to contact her and was not able to get her
involved in Whatley’s rehabilitation. (Id. at 1494).
Watson stated that a clinical psychologist and
educational psychologist examined Whatley to
determine his academic potential, vocational
potential, and whether a rehabilitation plan was
realistic. (Id. at 1490).26 Watson developed a
workable rehabilitation plan for Whatley based on
these examinations and in consultation with the
other organizations and individuals who would
assist in helping Whatley become a productive
member of society. (Id. at 1491).
Watson testified that he presented the proposed
rehabilitation plan to the sentencing judge in
Whatley’s criminal case and that it envisioned
psychological counseling, vocational training, and
academic refresher training to prepare Whatley for
Watson was not asked to elaborate on Whatley’s social or
psychological background based on the findings in the 1988
Reports or otherwise.
26

186a
possible college courses and to find employment. (Id.
at 1491-92). Watson stated he was pleased when the
judge in Whatley’s case approved the plan to be
implemented. (Id.). Watson explained how he
worked with Whatley for a year and a half and met
with him about once every other week to help him
execute the rehabilitation plan. (Id. at 1493). Watson
testified that the execution of the rehabilitation plan
ended when Whatley absconded from the halfway
house to which he was assigned. (Id.).
Based on the totality of his experiences with
Whatley, Watson stated his view that Whatley came
from a good family having been raised by the
Thomases and that he was personable, likeable,
bright, and ambitious with a lot of potential. (Id. at
1493-94). Watson believed that Whatley’s success in
being rehabilitated was adversely affected by his
relationships with female acquaintances because it
often caused him to miss his curfew at the halfway
house. (Id. at 1495-97).
Watson expressed his opinion that Whatley was
a very complicated person who would not react well
to being incarcerated. (Id. at 1493, 1497-99). Based
on this belief, Watson stated that life in prison
without parole would punish Whatley every day of
confinement and that incarceration would affect him
more deeply than the average prisoner. (Id. at
1499-1500). Watson stated that Whatley had
rehabilitative potential and is one of the few people
he had worked with who, when facing incarceration,
responded enthusiastically to a rehabilitation plan.
(Id. at 1500-01).

187a
Whatley testified about his upbringing, criminal
history, and about the death of Allen. (Id. at
1412-86). He explained that he was raised by the
Thomases because his mother had problems that
prevented her from raising him. (Id. at 1413-15).
Whatley said he had an ideal childhood while
growing up with the Thomases and that he left their
household around the eighth or ninth grade to be
with his mother in Washington, D.C., because he
wanted to have a relationship with her. (Id. at
1414-15). Whatley said that he had a poor
relationship with his mother, did not know who his
father was, and that this contributed to many of his
problems in life. (Id. at 1414-16). Whatley explained
that his mother initially lied to him about his
father’s identity, only to later reveal his father was
someone else, and that this confused him. (Id. at
1415-16).
Whatley testified that in his later teenage years,
he moved back in with his mother and worked
multiple jobs as a laborer and security guard in an
attempt to support her and her family. (Id. at
1421-23). He eventually moved out for good after his
mother began taking money from him and reported
him to the police for possessing drugs. (Id.).
Whatley testified at length about his criminal
history. (Id. at 1423-35). He explained that, to try
and support his mother and her family in
Washington, D.C., he began dealing drugs and
financing street-level drug dealers to sell drugs on
his behalf. (Id. at 1423). Whatley later became
involved with “some individuals that were into

188a
forgery and uttering and credit cards, white-collar
crimes,” explaining that this led to being arrested for
using a fake identification card to cash a check that
was mistakenly delivered to his mailbox at one of the
residences where he was staying. (Id. at 1424). He
was placed on probation for this forgery offense and
required to move into a halfway house. (Id. at
1424-27). His probation ultimately was revoked after
he failed to return to the halfway house. (Id.).
Whatley testified that the victim in the
Washington, D.C., robbery offense for which he was
convicted actually owed Whatley money, that he did
not use a shotgun to commit the crime, and that he
only stuck a closed knife in the victim’s back to make
him think that he had a gun.27 (Id. at 1428-29).
Whatley received a suspended sentence and
probation for the robbery and spent the following
year working, reporting to his probation officer, and
working with his program developer, Watson, who
helped Whatley integrate into society. (Id. at
1429-31).
Whatley was reassigned to a halfway house after
failing to report to his probation officer, and later
was reincarcerated. (Id. at 1431-34). Whatley missed
his halfway house curfew one evening and did not
know what would happen if he returned, having
Whatley’s version of events was directly contradicted on
cross-examination when District Attorney McBroom used the
transcript from his sentencing in Washington, D.C. for the
armed robbery conviction, where he admitted to using a
shotgun to rob the victim, to impeach Whatley’s version of
events. (Tr. at 1448-51).
27

189a
been deemed an escapee. (Id.). Whatley decided to
return to Georgia to earn some money so he could
return to Washington, D.C., in a better financial
situation. (Id. at 1434-35).
Whatley stayed with different acquaintances
after returning to Griffin, sold drugs in Griffin, and
stole Franklin White’s gun because he feared for his
safety. (Id. at 1435, 1437-38).
Whatley
explained
the
circumstances
surrounding the murder of Allen, asserted it was not
premeditated, and that he only shot Allen after Allen
shot at him as he was leaving the store.28 (Id. at
1438-41). Whatley expressed his remorse to Allen’s
family and stated that he had asked God for
forgiveness for the crime. (Id. at 1436, 1477). On
cross-examination, Whatley re-enacted the crime in
front of the jury. (Id. at 1478-81). The shackles he
was wearing, which previously were not visible to
the jury, were visible during the re-enactment. (Id.).
No evidence of Whatley’s psychological or mental
health issues was presented to the jury during the
penalty phase of his trial.29

Whatley admitted in his testimony that he fired one shot
inside the store that hit the counter in front of where Tommy
Bunn was laying and behind which Allen was standing.
28

Whatley’s comments to the examining psychologist, Dr.
Bailey-Smith, for the court-ordered mental health examination
were used by the State during its cross-examination of Whatley
during the penalty phase.
29

190a
The jury sentenced Whatley to death on his
malice murder conviction. Whatley, 509 S.E.2d at 48
n.1.
At the state habeas proceeding, the mitigating
evidence presented was broader, more extensive, and
different from that presented during sentencing. The
evidence specifically addressed various aspect of
Whatley’s background and upbringing, the nature of
his social and family relationships, and his mental
health and psychological history, characteristics, and
problems, little of which was presented to the jury
during the penalty phase.
Affidavits and testimony were presented from a
number of people who knew Whatley and who, if
called at his sentencing, could have testified about
significant events in Whatley’s life while living with
his relatives in Griffin that impacted his long-term
psychological and mental health and other
information which could account for Whatley’s
behavior, or at least inform an evaluation of it.
Several of Whatley’s family members and friends
submitted affidavits testifying about Whatley’s
background and upbringing, including that Whatley
had a bad relationship with his mother, that he had
a regrettable childhood because he was raised, in
part, by an abusive alcoholic uncle, and that he was
exposed to various forms of mental illness and abuse,
including forms of sexual abuse, throughout his
childhood. (See Pet’r’s Habeas Court Exs. 5-8, 10,
12-15, 18, 20-21). Other individuals submitted
affidavits testifying that they observed Whatley
express remorse for Allen’s killing, including when

191a
he learned of Allen’s death. (See Pet’r’s Habeas Court
Exs. 9, 16-17, 24). Some who testified at the
sentencing indicated that they felt unprepared to
testify because Mostiler failed to meet with them
individually or go over their testimony—he simply
addressed them all once as a group and advised
them to “say nice things” about Whatley. (See Pet’r’s
Habeas Court Exs. 8-9, 12, 14-18). Those who did not
testify at the sentencing stated that they would have
if Mostiler had asked them to. (See Pet’r’s Habeas
Court Exs. 5, 7, 10-11, 13, 20).
Additional evidence of Whatley’s remorse upon
learning of the death of Allen was also presented.
(See Pet’r’s Habeas Court Exs. 9, 16-17, 23-24, 56).
Jason Jackson, who was incarcerated for nine
months in the Spalding County Jail with Whatley
prior to his trial, testified in an affidavit that
Whatley had remorse at the death of Allen. (Pet’r’s
Habeas Court Ex. 23). Mostiler never talked to him
about Whatley. (Id.). Bridgette Bridges, who was
employed as a guard at the Spalding County Jail
while Whatley was incarcerated there after his
arrest, testified in an affidavit that she treated
Whatley’s wounds after he was first admitted to the
jail and that Whatley told her that he was high on
drugs when he murdered Ed Allen, testifying further
that Whatley expressed remorse when he learned
that Allen had died. (Pet’r’s Habeas Court Ex. 56).
Bridges stated that if she had been asked by
Mostiler, she would have told him this information
and that she could have been a helpful witness at
trial. (Id.).

192a
Whatley also presented an affidavit from
Watson, the Offender Division Program Developer
from Washington, D.C. (Pet’r’s Habeas Court Ex. 4).
Watson discussed his knowledge of Whatley’s
background based on his having worked with him in
the District of Columbia after his criminal
convictions. (Id.). Watson explained the steps taken
to
obtain
evaluations
of
Whatley
by
a
neuropsychologist, to get him treatment, and to put
him on the path to a successful future. (Id.). Watson
discussed his interactions with Mostiler and stated
that Mostiler’s characterizations of their contacts
and the duration of the discussions in Mostiler’s
billing records are inaccurate. (Id.). Watson
expressed his belief that Mostiler did not have a
theory for his case in mitigation and that he was
first contacted in December 1996 by Mostiler’s
investigator. (Id.). Watson testified that he did not
talk to Mostiler until the first week of January, after
the trial had started. (Id.). Watson stated his opinion
that the defense case in mitigation was a “charade”
and that “[i]t was clear that Mr. Mostiler had not
prepared for the sentencing phase and was just
throwing witnesses up so it looked like there was a
mitigation case being presented.” (Id.). Watson
asserted further that Mostiler did not ask for, and he
did not provide him with, any documents in his
possession from Washington, D.C., to include the
1988 Reports. (Id.).
There was significant evidence offered about
Whatley’s psychological issues and mental health
during the state habeas proceeding. Whatley
presented a transcript of the deposition of Dr.

193a
Bailey-Smith, the examining psychiatrist for
Whatley’s court-ordered psychological evaluation
following the murder of Ed Allen. (Pet’r’s Habeas
Court Ex. 1). Dr. Bailey-Smith testified in her
deposition that if Mostiler had called her to discuss
mitigating evidence, she would have provided
information about Whatley and how there were
areas in his psychological background that merited
further investigation. (Id.). The results of Whatley’s
pre-trial, court-ordered psychiatric examinations by
Drs. Bailey-Smith and Fahey were attached to the
deposition transcript. (Id.).
Whatley also introduced copies of the 1988
Reports and presented the affidavit of Richard G.
Dudley, Jr., M.D. (Pet’r’s Habeas Court Ex. 2). Dr.
Dudley is a New York psychiatrist who examined
Whatley following his conviction and sentencing.
(Id.). His evaluation included a review of relevant
documents pertaining to Whatley and his
background. (Id.). Dr. Dudley documented an
abusive and troubling upbringing. (Id.). He
presented a picture of a troubled young man with
mental health issues. (Id.). He noted that the 1988
psychological evaluation of Whatley that was done
as part of the District of Columbia Department of
Corrections and Youth Study showed evidence of
“symptoms of schizophrenia” and the 1997 Court
Report noted “significant psychopathology.” (Id.). Dr.
Dudley concluded that there are grave concerns
regarding whether Whatley was competent to stand
trial, that his history and mental disorders offer an
explanation for his conduct, and that Whatley’s

194a
mental capacity at the time of the offense may have
been substantially diminished. (Id.).
Whatley also presented the affidavit of Dr. David
Lisak, a clinical psychologist from Massachusetts
who also examined Whatley. (Pet’r’s Habeas Court
Ex. 3). Dr. Lisak’s findings and conclusions mirror
those of Dr. Dudley, but provide a more in-depth
analysis of Whatley’s background and that Whatley
was the victim of male sexual abuse. (Id.).30
Respondent presented evidence31 during the
state habeas hearing that it argues supports that
Whatley’s counsel conducted a thorough background
investigation, engaged in substantive motions
practice, received information from the State about
his background and prior convictions, subpoenaed
numerous witnesses to potentially testify (to include
Drs. Fahey and Bailey-Smith), and made deliberate
strategic decisions in the presentation of his
mitigation case.32

The Court considers the affidavits of Drs. Dudley and Lisak
as examples of the kind of independent evaluation that was not
requested by Mostiler and the type of information that could be
presented to a jury in a death penalty sentencing phase and for
use in evaluating the prejudice suffered by Whatley based on
Mostiler’s inadequate investigation in this case.
30

Mostiler’s death, before the state habeas proceedings were
conducted, denied the state habeas court, the Supreme Court of
Georgia, and this Court of Mostiler’s explanation for his
investigation decisions and why he made the mitigation
presentation decisions that he did.
31

The Court notes that the state courts reached a variety of
conclusions about trial counsel’s conduct based on information
32

195a
g)

Whether there is a reasonable
probability that one member of
the jury would have voted for
life

The evidence presented to the state habeas court
establishes that if Mostiler had conducted an
adequate investigation and obtained the significant
information about Whatley’s social history and
mental health that was available, the jury would
have learned about a number of significant,
compelling mitigating circumstances in Whatley’s
life and they would have been provided a complete
picture of the adverse circumstances that affected
Whatley’s conduct, behavior, and mental and
psychological health. See, E.g., Wiggins, 539 U.S. at
provided by investigator Yarbrough. These findings did not
critically evaluate the nature and uncertainty of Yarbrough’s
testimony. The Court notes, as it did previously in this Order
(see footnote 15), that many of the responses by Yarbrough to
questions about Mostiler’s rationale for certain strategic
decisions were based on Yarbrough’s recollection of the case
and his attempt to interpret what Mostiler may have done and
may have decided based on his past experiences working with
him. For obvious reasons, Yarbrough’s recollection was poor
and, to the extent he tried to provide interpretive information,
it was prompted by leading questions which, even then,
resulted in unspecific, speculative answers. The Court finds
that Yarbrough’s testimony does not discredit the undisputed
fact that, prior to trial, Mostiler did not obtain the 1988
Reports, did not have Whatley examined by an independent
mental health expert, and did not conduct any other mental or
psychological health evaluation such that the investigation into
this aspect of Whatley’s life was constitutionally inadequate
under Strickland. See Strickland, 466 U.S. at 687; Evans, 703
F.3d at 1325-26.

196a
534-37 (powerful mitigating evidence included
physical abuse, sexual molestation, homelessness,
diminished mental capabilities, and having an
absentee mother with substance abuse problems);
Williams, 529 U.S. at 397-98. Although mental
health and psychological evidence may be a
double-edged sword that can work against a
defendant during a sentencing proceeding, the
information presented before the state habeas court
does not suggest an enhanced risk of dangerousness
to others or that Whatley was irretrievably broken.
See Evans, 703 F.3d at 1328-29. The mitigating
evidence regarding Whatley’s background and
mental health presented to the state habeas court
that was not available to the sentencing jury focuses
on how Whatley’s mental health issues, drug abuse,
and upbringing affected his conduct and perception
of events and people. The 1988 Reports support that
he is intelligent, subject to being rehabilitated, was
not a lost cause, and had mental and social
environmental influences and events that would
cause a reasonable jury to conclude the death
penalty should not be imposed.
The Court finds that in reweighing the evidence
in aggravation against the totality of available
mitigating evidence, from both the sentencing phase
at trial and from the state habeas proceedings, there
is a reasonable probability that one member of the
jury would have voted for life instead of death. See,
E.g., Wiggins, 539 U.S. at 534, 537; Williams, 529
U.S. at 397-98 (“[T]he graphic description of
[petitioner’s] childhood, filled with abuse and
privation…might well have influenced the jury’s

197a
appraisal of his moral culpability.”). That is, the jury
would not have sentenced Whatley to death if
Mostiler had conducted an adequate investigation of
his background and mental health issues. See, E.g.,
Wiggins, 539 U.S. at 534, 536-38; Williams, 529 U.S.
at 397-98.33
The Court thus finds that the Supreme Court of
Georgia’s decision regarding Whatley’s claim of
ineffective assistance of counsel based on an
inadequate background investigation “was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined by
the Supreme Court of the United States” and “was
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d)(1), (2); See Also
Wiggins, 539 U.S. at 520-21, 537; Williams, 529 U.S.
at 379, 385, 397-98. The Court further finds that
Whatley was prejudiced by the ineffective assistance
of his counsel including because counsel’s
investigation was constitutionally inadequate and
did not allow an effective penalty-phase strategy to
be developed, and denied the jury of information that
had a reasonable probability of producing a different
sentencing result. Whatley thus is entitled to relief
on his ineffective assistance of counsel claim based
on a failure by Mostiler to conduct an adequate
investigation, and his death sentence is required to
be vacated.
An adequate investigation was the necessary first step to
developing a penalty-phase strategy. See Wiggins, 539 U.S. at
534, 537; Williams, 529 U.S. at 397-98.
33

198a
b.

Claim IX, Subpart B – Petitioner’s
claim that his trial counsel provided
ineffective assistance of counsel in
mishandling requests for mental
health experts

Whatley’s claim regarding the mishandling of
requests for mental health experts is that his
counsel was constitutionally ineffective in failing to
renew a motion to retain, and in failing to present
testimony from, a mental health expert. (See Pet’r’s
Br. in Supp. of Pet. at 117-18; Pet. for Writ of
Habeas Corpus ¶¶ 142-47); See Also Ake v.
Oklahoma, 470 U.S. 68 (1985). Because Whatley
bases his claim upon the decisions of his counsel and
not a denial of a request for assistance by the trial
court, this claim also is required to be evaluated
under Strickland.
i.

State court adjudication

Regarding Whatley’s claim that his trial counsel
was constitutionally ineffective in his handling of
requests for mental health experts, the Supreme
Court of Georgia stated:
Whatley also argues that trial counsel
rendered ineffective assistance in his
preparation and use of new mental health
evidence. Counsel initially sought funds from
the trial court to obtain his own mental
health expert. The trial court authorized an
initial
examination
of
Whatley
by
psychologists working for the state mental
hospital, Dr. Karen Bailey-Smith and Dr.

199a
Margaret Fahey. Counsel received two
written reports from the evaluation. Dr.
Bailey-Smith gave inconsistent testimony in
the habeas proceedings, the balance of which
suggested that she possibly spoke with trial
counsel but that she could not specifically
recall doing so. The defense investigator
testified that counsel did communicate with
Dr. Bailey-Smith after reviewing her report,
and it is clear that counsel did receive a copy
of her report. Thus, the evidence supports
the habeas court’s finding of fact that counsel
did communicate with Dr. Bailey-Smith.
Whatley faults trial counsel for not providing
Dr. Bailey-Smith the mental health
evaluations performed in the District of
Columbia as a result of his criminal
proceedings there; however, she testified in
the habeas hearing that they would not have
changed her expert opinions if she had seen
them pre-trial and, therefore, counsel’s use of
her report would not have been affected by
his alleged failure to obtain the records
either in a timely fashion or at all. Dr.
Bailey-Smith’s report did note that Whatley’s
MMPI-2, a personality inventory, “was
suggestive of…significant psychopathology”
and that Whatley used some “idiosyncratic”
words. However, she never concluded that he
suffered from psychosis, and, in fact, she
testified at the habeas hearing that she
“didn’t think he had any delusional
thoughts” but merely had “some thought
patterns that we thought were different and

200a
bordered delusional thinking.” Furthermore,
her report’s description of the possible
“psychopathology” suggested that Whatley
merely had a “boastful and egocentric”
attitude and that he had a “form of magical
thinking” characterized merely by a belief
that he was “unique and special” and had
“unique and special powers” to influence
others. The diagnostic impression set out in
her report contained hints of mitigation, but
overall it could have been more aggravating
than mitigating. That diagnosis was as
follows: “Rule Out [i.e., there are some signs
of but not enough to reach a diagnosis of]
Bipolar Disorder” and “Personality Disorder
NOS
[not otherwise specified] with
antisocial, borderline, narcissistic, and
schizotypal features.”
As we noted above, counsel’s use at trial of
Dr. Bailey-Smith’s report would not have
been affected if counsel had not failed, as
Whatley alleges, to obtain the records from
mental health evaluations performed in the
District of Columbia as a result of his
criminal proceedings. We further conclude as
a matter of law that the failure of trial
counsel to present the records directly to the
trial court in a renewed motion for Whatley’s
own expert did not result in significant
prejudice to his ability to prevail on that
motion. The evaluations described in those
records had been conducted more than eight
years before Dr. Bailey-Smith’s, and they

201a
reached conclusions similar to, and in some
respects less favorable than, the conclusions
reached in Dr. Bailey-Smith’s report. For
example, although the older evaluations
referred to Whatley as “evidenc[ing]
symptoms of schizophrenia,” those symptoms
are described in the reports as arising from
Whatley’s use of illegal drugs.
Whatley also argues that trial counsel
performed deficiently in failing to cite certain
case law or to request an ex parte hearing in
support of his motion for a defense expert.
Even assuming counsel performed deficiently
in these respects, we conclude that Whatley’s
motion for his own expert was not prejudiced
by those deficiencies.
In light of the foregoing discussion, we
conclude as a matter of law that, even given
the deficiencies in counsel’s performance that
we have assumed in our discussion above,
Whatley’s defense was not prejudiced. This is
true because, even if counsel had performed
in the manner Whatley now says he should
have, counsel still would reasonably have
declined to renew Whatley’s motion for his
own mental health expert and because the
trial court would have properly denied such a
renewed motion if it had been made.
Whatley, 668 S.E.2d at 662-63 (footnotes and
internal citation omitted).

202a
ii. Review of
adjudication

the

state

court

Mostiler made his mental health expert
assistance determinations based on the results of
state-provided, pre-trial mental health evaluations
and his initial investigation into Whatley’s
background. The diagnostic impressions by Dr.
Bailey-Smith in Whatley’s pre-trial mental health
evaluation did not conclude that he suffered from
psychosis, but contained information, as recounted
above, that contained significant mitigating
evidence. Based on the results of Dr. Bailey-Smith’s
evaluation of Whatley, and it having discounted the
existence of a trial defense based on a lack of mens
rea, Mostiler did not pursue a further mental
examination of his client by renewing his motion for
expert assistance. See Ake, 470 U.S. at 82-83
(government-provided
mental
health
expert
warranted “when a defendant demonstrates to the
trial judge that his sanity at the time of the offense
is to be a significant factor at trial”); McClain, 552
F.3d at 1253 (“The relevant question is not what
actually motivated counsel, but what reasonably
could have motivated counsel.”).
The Court concluded that Mostiler failed to
adequately investigate Whatley’s background and
mental and psychological health and should have
conducted further inquiry by retaining the services
of an independent psychological or other expert and
ensuring he received Whatley’s prior psychological
records. The ineffective assistance claim presented
here is based on a failure to renew a motion. A

203a
decision by Mostiler to forgo further inquiry into
Whatley’s mental health by not renewing his request
for expert assistance occurred after Mostiler received
the pre-trial mental health evaluations from Drs.
Bailey-Smith and Fahey. There are no grounds to
support a request for further evaluation under Ake
or state law.34 See Ake, 470 U.S. at 83 (where
petitioner’s competence to stand trial is not in
question, no constitutional right to a psychiatrist of
own choosing or funds to hire one); Hightower v.
Schofield, 365 F.3d 1008, 1015, 1026 (11th Cir.
2004), vacated other grounds, 545 U.S. 1124 (2005);
Medina v. Singletary, 59 F.3d 1095, 1107 (11th Cir.
1995); Brockman v. State, ––S.E.2d ––, No.
S12P1490, 2013 WL 776589, at *6 (Ga. Mar. 4,
2013); Bright v. State, 455 S.E.2d 37, 46-47, 50-51
(Ga. 1995) (indigent defendant has burden of
showing, with reasonable degree of precision, how
capacity to understand wrongfulness of conduct
would be a significant and critical issue during
penalty phase in order to obtain expert mental
health assistance to help prepare case in mitigation).
Mostiler’s decision not to renew a motion for
expert assistance is entitled to a presumption that it
was “within the wide range of reasonable
professional assistance.” Strickland, 466 U.S. at 689.
Whatley did not rely upon a mens rea defense and
there were no competency issues identified in the
This request is not reasonably interpreted as a general
request for an independent psychological evaluation for
mitigation purposes but to request the kind of evaluation which
the state court agreed to conduct and which was conducted by
Drs. Bailey-Smith and Fahey.
34

204a
Court Report. Thus, it was not unreasonable for
Mostiler to determine that renewal of his motion for
a mental health expert was not necessary or
warranted. See McClain, 552 F.3d at 1253; Holladay
v. Haley, 209 F.3d 1243, 1250 (11th Cir. 2000)
(quoting Strickland, 466 U.S. at 691) (“[T]he choice
not to seek out such an evaluation is a tactical
decision, which ‘must be directly assessed for
reasonableness in all the circumstances, applying a
heavy measure of deference to counsel’s judgment.’”).
The Court is unable to conclude that Mostiler
committed “acts or omissions [that] were outside the
wide range of professionally competent assistance”
by failing to renew his motion for a mental health
evaluation after receiving the results of Whatley’s
pre-trial psychological evaluations and considering
the futility of that request under Ake and governing
state-law standards. See Strickland, 466 U.S. at 690.
Assuming, as did the Supreme Court of Georgia,
that Mostiler exhibited unprofessional judgment
errors in not renewing a motion for a mental health
expert, the Court further concludes that there is no
“reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different” during the guilt or
penalty phase. Had Mostiler renewed his motion for
mental health expert assistance after receiving the
pre-trial mental health evaluation reports or the
1988 Reports, relied on controlling applicable case
law in his renewed motion, required further
examination by someone Whatley chose, or sought
an ex parte hearing on any renewed motion, there is
no reasonable likelihood that his motion to be

205a
provided funds for further assistance by mental
health experts would have been granted by the trial
court because there was an absence of information
indicating that Whatley suffered from a specified
mental illness, that Whatley’s capacity to
understand wrongfulness of conduct was impaired,
or that there were other questions of competency
sufficient to justify granting his request. See Ake,
470 U.S. at 83 (where petitioner’s competence to
stand trial is not in question, no constitutional right
to psychiatrist of own choosing or funds to hire one);
Hightower, 365 F.3d at 1015, 1026; Medina, 59 F.3d
at 1107; Brockman, 2013 WL 776589, at *6; Bright,
455 S.E.2d at 46-47, 50-51.
The Court does not find that the Supreme Court
of Georgia’s decision regarding Whatley’s claims of
ineffective assistance of counsel based on Mostiler’s
failure to renew a mental health expert request “was
contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by
the Supreme Court of the United States,” “was based
on an unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding,” or that Whatley was prejudiced by
Mostiler’s failure to renew this request. 28 U.S.C.
§ 2254(d)(1), (2); See Also Wiggins, 539 U.S. at
520-21; Williams, 529 U.S. at 379, 385. Whatley is
not entitled to relief on his ineffective assistance of
counsel claim based on a failure by Mostiler to renew
his request for a further mental health evaluation.
c.

Claim IX, Subpart C – Petitioner’s
claim that his trial counsel provided

206a
ineffective assistance of counsel in
failing to object to his unwarranted
and improper visible shackling
during the penalty phase of his trial
Whatley’s claim is not that his substantive
constitutional rights were violated by his being
visibly shackled during the penalty phase of his
trial, but that his counsel was constitutionally
ineffective for failing to object to his being visibly
shackled during the penalty phase of his trial.35 The
ineffective
assistance
of
counsel
standards
established by Strickland apply to this claim.
Under Strickland’s deferential standard, a court
must first determine “whether, in light of all the
circumstances, the identified acts or omissions [of
counsel] were outside the wide range of
professionally competent assistance.” Strickland,
466 U.S. at 690. “Judicial scrutiny of counsel’s
performance must be highly deferential…. [A] court
must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable
professional assistance.” Id. at 689. Courts “must
avoid second-guessing counsel’s performance,”
recognizing that “the Petitioner’s burden of
persuasion—though the presumption is not
See Deck v. Missouri, 544 U.S. 622, 624 (2005) (“[T]he
Constitution forbids the use of visible shackles during the
penalty phase, as it forbids their use during the guilt phase,
unless that use is ‘justified by an essential state interest’—such
as the interest in courtroom security—specific to the defendant
on trial.”) (quoting Holbrook v. Flynn, 474 U.S. 560, 568-69
(1986)).
35

207a
insurmountable—is a heavy one.” Chandler, 218
F.3d at 1314.
Second, the “defendant must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. A reasonable probability
is a probability sufficient to undermine confidence in
the outcome.” Strickland, 466 U.S. at 694; See Also
Allen, 611 F.3d at 751. The court may “dispose of
[the] ineffectiveness [claim] on either of its two
grounds.” Atkins, 965 F.2d at 959; See Also
Strickland, 466 U.S. at 697 (“[T]here is no reason for
a court deciding an ineffective assistance claim… to
address both components of the inquiry if the
defendant makes an insufficient showing on one.”).
i.

State court adjudication

The Supreme Court of Georgia made the
following determination regarding Whatley’s claim
that his counsel provided ineffective assistance of
counsel by failing to object to his being visibly
shackled before the jury during the penalty phase of
his trial:
Whatley argues that his trial counsel
rendered ineffective assistance by failing to
object to his being placed in visible shackles
during the sentencing phase, including
during his physical demonstration of his
version of events for the jury. The Supreme
Court of the United States decided in 2005,
well after Whatley’s trial and direct appeal,
that visibly shackling a defendant during the

208a
sentencing phase is unconstitutional unless
the record shows “‘an essential state
interest’-such as the interest in courtroom
security-specific to the defendant on trial.”
The Warden argues that counsel should not
be regarded as having performed deficiently
by failing to object to the shackling, because
the practice had not yet been established as
unconstitutional. However, at the time of
Whatley’s trial, this Court had already
strongly suggested in dictum that it was
unconstitutional to place visible shackles on
a death penalty defendant during the
sentencing phase without a showing of
particular need. We therefore assume, at
least for the purpose of this discussion, that
trial counsel performed deficiently in failing
to recognize the legal basis for an objection to
visible shackling in the sentencing phase.
On direct appeal where unconstitutional
shackling has occurred, there is a
presumption of harm that can be overcome
only upon a showing by the State that the
shackling was harmless beyond a reasonable
doubt. However, where, as here, the issue is
the ineffective assistance of trial counsel in
failing to object to such shackling, the
petitioner is entitled to relief only if he or she
can show that there is a reasonable
probability that the shackling affected the
outcome of the trial. In view of the balance of
the evidence presented at his trial, we
conclude as a matter of law that Whatley

209a
cannot show that his trial counsel’s failure to
object to his shackling in the sentencing
phase in reasonable probability affected the
jury’s selection of a sentence.
Whatley, 668 S.E.2d at 663 (footnotes omitted).
ii. Review of
adjudication

the

state

court

The Court finds that Whatley’s counsel did not
render constitutionally ineffective assistance of
counsel by failing to object to Whatley being seen in
shackles by the jury after he had been convicted.
Whatley’s counsel could have had a number of
valid reasons for declining to object to his client
being seen in restraints during the penalty phase of
his trial and the Court, avoiding a “second-guessing
[of] counsel’s performance,” presumes that Mostiler’s
decisions fell “within the wide range of reasonable
professional assistance” expected of a trial counsel.
See Chandler, 218 F.3d at 1314 & n.15 (quoting
Strickland, 466 U.S. at 689); See Also McClain, 552
F.3d at 1253. On the facts of this case, the Court
concludes that Whatley’s counsel’s decision in
1997— before the Supreme Court determined that
visible shackling was unjustified absent a state
interest specific to a particular trial36—not to object
to Whatley’s visible shackling was not a professional
error that fell “outside the wide range of
The Supreme Court of Georgia had suggested visible
shackling should not occur. See Moon v. State, 375 S.E.2d 442,
449 (Ga. 1988).
36

210a
professionally competent assistance.” See Strickland,
466 U.S. at 690; See Also Deck, 544 U.S. at 624. The
Court also concludes that there is no presumption of
prejudice from the visible shackling, based on an
ineffective assistance or due process claim, because
Whatley was given an opportunity to object and
declined to do so. See Moon v. Head, 285 F.3d 1301,
1317 (11th Cir. 2002); Holladay, 209 F.3d at 1255
(citing Elledge v. Dugger, 823 F.2d 1439, 1452 (11th
Cir. 1987), withdrawn in part on other grounds, 833
F.2d 250 (11th Cir. 1987) (per curiam)); (Resp’t’s Ex.
13A at 1412).37
In evaluating whether there is a reasonable
probability that the result of the proceeding would
have been different if Whatley’s counsel had
objected, the Court notes that Whatley was seen in
restraints during the penalty phase of his trial while
testifying and reenacting, before the jury, Allen’s
murder, which implicates an interest in jury and
courtroom security —an essential state interest.
Considering the evidence that was introduced at
trial, the jury’s implicit rejection of Whatley’s claim
that Allen shot at him first, the State’s case in
aggravation during the penalty phase, and that
The Court notes that Petitioner is incorrect in asserting that
“had counsel objected at trial, the result of Petitioner’s appeal
would have been different.” (Pet’r’s Br. in Supp. of Pet. at 89).
Elledge v. Dugger, upon which Petitioner relies for that
proposition, found reversible error where a petitioner was not
afforded an opportunity to object or respond to the imposition of
visible shackles. See Holladay, 209 F.3d at 1255 (citing Elledge,
823 F.2d at 1452). Here, Petitioner was given an opportunity to
object and he did not do so. (Resp’t’s Ex. 13A at 1412).
37

211a
there was some support for a need to protect the jury
during the reenactment, the Court is unable to
conclude—even if there were unprofessional errors
by his counsel—that there is a reasonable
probability that Whatley would have received a
sentence other than death had Whatley’s counsel
objected to his being seen in shackles.
The Court does not find that the Supreme Court
of Georgia’s decision regarding Whatley’s claim of
ineffective assistance of counsel based on a failure to
object to shackling disclosed during a reenactment
“was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States,”
“was
based
on
an
unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding,” or that
Whatley was prejudiced by Mostiler’s failure to
object to Whatley’s visible shackling. See 28 U.S.C.
§ 2254(d)(1), (2); See Also Wiggins, 539 U.S. at
520-21; Williams, 529 U.S. at 379, 385. Whatley is
not entitled to relief on his ineffective assistance of
counsel claim based on a failure by Mostiler to object
to his visible shackling during the penalty phase of
his trial.

212a
d.

Claim IX, Subpart D – Petitioner’s
claim that his trial counsel provided
ineffective assistance of counsel in
failing to obtain the assistance of a
ballistics expert and for failing to file
a proper motion for a ballistics
expert

Like Whatley’s claims of error regarding
counsel’s
failure
to
conduct
an
adequate
investigation, to obtain mental health experts, or to
object to Whatley’s visible shackling, Whatley’s claim
of ineffective assistance of counsel in failing to retain
and present testimony from an independent
ballistics expert is also required to be evaluated
under Strickland.
i.

State court adjudication

The Supreme Court of Georgia, in reviewing
Whatley’s ineffective assistance claim based on his
trial counsel’s failure to obtain an independent
ballistics expert, stated:
Finally, Whatley argues that his trial
counsel rendered ineffective assistance by
failing to obtain funds for a ballistics expert.
In support of his argument, Whatley cites
the affidavit testimony of an expert witness
opining that the evidence in Whatley’s case
is inconsistent with Whatley’s having fired
downward toward Tommy Bunn, that it
would have been “virtually impossible” for
the bullet that struck the service counter to
have deflected upward and struck the

213a
ceiling, and that the gunshot wound to Ed
Allen’s chest from a range of 15 to 18 inches
could have been inflicted after Allen had
stepped over Bunn and had gone around the
service counter pursuing Whatley. The
habeas court filed an order striking the
affidavit, among others, because it was filed
without authorization after the close of the
evidentiary hearing.
The affidavit alleges that the gunpowder
residue pattern associated with the bullet
mark on the service counter demonstrates
that the bullet was traveling on a trajectory
somewhat level with the floor, not sharply
downward toward Tommy Bunn. However,
this
testimony,
coupled
with
the
still-uncontradicted trial testimony showing
that the bullet that struck the counter very
close to Allen’s position was fired from a
range of approximately eight inches, would
have led the jury to conclude, at the most,
that the shot was intended for Allen and was
fired at very close range before Whatley had
retreated from the counter. The affidavit’s
assertions that the shot that struck the
counter could not have also struck the ceiling
and that the shot to Allen’s chest could have
been inflicted as Whatley was exiting and
being pursued fail to shed light on the
question of whether Whatley fired his pistol
before Allen armed himself, particularly
given the fact that Whatley fired at least one
shot in the direction of either Allen or Bunn

214a
from a distance of only eight inches from the
counter. Thus, even assuming trial counsel
should have obtained expert testimony like
that contained in the affidavit, we conclude
as a matter of law that Whatley’s defense did
not, by his being deprived of such testimony
at trial, suffer prejudice sufficient to support
his ineffective assistance claim. Accordingly,
even assuming the habeas court erred in
refusing to consider Whatley’s untimely
affidavit, such error would be harmless.
Whatley, 668 S.E.2d at 664 (footnote omitted).
ii. Review of
adjudication

the

state

court

Mostiler’s initial decision to seek an expert in
ballistics was premised on a possibility that someone
other than Whatley may have committed the murder
of Ed Allen.38 That Whatley’s counsel did not further
pursue his motion is not an unprofessional error
where it likely, and quickly, became clear based on a
The Supreme Court of Georgia limited its review to the
evidence before the state habeas court and did not consider
Petitioner’s ballistics expert affidavit (the “Fite Affidavit”) as
part of the record in its resolution of his claim on merits.
Although the Supreme Court of Georgia assumed the
assertions in the affidavit arguendo in its resolution of
Petitioner’s claim, the Fite Affidavit was not made part of the
record that was before the Supreme Court. This Court’s review
under Section 2254 is similarly limited to the record before the
Supreme Court of Georgia and the Fite Affidavit will not be
considered. See Grim v. Sec’y, Fla. Dep’t of Corrs., 705 F.3d
1284, 1286 n.3 (11th Cir. 2013) (per curiam).
38

215a
review of the State’s evidence that Whatley was the
person who shot and killed Ed Allen. See McClain,
552 F.3d at 1253. The decisions regarding whether
to pursue independent ballistics expert assistance
are, inherently, the sort of tactical and strategic
decisions of counsel that, under Strickland’s
deferential standards, should not be second guessed
unless that decision was so “patently unreasonable
that no competent attorney would have chosen it.”
Kelly v. United States, 820 F.2d 1173, 1176 (11th Cir.
1987) (per curiam) (quoting Adams v. Wainwright,
709 F.2d 1443, 1445 (11th Cir. 1983) (per curiam));
See Also Waters v. Thomas, 46 F.3d 1506, 1512 (11th
Cir. 1995). The Court is unable to conclude here that
Mostiler’s decision not to retain and present
testimony from an independent ballistics expert
after determining that Whatley shot Allen is the sort
of unprofessional error that falls “outside the wide
range of professionally competent assistance.” See
Strickland, 466 U.S. at 690.
The Court is also unable to conclude that there is
a reasonable probability that Whatley was
prejudiced by the absence of an independent
ballistics expert. The Supreme Court of Georgia
noted the information in the Fite Affidavit, which is
not part of the state habeas record, does not support
Whatley’s alternative theory that he only shot Allen
after Allen shot at him and does not call into
question the uncontradicted trial testimony showing
that the gunshots fired into the counter in front of
Allen were fired from a range of eight inches—which
supports that Whatley shot at Bunn and that Allen
was shot and killed at close range by Whatley before

216a
Allen had the opportunity to retrieve his gun and
pursue Whatley out of the bait shop.39
The Court does not find that the Supreme Court
of Georgia’s decision regarding Whatley’s claim of
ineffective assistance of counsel based on a failure to
retain and present testimony from an independent
ballistics expert “was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States,” “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding,” or that
Whatley was prejudiced by Mostiler’s failure to
retain and present testimony from an independent
ballistics expert. See 28 U.S.C. § 2254(d)(1), (2); See
Also Wiggins, 539 U.S. at 520-21; Williams, 529 U.S.
at 379, 385. Whatley is not entitled to relief on his
ineffective assistance of counsel claim based on a
failure by Mostiler to retain and present testimony
from an independent ballistics expert.
3. Claim VII – Ineffective assistance of
counsel should be presumed under the
rule of United States v. Cronic because
his trial counsel’s caseload rendered the
adversarial process meaningless
Petitioner’s argument regarding the inadmissible,
extra-record information in the Fite Affidavit about a “bullet
impact area” around the frame of the door to the bait shop is
consistent with the facts found by the state court that there
was an exchange of gunfire between Whatley and Allen after
Allen was shot and Whatley was fleeing the scene of the crime.
See Whatley, 668 S.E.2d at 664; (Resp’t’s Ex. 52A).
39

217a
Under United States v. Cronic, a defendant may
demonstrate ineffective assistance of counsel that
renders the adversarial process meaningless where
it is shown that “although counsel is available to
assist the accused during trial, the likelihood that
any lawyer, even a fully competent one, could
provide effective assistance is so small that a
presumption of prejudice is appropriate without
inquiry into the actual conduct of the trial.” 466 U.S.
at 659-60. The circumstances under which prejudice
is presumed are “very narrow” and the burden on a
petitioner to demonstrate prejudice under Cronic is
“a very heavy one.” See Stano v. Dugger, 921 F.2d
1125, 1153 (11th Cir. 1991).40 Whatley asserts that
his trial counsel’s “overwhelming caseload at the
time of Mr. Whatley’s trial created one of those
circumstances.” (Pet’r’s Br. in Supp. of Pet. at 30).
a.

State court adjudication

The state habeas court made the following
factual
findings
regarding
Whatley’s
legal
representation:
The petitioner was represented at trial and
on appeal by Attorney Johnny Mostiler, the
contract Public Defender for Spalding
County. Mr. Mostiler had been admitted to
practice law in Georgia since 1977. In 1990,
The narrow circumstances where a presumption of prejudice
may be found to exist include: (i) a denial of counsel; (ii) various
kinds of state interference with counsel’s assistance; and, (iii)
where counsel is burdened with an actual conflict of interest.
See Smith v. Robbins, 528 U.S. 259, 287 (2000).
40

218a
under the direction of the Superior Court
Judges of the Circuit and the Spalding
County governing commission, Mr. Mostiler
was engaged to serve as the Public Defender
for that county, to provide, with assistance
from
other
qualified
attorneys,
representation for indigent defendants. The
contractor Mostiler, apparently received
funding and, approval, or at least
acquiescence, from the Indigent Defense
Council for the State of Georgia. However,
the contract between Mostiler and the county
as Public Defender did not apply to “any case
in which the State seeks the death penalty.”
Death Penalty cases involving indigent
defendants were defended by attorneys
(including Mr. Mostiler) individually and
specifically appointed by a judge. Mr.
Mostiler was appointed as defense counsel in
this case on Feb. 7, 1995. He was an
experienced criminal defense attorney and
was prima facie presumed qualified to
represent a person confronting the possibility
of receiving a death sentence.
Attorney Mostiler was generally well known
and well regarded in the legal community
and was professionally well regarded in the
legal community in which he practiced. He
was generally permitted an “open file” policy
by the District Attorney’s office on this and
other cases. This meant that, by having
access to the prosecution’s files, he did not
have to spend a great deal of time to

219a
determine what the prosecution’s evidence
was likely to be. Nevertheless he filed
appropriate motions and demands to see that
the defense was provided with the
information compellable to be produced by
the state.
(Resp’t’s Ex. 71 at 5-6).41
The Supreme Court of Georgia, applying the
clearly established federal law in Cronic, made the
following factual and legal determination regarding
Whatley’s claim that Mostiler’s “heavy caseload as
the contract defender for Spalding County” requires
a presumptive finding of prejudice:
In general, an ineffective assistance claim
can succeed only where the prisoner can
show actual prejudice to his or her defense
that in reasonable probability changed the
outcome of the trial. However, Whatley
correctly notes that an exception to this
general rule applies and prejudice will be
presumed where,
although counsel is available to assist
the accused during trial, the likelihood
that any lawyer, even a fully competent
one, could provide effective assistance is
so small that a presumption of prejudice
is appropriate without inquiry into the
actual conduct of the trial.
Mostiler died shortly after the conclusion of Whatley’s direct
appeal. (Resp’t’s Ex. 71 at 26).
41

220a
An example of where such extreme
circumstances existed is a case where the
entire membership of the state bar had been
appointed to defend racially vilified
defendants in a highly emotional public
setting, where it “‘was a matter of
speculation only’” whether anyone would
actually represent the defendants at trial
until the last moment, where “[n]o attempt
was made to investigate… [and n]o
opportunity to do so was given,” and where
the trial began “within a few moments after
counsel for the first time charged with any
degree of responsibility began to represent
[the defendants].”
Whatley asserts that, during the two-year
period when his case was pending, Mostiler
represented 70% of 1,558 felony defendants
with the remainder being represented by his
associate, opened 70 civil cases, represented
one murder defendant outside the county,
and represented four death penalty
defendants. A review of the record reveals
that Whatley’s assertion may be somewhat
exaggerated; however, more importantly, we
find that his assertion regarding Mostiler’s
general caseload is irrelevant. As was noted
by the habeas court, it is the amount of time
actually spent by Mostiler on Whatley’s case
that matters, not the number of other cases
he might have had that potentially could
have taken his time. The habeas court found
that Mostiler was a highly experienced

221a
attorney, was experienced in death penalty
cases, was appointed two years before
Whatley’s trial, and “spent over 157 hours on
[Whatley’s] case in addition to the 96 hours
that his investigator logged.” The habeas
court further noted with approval testimony
by the defense investigator stating that it
was likely that Mostiler’s billing records
under-represented the time he actually spent
on the case.
The Eleventh Circuit recently addressed a
similar claim regarding Mostiler’s heavy
caseload and its bearing on another death
penalty case in which he was defense
counsel. Although the case was decided on
procedural grounds, the Eleventh Circuit
stated the following in dictum:
As the district court found, Mostiler was
an experienced and effective advocate for
Osborne. Osborne presented no evidence,
other than vague statistics, to support
his allegation that trial counsel’s
caseload impeded his representation. As
such, Osborne cannot show that
Mostiler’s representation fell below an
objective standard of reasonableness
such that prejudice is presumed.
We agree with the reasoning of the Eleventh
Circuit that vague statistics that fail to shed
light on the amount of work actually done in
the particular case at issue are insufficient to
show the kind of complete breakdown in

222a
representation necessary for prejudice to the
defense to be presumed.
Whatley, 668 S.E.2d at 656-57 (alterations in
original) (footnotes omitted).
b. Review of the state court adjudication
Whatley’s statistical analysis of the hours
expended by Mostiler in preparing for Whatley’s
trial, and his claim that Mostiler’s failure to spend
the recommended amount of hours set forth by the
American Bar Association constitutes a presumption
of prejudice, fails to meet the heavy burden to
demonstrate that Mostiler’s performance rendered
the adversarial process meaningless. The Court
agrees with the Eleventh Circuit and Supreme Court
of Georgia that statistics regarding hours spent in
preparation for trial or the number of cases assigned
to a contract public defender are not alone sufficient
to establish that a presumption of prejudice arises.
See Osborne, 466 F.3d at 1315 n.3; Whatley, 668
S.E.2d at 657. Here, it is undisputed that Mostiler
spent more than 100 hours preparing for Whatley’s
trial, his investigator spent 96 hours assisting with
his defense,42 Mostiler challenged the State’s
evidence at trial through cross-examination,
Mostiler presented opening and closing argument,

Trial counsel does not perform deficiently by delegating the
mitigation investigation to his investigators and relying upon
them to interview potential witnesses. See Rhode v. Hall, 582
F.3d 1273, 1283 (11th Cir. 2009).
42

223a
and Mostiler presented evidence
sentencing phase of Whatley’s trial.43

during

the

A review of the sentencing phase transcript
showed that trial counsel called eleven witnesses to
testify on Petitioner’s behalf….
The Court does not find that the Supreme Court
of Georgia’s decision regarding Whatley’s claim of
presumed prejudice “was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States,” “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding,” or that
Whatley was prejudiced by Mostiler’s heavy
caseload. See 28 U.S.C. § 2254(d)(1), (2); See Also
Wiggins, 539 U.S. at 520-21; Williams, 529 U.S. at
379, 385. Whatley is not entitled to relief on his
claim that there is a presumption of ineffective
assistance of counsel under Cronic based on
Mostiler’s heavy caseload.
4. Claim VIII – Trial counsel’s caseload
created an actual conflict of interest
between Petitioner’s rights and those of
his counsel’s other clients
The state habeas court made the following factual
determinations:
43

[T]he evidence [also] showed that counsel filed over twenty
pretrial motions in this case, interviewed potential guilt phase
and penalty witnesses in preparation for trial, examined the
crime scene, and reviewed the State’s investigative file.
(Resp’t’s Ex. 71 at 45, 62).

224a
Where a defendant has a constitutional right to
counsel,
the
Sixth
Amendment
right
to
representation is one that must be free from an
actual conflict of interest. See Wood v. Georgia, 450
U.S. 261, 271 (1981). An actual conflict of interest
exists where a counsel’s loyalties are divided and he
is unable to pursue his client’s interests
“single-mindedly.” See id. at 271-72. To demonstrate
an actual conflict of interest, a petitioner “must show
‘inconsistent interests and must demonstrate that
the attorney made a choice between possible
alternative courses of action, such as eliciting (or
failing to elicit) evidence helpful to one client but
harmful to the other.’” McConico v. Alabama, 919
F.2d 1543, 1546 (11th Cir. 1990) (quoting Smith v.
White, 815 F.2d 1401, 1404 (11th Cir. 1987)). An
actual conflict of interest typically includes
circumstances where a lawyer represents different
parties or codefendants whose interests are in actual
conflict. See Wood, 450 U.S. at 267-72; Cuyler v.
Sullivan, 446 U.S. 335, 345-48 (1980); Holloway v.
Arkansas, 435 U.S. 475, 481 (1978) (citing Glasser v.
United States, 315 U.S. 60 (1942)); McConico, 919
F.2d at 1546 n.2.
The existence of an actual conflict of interest is
an exception to the general rule under Strickland
that a criminal “defendant alleging a Sixth
Amendment violation must demonstrate ‘a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.’” Mickens v. Taylor, 535
U.S. 162, 166 (2002) (citing Strickland, 466 U.S. at
694). Where a petitioner objects at trial to

225a
representation based on an actual conflict of
interest, prejudice is presumed entitling a petitioner
to an automatic reversal of his conviction, unless the
trial court determines that a conflict of interest in
the representation does not exist. See id. at 167-68.
Absent an objection by trial counsel to concurrent
representation of parties or codefendants whose
interests are in conflict, a petitioner “must
demonstrate that ‘a conflict of interest actually
affected the adequacy of his representation.’” See id.
at 168 (quoting Cuyler, 446 U.S. at 348-49).
Whatley asserts that Mostiler was unable to
pursue his rights with undivided loyalty free of an
actual conflict of interest because:
Trial counsel worked as the contract public
defender for Spalding County at the time he
represented Mr. Whatley. Because the
contract required counsel to accept far more
cases than he could handle, Mr. Mostiler was
forced to choose between defending the
rights of Mr. Whatley and the rights of the
many other clients to which he was assigned.
(Pet’r’s Br. in Supp. of Pet. at 43).
a.

State court adjudication

The Supreme Court of Georgia reviewed, and
rejected, Whatley’s claim that his “trial counsel was
forced to choose between representing Whatley and
representing counsel’s other clients.” Whatley, 668
S.E.2d at 658. The Supreme Court of Georgia stated:

226a
The Supreme Court [of the United States]
has cast some doubt on Whatley’s assertion
that the alleged circumstances in his case
should be considered under specialized Sixth
Amendment conflict of interest case law
requiring presumptions of prejudice rather
than under ordinary Sixth Amendment
ineffective assistance of counsel case law,
because Whatley’s case is not a case
involving the joint representation of
co-defendants and because it appears not to
be a case involving other factors that make
prejudice
both
highly
probable
and
exceptionally difficult to prove. However, the
discussion below shows that, even assuming
that Whatley’s allegation of a potential
conflict of interest should be subjected to
analysis under specialized Sixth Amendment
conflict of interest case law, prejudice should
not be presumed in his case, because he has
not shown that an actual conflict of interest
adversely affected his trial counsel’s
performance.
The Supreme Court has emphasized that a
trial court should pay special attention to
counsel when he or she attempts to satisfy
the professional duty to notify the trial court
that his or her representation might be
compromised by a conflict of interest, and
the Supreme Court has stated that it will
apply “an automatic reversal rule” where
counsel has announced the existence of a
conflict of interest arising out of the joint

227a
representation of co-defendants “unless the
trial court has determined that there is no
conflict.” However, that particular automatic
reversal rule clearly does not apply in
Whatley’s case, because there was no joint
representation of co-defendants and no
objection by counsel.
The Supreme Court has further held that, in
general, other potential conflicts of interest
may warrant a presumption of prejudice only
if the defendant proves the existence of a
conflict that “actually affected the adequacy
of [counsel’s] representation.” A trial court
certainly bears a duty to inquire into a
potential conflict of interest whenever “the
trial court is aware of” circumstances
creating more than “a vague, unspecified
possibility of conflict.” However, the Supreme
Court has held that a trial court’s failure to
inquire into the circumstances of a “potential
conflict” does not relieve a prisoner of his or
her duty to show on appeal that, in fact, a
conflict existed that “adversely affected his
[or her] counsel’s performance.”
As the discussion above highlights, Whatley
has shown nothing more than “vague
statistics[ ] to support his allegation that
trial counsel’s caseload impeded his
representation.” Given the time counsel
actually dedicated to Whatley’s case and the
quality of representation that the record
shows that counsel provided, Whatley’s

228a
vague statistics are not sufficient to show the
existence of an actual conflict of interest that
adversely affected counsel’s performance.
Accordingly, Whatley is not entitled to any
presumption that his defense suffered
prejudice.
Id. (second, third, and fourth alterations in original)
(footnotes omitted).
b.

Review
of
adjudication

the

state

court

Although Mostiler was the contract defender for
Spalding County, it is undisputed that he did not
have an actual conflict of interest based on his
representation of co-defendants, witnesses, or other
parties involved in Whatley’s criminal case. Mostiler
did not represent to the state trial court or Whatley
that he believed his representation was compromised
by his representation of other criminal defendants.
Whatley did not identify any circumstance where an
actual conflict of interest caused Mostiler to make “a
choice between possible alternative courses of action,
such as eliciting (or failing to elicit) evidence helpful
to one client but harmful to the other.” See
McConico, 919 F.2d at 1546 (quoting Smith, 815
F.2d at 1404).
The Court concludes that Mostiler did not have
an actual conflict of interest that affected his
representation of Whatley. The fact that Mostiler
had other clients to whom he owed obligations of
professional representation did not affect, or

229a
interfere with, his trial decisions or representation of
Whatley in his criminal case. Whatley failed to
demonstrate that Mostiler’s representation of other
criminal
defendants
adversely
affected
his
performance in Whatley’s case including because
Mostiler effectively advocated for Whatley by
challenging the State’s evidence and presenting the
jury with an alternative version of events suggesting
that Whatley acted in self-defense after Allen armed
himself with a firearm.44
The Court does not find that the Supreme Court
of Georgia’s decision regarding Whatley’s claims of
an actual conflict of interest “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States,” “was based on
an unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding,” or that Whatley was prejudiced by any
perceived conflict of interest. See 28 U.S.C.
To the extent Petitioner argues that “[t]he trial court was
plainly on notice” of a conflict of interest based on Mostiler’s
representation of other defendants as the Spalding County
contract public defender, this argument is unfounded. (Pet’r’s
Br. in Supp. of Pet. at 45). A conflict of interest is not
demonstrated by “a vague, unspecified possibility of conflict” or
a speculative or hypothetical conflict. See Mickens, 535 U.S. at
169; See Also McConico, 919 F.2d at 1546. The issue of a
conflict of interest involving Mostiler’s representation of
Whatley was not raised and the trial court was not required to
speculate regarding whether any such conflict existed. See
Mickens, 535 U.S. at 168-69. Indeed, a possibility of a conflict
“inheres in almost every instance” where an attorney
represents multiple defendants. See id.
44

230a
§ 2254(d)(1), (2); See Also Wiggins, 539 U.S. at
520-21; Williams, 529 U.S. at 379, 386. Whatley is
not entitled to relief on his claim that that Mostiler
was unable to pursue his rights with undivided
loyalty free of an actual conflict of interest.
5. Claim XI – Petitioner’s claim that the
prosecutor and other law enforcement
personnel failed to disclose threats and
payments to a witness, Rarlan Jackson,
in violation of the Constitution and the
rule of Giglio v. United States
Whatley asserts there was a secret, undisclosed
arrangement between the State and Rarland
Jackson that violated the Constitution and violated
the disclosure principles of Giglio v. United States,
405 U.S. 150 (1972). Jackson testified at trial that
Whatley had told him prior to the murder of Ed
Allen that Whatley was planning on robbing a store
in the vicinity of the bait shop, that Whatley asked
him for a gun to use in the robbery, and that
Whatley later admitted that he committed the
robbery and had been shot in the process. (Resp’t’s
Ex. 11A at 998-1001).
Whatley asserts, based on affidavits admitted
during the state habeas proceedings, “that: 1) the
State[, through Sergeant Sanders of the Spalding
County Sheriff’s Department,] paid Mr. Jackson for
his testimony; 2) the State threatened Mr. Jackson
with prosecution if he did not testify in the manner
that the prosecutor desired; and 3) Mr. Jackson
changed his testimony in response to these threats.”
(Pet’r’s Br. in Supp. of Pet. at 162). In the state

231a
habeas court, Whatley supported this claim with
affidavit testimony. Jackson testified in the state
habeas court that his testimony at Whatley’s trial
was truthful and was not improperly influenced by
the State. (See Resp’t’s Ex. 39B at 142-209).
After reviewing the evidence presented in the
state habeas proceedings, the state habeas court
determined that Whatley’s Giglio claim45 was
procedurally defaulted.46 (Resp’t’s Ex. 71 at 56-59).
Under Giglio, the prosecution must turn over to the defense
evidence in its possession or control which could impeach the
credibility of an important prosecution witness. United States
v. Jordan, 316 F.3d 1215, 1226 & n.16 (11th Cir. 2003) (citing
Giglio, 405 U.S. at 154). This includes “any agreement, formal
or informal, the prosecution has with a witness concerning
criminal charges against that witness, and the failure to
disclose such an agreement violates the due process
requirements of Brady v. Maryland.” Childress v. State, 489
S.E.2d 799, 799 n.1 (Ga. 1997). A failure to disclose information
required by Giglio does not “automatically require a new trial,”
but requires one “only if the [undisclosed] evidence is material
in the sense that its suppression undermines confidence in the
outcome of the trial, i.e., ‘only if there is a reasonable
probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different.’” Owen
v. State, 453 S.E.2d 728, 730-31 (Ga. 1995) (quoting Giglio, 405
U.S. at 154; United States v. Bagley, 473 U.S. 667, 676-78, 682
(1985)); See Also United States v. Agurs, 427 U.S. 97, 109-10
(1976) (“The mere possibility that an item of undisclosed
information might have helped the defense, or might have
affected the outcome of the trial, does not establish ‘materiality’
in the constitutional sense.”).
45

As with Petitioner’s Brady claim, to the extent Petitioner
asserts that Respondent waived the defense of a procedural
default regarding his Giglio claim by failing to raise it in his
Answer, the Court disagrees. Respondent stated in his Answer
46

232a
“[W]here the state court correctly applies a
procedural default principle of state law to arrive at
the conclusion that the petitioner’s federal claims
are barred, Sykes requires the federal court to
respect the state court’s decision.” Bailey, 172 F.3d
at 1302 (citing Sykes, 433 U.S. at 72); See Also
Mincey, 206 F.3d at 1135-36 (“It is well-settled that
federal habeas courts may not consider claims that
have been defaulted in state court pursuant to an
adequate and independent state procedural rule,
unless the petitioner can show ‘cause’ for the default
and resulting ‘prejudice,’ or ‘a fundamental
miscarriage of justice.’”). When a state court
addresses the merits of a claim and also finds a
procedural default, a district court should apply the
procedural bar and decline to reach the merits of
that claim. See Harris, 489 U.S. at 264 n.10;
Osborne, 466 F.3d at 1315; White, 972 F.2d at 1227;
Richardson, 883 F.2d at 898; Hittson, 2012 WL
5497808, at *8 n.10.
a.

State court adjudication

Whatley did not raise this claim on direct appeal
and the state habeas court found it was procedurally
defaulted. (Resp’t’s Ex. 71 at 56-59).47 The state
that “Respondent expressly adopts and relies upon any findings
made by the state courts as to the procedural default of any
and all claims not timely raised at trial and on appeal as
required by O.C.G.A. § 9-14-48(d).” (Resp’t’s Answer at 11). The
state habeas court found this claim to have been procedurally
defaulted. (See Resp’t’s Ex. 71 at 56-57); See Also Coleman, 501
U.S. at 735 n.1.
The Supreme Court of Georgia did not address Petitioner’s
Giglio claim in its review of the state habeas court’s decision
47

233a
habeas court also found that there was no cause or
prejudice to excuse the default because there was no
agreement between the State and Jackson for his
testimony. (Id.).
The cause and prejudice analysis of a Giglio
evidence suppression claim is the same as that for a
Brady claim. See Walker v. Johnson, 646 S.E.2d 44,
45-46 (Ga. 2007); Schofield, 621 S.E.2d at 730.
Under Georgia law, a petitioner may excuse his
procedural default for an evidence suppression claim
in a habeas proceeding by satisfying the two-part
cause and prejudice test. See Whatley, 668 S.E.2d at
655. A petitioner may satisfy the “cause” prong of the
test by showing the State breached a “constitutional
duty” to disclose the information forming the basis of
the claim. See id. at 655 n.8. To demonstrate
prejudice, a petitioner must show that
(1) the State possessed evidence favorable to
the defendant; (2) the defendant did not
possess the favorable evidence and could not
obtain it himself with any reasonable
diligence; (3) the State suppressed the
favorable evidence; and (4) had the evidence
been disclosed to the defense, a reasonable
probability exists that the outcome of the
trial would have been different.

and, thus, the state habeas court’s decision is the last state
court to rule on his claim and that decision is subject to review
under Section 2254 by this Court. See Ylst v. Nunnemaker, 501
U.S. 797, 803 (1991).

234a
Schofield, 621 S.E.2d at 731.48
In concluding that Whatley’s Giglio claim was
procedurally defaulted, the state habeas court
stated:
Although Sergeant Sanders obtained funds
from
the
Spalding
County
Sheriff’s
Department to secure Mr. Jackson’s release
from a non-payment probation revocation
hold following the completion of Petitioner’s
trial, this Court finds based on its review of
the evidence that his occurrence was not the
result of a deal for Mr. Jackson’s testimony
in this case. As Sergeant Sanders explained,
he did not even learn that Mr. Jackson was
incarcerated due to his failure to pay his
remaining parole fines until after the
conclusion of Petitioner’s trial.
Although the case number for Petitioner’s
case was included on the paperwork
documenting the disbursement, this Court
credits Sergeant Sanders’ testimony that this
occurrence was merely the result of his
A petitioner asserting a Giglio claim need only show that
there was “any reasonable likelihood” that false testimony
could have affected the judgment of the jury and resulted in a
different result in the guilt or sentencing phase. See Ventura v.
Attorney Gen., 419 F.3d 1269, 1278 (11th Cir. 2005). The Court
notes that the state habeas court applied the stricter “no
reasonable probability” Brady standard to Petitioner’s claim.
This error is harmless because the court found that there was
no deal and there was no false testimony sufficient to establish
prejudice to set aside the procedural default of this claim.
48

235a
supervisor’s instruction to include on the
paperwork the number of the last case that
Mr. Jackson
voluntarily
provided
information on, the instant case, along with
the date of the inception of that case.
Thus, as Petitioner failed to prove that
Sergeant Sanders’ arrangement for the
payment of Mr. Jackson’s fines to get him
released from jail was the result of a deal for
Mr. Jackson’s cooperation or trial testimony
in this case, this Court finds that Petitioner
failed to establish prejudice to overcome his
default of this Giglio claim. See Childress,
268 Ga. 386, 388, 489 S.E.2d 799 (1977) (no
Giglio violation for “failing to reveal the
terms of a non-existent deal”).
Thus, as Petitioner failed to show the
existence of a deal between Mr. Jackson and
the prosecution team and as this Court finds
that there is no reasonable probability that
the outcome of this case would have been
different without Mr. Jackson’s trial
testimony, this Giglio claim is defaulted.
This Court also finds that Petitioner failed to
establish prejudice to overcome the default of
this claim as this Court finds following its
review of all of the evidence presented that
Rarland Jackson’s trial testimony, which
was
consistent
with
his
voluntary
statements made at a time when Mr.
Jackson was not incarcerated on any
charges, was not the product of a deal.

236a
As former Sergeant Sanders testified in his
affidavit, “[n]either I nor any other law
enforcement officer made any threats or
promises to Rarland nor said anything to
lead him to believe that he might receive
some kind of benefit in exchange for his
cooperation in the Whatley case. As in the
past, Rarland’s cooperation [in this case] was
entirely voluntary.” Thus, this Court finds
that this claim is barred from litigation on
the merits in this proceeding.
(Resp’t’s Ex. 71 at 57-59 (alteration in original)
(footnote and internal record citations omitted)).
The state habeas court weighed the evidence
presented in the habeas proceedings, determined
that there was no agreement in exchange for
Jackson’s
testimony,
concluded
that
the
non-existence of a deal meant that Whatley was
unable to establish prejudice on his Giglio claim, and
applied the clearly established Federal law standard
established in Giglio to determine that Whatley
failed to satisfy his burden of showing that his
procedural default is excused.
b.

Review
of
adjudication

the

state

court

This Court stated in its March 29, 2011, Order
that if Whatley could show cause for setting aside
the procedural default of his Giglio claim, the Court
could consider the prejudice prong of his claim. (See
Order of Mar. 29, 2011, at 9).

237a
The Court permitted Whatley the opportunity to
present clear and convincing evidence of the
existence of an arrangement required to be disclosed
under Giglio that is sufficient to overcome the
presumption of correctness that attaches to the state
habeas court’s factual finding that there was no
agreement in exchange for Jackson’s testimony. The
Court finds Whatley did not present clear and
convincing evidence upon which to conclude that the
state habeas court was unreasonable in its
determination that there was no agreement, and
thus no cause or prejudice exists to set aside the
procedural default.
The Court otherwise agrees with the state
habeas court that Whatley’s post-trial evidence from
Jackson was not credible or reliable and was
insufficient to call into doubt his trial testimony or to
support a conclusion that there was an agreement
for his testimony. Jackson denied the existence of
any agreement and testified that his trial testimony
was truthful and voluntary. (Resp’t’s Ex. 39B at
142-209). The state habeas court’s conclusion that
Whatley did not establish the existence of an
agreement was not unreasonable and was
sufficiently supported by the State’s evidence, which
included affidavit and deposition testimony of retired
Sergeant Richard Sands, and testimony from
District Attorney Bill McBroom and Officer Sam
Parks of the Griffin Police Department. The Court
finds it significant that an employee of the Federal
Public Defender Program assisted Jackson in
preparing the affidavit that was submitted by
Jackson to the state habeas court, and that Jackson,

238a
during the state habeas court proceedings, denied
the truth of the contents of the affidavit, stating that
he signed the affidavit only because he was told that
“it was the same as what was said in court [at trial]”
and that he took the Federal Public Defender
employee at her word that it was. (See Resp’t’s Br. in
Opp’n to Pet. at 132 (quoting Resp’t’s Ex. 71 at 56
n.3); See Also Resp’t’s Ex. 39B at 142-209, 241).
The Court also finds that the state habeas court
correctly concluded, based on the record in the
habeas proceedings, that Whatley failed to show
prejudice. Even if Whatley had proved that an
agreement existed between the State and Jackson,
the Court would find that Whatley was not
prejudiced because Whatley did not show that
Jackson’s trial testimony was false, including
because Jackson testified at the state habeas
hearing that his testimony was true. See Hammond
v. Hall, 586 F.3d 1289, 1307 (11th Cir. 2009) (“The
testimony or statement elicited or made must have
been a false one.”); Smith v. Sec’y, Dep’t of Corr., 572
F.3d 1327, 1335 (11th Cir. 2009) (“Accurate
statements do not violate the Giglio rule.”); United
States v. Meros, 866 F.2d 1304, 1309 (11th Cir.
1989). Without demonstrating an agreement with
Jackson for his testimony or that Jackson’s trial
testimony was false, Whatley has not shown a
reasonable likelihood that the result of the
proceeding would have been different, he is not
entitled to set aside his procedural default, and he is
not entitled to any other relief on his Giglio claim.

239a
See Bagley, 473 U.S. at 676-78, 682; Owen, 453
S.E.2d at 730-31.49
The state habeas court correctly determined that
Whatley’s Giglio claim is procedurally barred and
that there is no prejudice from any asserted
suppressed information regarding a claimed
undisclosed agreement for Jackson’s testimony. The
Court thus respects and defers to the state court’s
determination that the claim is procedurally barred.
See Harris, 489 U.S. at 264 n.10; Osborne, 466 F.3d
at 1315; Bailey, 172 F.3d at 1302; White, 972 F.2d at
1227; Richardson, 883 F.2d at 898; Hittson, 2012 WL
5497808, at *8 n.10.
To the extent Whatley claims he is entitled to a
de novo review of his claim, the Court finds the state
habeas court correctly applied Georgia’s procedural
default principles, examined the merits of Whatley’s
claim to determine if prejudice existed from any
failure to disclose under the standards of Giglio, and
did not reach a decision that “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States” or “was based
on an unreasonable determination of the facts in
Even if Petitioner had (i) shown cause by demonstrating that
a deal existed, and (ii) shown that Jackson’s testimony was
false in light of that deal, the Court would also find that
Whatley was not prejudiced because because the weight of the
evidence at trial supporting Petitioner’s guilt in the absence of
Jackson’s testimony would not have been affected such that
there would be any reasonable likelihood that the result of the
proceeding would have been different.
49

240a
light of the evidence presented in the State court
proceeding.” See 28 U.S.C. § 2254(d)(1), (2); See Also
Wiggins, 539 U.S. at 520-21; Williams, 529 U.S. at
379, 385. The Court further finds that Whatley was
not prejudiced by law enforcement’s alleged failure
to disclose. Whatley is not entitled to relief on his
claim regarding a secret, undisclosed agreement for
Jackson’s testimony or that Giglio was violated.
6. Claim XII – Petitioner’s claim that the
prosecutor engaged in improper conduct
during his closing argument at the
penalty phase in violation of the Fifth,
Sixth,
Eighth,
and
Fourteenth
Amendments to the United States
Constitution
Whatley next claims that the prosecutor’s
comments during his penalty phase argument
violated his constitutional rights because the
prosecutor (i) improperly argued that Whatley
committed other crimes and his criminal history was
more extensive than the evidence showed; (ii)
improperly “testified” about conditions in prison; (iii)
engaged in other instances of misconduct throughout
his closing argument; and, (iv) argued, without
evidentiary support, that Whatley would kill again.
(Pet. for Writ of Habeas Corpus ¶¶ 202-213).
“Improper argument will only warrant relief if it
renders a petitioner’s trial or sentencing
‘fundamentally unfair.’” Drake v. Kemp, 762 F.2d
1449, 1458 (11th Cir. 1985); See Also United States v.
Hernandez, 145 F.3d 1433, 1438 (11th Cir. 1998)
(holding that prosecutorial misconduct warrants

241a
relief “only if… the remarks (1) were improper and
(2) prejudiced the defendant’s substantive rights”). A
sentencing is fundamentally unfair if “there is a
reasonable probability that, in the absence of the
improper arguments, the outcome would have been
different.” See Drake, 762 F.2d at 1458; See Also
United States v. Hill, 643 F.3d 807, 849 (11th Cir.
2011) (citing United States v. Hall, 47 F.3d 1091,
1098 (11th Cir. 1995)) (“For a prosecutor’s
prejudicial comments to affect a defendant’s
substantial rights, there must be a reasonable
probability that, but for the remarks, the outcome
would have been different.”). “A ‘reasonable
probability’ is a probability sufficient to undermine
confidence in the outcome.” See Drake, 762 F.2d at
1458 (quoting Strickland, 466 U.S. at 695). “Thus,
the defendant must show a reasonable probability
that, but for the prosecutor’s statements, the result
of the proceeding would have been different.” Davis
v. Zant, 36 F.3d 1538, 1545 (11th Cir. 1994).
a.

State court adjudication

Whatley raised his claim regarding the
prosecutor’s penalty-phase comment on direct
appeal, where the Supreme Court of Georgia found
there was no prosecutorial misconduct and that the
claim was procedurally defaulted. Whatley, 509
S.E.2d at 50. If the prosecutor made improper
comments in his argument, any alleged prejudicial
errors in the State’s closing argument in the penalty
phase did not present a reasonable probability of
affecting the outcome and the jury’s ultimate
determination that Whatley should be sentenced to

242a
death. See id. Whatley raised this argument again in
the state habeas court, which concluded:
This Court finds following its review of the
Georgia Supreme Court’s opinion that his
claim was addressed and decided adversely
to Petitioner on direct appeal. Whatley, 270
Ga. at 298-299, 301, and 302. Accordingly,
this Court finds that this claim is res
judicata and non-justiciable in this
proceeding. Gunter v. Hickman, 256 Ga. 315,
348 S.E.2d 644 (1986).
To the extent that Petitioner attempted to
raise new arguments or alleged facts in
support of this claim in this habeas
proceeding, this Court finds that these
allegations are procedurally defaulted as
Petitioner failed to show cause and prejudice
or a miscarriage of justice to overcome his
default of these new allegations. Black v.
Hardin, 255 Ga. 239, 336 S.E.2d 754 (1985);
Valenzuela v. Newsome, 253 Ga. 793, 325
S.E.2d 370 (1985). Thus, this claim is denied
as barred.
(Resp’t’s Ex. 71 at 16).
b. Review of the state court adjudication
Having found this claim was procedurally
defaulted, cause and prejudice is required to be

243a
found to overcome the procedural default.50 The
Court reviews Whatley’s claim to determine if cause
and prejudice exists. See Mincey, 206 F.3d at
1135-36.
The Court finds that a reasonable probability
does not exist that the sentencing verdict would have
been different had the allegedly improper arguments
not been made during the sentencing hearing. The
State’s closing argument comments about Whatley’s
criminal history, his capacity for future violence, his
conduct during the trial, prison conditions, and
analogies to other well-known criminals either were
proper inferences from the evidence admitted at trial
or failed to give rise to a reasonable probability that
they altered the outcome of the sentencing
proceedings. See Romine v. Head, 253 F.3d 1349,
1366, 1368 (11th Cir. 2001); See Also Whatley, 509
S.E.2d at 52-53.
The Court concludes that the state habeas court
and Supreme Court of Georgia correctly determined
As with Petitioner’s Brady and Giglio claims, to the extent
Petitioner asserts that Respondent waived the defense of a
procedural default regarding his prosecutorial misconduct
claims by failing to raise them in his Answer, the Court
disagrees. Respondent stated in his Answer that “Respondent
expressly adopts and relies upon any findings made by the
state courts as to the procedural default of any and all claims
not timely raised at trial an on appeal as required by O.C.G.A.
§ 9-14-48(d).” (Resp’t’s Answer at 11). The Supreme Court of
Georgia on direct appeal and state habeas court found this
claim to have been procedurally defaulted. See Whatley, 509
S.E.2d at 50; (Resp’t’s Ex. 71 at 16); See Also Coleman, 501 U.S.
at 735 n.1.
50

244a
that Whatley’s prosecutorial misconduct claims were
procedurally barred and that there was no
“reasonable probability that, in the absence of the
improper arguments, the outcome would have been
different.” See Drake, 762 F.2d at 1458. Because the
state habeas court and the Supreme Court of
Georgia correctly applied Georgia’s procedural
default rules and addressed the merits of any
prejudice from the alleged prosecutorial misconduct,
the Court respects and defers to the state court
determination that the claim is procedurally barred.
See Harris, 489 U.S. at 264 n.10; Osborne, 466 F.3d
at 1315; Bailey, 172 F.3d at 1302; White, 972 F.2d at
1227; Richardson, 883 F.2d at 898; Hittson, 2012 WL
5497808, at *8 n.10.
To the extent Whatley is entitled to a de novo
review of his claim, the Court finds that the state
habeas court correctly applied Georgia’s procedural
default principles, examined the merits of Whatley’s
claim to determine if prejudice existed from any
prosecutorial misconduct, and did not reach a
decision that “was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States” or “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” See
28 U.S.C. § 2254(d)(1), (2); See Also Wiggins, 539
U.S. at 520-21; Williams, 529 U.S. at 379, 385. The
Court further finds that Whatley was not prejudiced
by any alleged prosecutorial misconduct. Whatley is
not entitled to relief on his prosecutorial misconduct
claim.

245a
7. Claim XVIII - Petitioner’s claim that
when the errors are considered as a
whole, Whatley is entitled to relief under
the Fifth, Sixth, Eighth and Fourteenth
Amendments to the United States
Constitution
Whatley claims that each of his individual
claims, when “taken as a whole, [leave] no doubt
that [his] conviction and death sentence are
unreliable and violate the Fifth, Sixth, Eighth, and
Fourteenth Amendment[s].” (Pet. for Writ of Habeas
Corpus ¶ 256).
Neither the Supreme Court of the United States
nor the State of Georgia recognize a “cumulative
error” claim in a habeas proceeding. If a claim of
cumulative error was cognizable in a habeas
proceeding under Section 2254, it is required to be
denied where the Court finds merit only in a single
claim for relief and there are thus no errors to
accumulate. See Hardwick v. Benton, 318 F. App’x
844, 847 n.5 (11th Cir. 2009); United States v.
Waldon, 363 F.3d 1103, 1110 (11th Cir. 2004); See
Also Sneed v. Fla. Dep’t of Corrs., 496 F. App’x 20, 28
(11th Cir. 2012) (“[T]here are no errors to
accumulate, and the state court’s rejection of [a
cumulative error] claim [is] not contrary to or an
unreasonable application of Supreme Court law.”).
The Court finds there is no cumulative effect of
errors that deprived Whatley of a fair trial or
sentencing proceeding. See Hardwick, 318 F. App’x
at 847 n.5; Conklin v. Schofield, 366 F.3d 1191, 1210
(11th Cir. 2004). Even if the Court were to find

246a
additional errors beyond the inadequacy of Mostiler’s
investigation into Whatley’s background and mental
and psychological health, the Court would still find,
in light of its review of the record, that there was no
fundamental unfairness in Whatley’s state court
proceedings that would make consideration of his
cumulative error claim appropriate. See Cargill v.
Turpin, 120 F.3d 1366, 1386-87 (11th Cir. 1997).51
C. Certificate of Appealability
A district court “must issue or deny a Certificate
of Appealability when it enters a final order adverse
to the appellant.” See Rule 11 of the Rules Governing
Section 2254 Proceedings. This Court finds that a
Certificate of Appealability should not issue with
regards to the claims on which Petitioner is not
afforded relief because Whatley has not made a
substantial showing of the denial of a constitutional
right or that reasonable jurists could find “debatable
or wrong” the conclusion that Whatley is not entitled
Petitioner raised, for the first time in his merits brief, a claim
challenging Georgia’s use of lethal injection as an execution
method. (Pet’r’s Br. in Supp. of Pet. at 174-77). Petitioner’s
challenge to Georgia’s method of execution is not cognizable in
a habeas proceeding and is appropriately brought in a Section
1983 action. See Hill v. McDonough, 547 U.S. 573, 579-83
(2006) (challenges to methods of execution that do not imply
the invalidity of confinement or sentence are properly brought
under Section 1983); Tompkins v. Sec’y, Dep’t of Corrs., 557
F.3d 1257, 1261 (11th Cir. 2009) (“A [Section] 1983 lawsuit, not
a habeas proceeding, is the proper way to challenge lethal
injection procedures.”). To the extent Petitioner seeks to
challenge Georgia’s lethal injection execution procedures as a
habeas claim, that claim is denied. See Hill, 547 U.S. at 579-83;
Tompkins, 557 F.3d at 1261.
51

247a
to relief on his variety of claims for which the Court
has not granted relief. See Miller-El v. Cockrell, 537
U.S. 322, 336 (2003). A certificate of appealability is
denied.
III.

CONCLUSION
For the foregoing reasons,

IT IS HEREBY ORDERED that Fredrick R.
Whatley’s Petition for Writ of Habeas Corpus by a
Person in State Custody [1] is GRANTED IN PART
and DENIED IN PART. The Petition is GRANTED
with respect to Petitioner’s claim of ineffective
assistance of counsel based on an inadequate
investigation (Claim IX) and DENIED on Claims I,
III, V, VII, VIII, X, XI, XII, and XIII. Petitioner’s
sentence of death in Case No. 96R-374 in the
Superior Court of Spalding County, Georgia, is
VACATED and the State of Georgia shall, within a
reasonable amount of time, decide whether to hold a
new sentencing hearing or impose a lesser sentence
consistent with the law.
IT IS FURTHER ORDERED that Petitioner is
DENIED a certificate of appealability.
The effect of this Order will be automatically
stayed pending resolution of any appeal to the
Eleventh Circuit Court of Appeals.

248a
SO ORDERED this 9th day of April, 2013.
/s/ William S. Duffey
WILLIAM S. DUFFEY, JR.
UNITED STATES DISTRICT JUDGE

249a
APPENDIX D
In the Supreme Court of Georgia
Decided: October 6, 2008
S08A1076. WHATLEY v. TERRY.
SEARS, Chief Justice.
A jury found Frederick R. Whatley guilty of the
murder of Ed Allen and related offenses and
sentenced him to death. This Court affirmed
Whatley’s convictions and sentences in 1998.1
Whatley filed a petition for writ of habeas corpus on
August 6, 1999, which he amended on April 30,
2001. An evidentiary hearing was held on July 30,
2002, and, after a new judge was assigned to the
case, closing arguments were heard on December 8,
2005. The habeas court denied Whatley’s petition in
an order filed on December 4, 2006, and this Court
granted Whatley’s application for certificate of
probable cause to appeal. For the reasons set forth
below, we affirm the habeas court’s denial of
Whatley’s habeas petition.
I. Factual Background
The evidence at trial supports the following
description of the murder. At 8:45 p.m. on January
26, 1995, Whatley entered Roy’s Bait Shop in Griffin
armed with a .32 caliber revolver he had stolen from
a relative. The only persons inside the store at the
1

Whatley v. State, 270 Ga. 296 (509 SE2d 45) (1998).

250a
time were the owner, Ed Allen, and an employee
named Tommy Bunn. Whatley forced Bunn to lie on
the floor behind the service counter and held the .32
caliber revolver to Bunn’s head, and he threatened to
shoot Bunn if Allen did not comply with his demand
for the money from the cash register. Allen placed
the money in a paper sack, and Whatley took it.
Whatley backed around to the front of the counter
and fired two shots, one shot striking Allen in the
chest from a range of 15 to 18 inches and a second
shot striking the counter that Bunn was lying
behind from a range of 8 inches. Allen pursued
Whatley and fired his .44 caliber single-action pistol
at him. Whatley left the store and encountered Ray
Coursey, who had just arrived at the store in an
automobile. Whatley held the revolver to Coursey
and demanded a ride. Allen came out of the store
and continued firing his pistol a t Whatley . Whatley
exited Coursey’s automobile on the side opposite
from Allen’s position, and he fled on foot. At some
point, Whatley was shot in the right knee. After
Whatley ran away, Allen returned to the store, told
Bunn to call 911, lay down on the floor, and died of
internal bleeding.
II. Alleged Suppression of Evidence by the State
A. Background of the Claim
Whatley forced Bunn at gunpoint to lie on the
floor next to the cash register during the robbery,
and Bunn remained there until all of the shooting
had stopped. The theory presented to the jury by the
State at trial was that, as Whatley began backing
away from the service counter, he fired twice, once at

251a
Allen at close range and once downward toward
Bunn. Bunn’s testimony under direct examination in
the guilt/innocence phase was consistent with this
theory, as he maintained that he had heard two
shots fired before Allen stepped over him to pursue
Whatley. Trial counsel then cross-examined Bunn by
specifically referring to a statement Bunn made to
police on the night of the murder, January 26, 1995.
The written investigative summary counsel was
referring to in his cross-examination reports that
Bunn stated as follows on January 26:
[Whatley] moved off of me and backed
around the counter, when he went around
the counter and Ed come around over top of
me going after him. I don’t know where he
was. I was still laying on the floor when I
heard the shot.
Counsel did not read this statement aloud at trial
but, instead, simply had the witness himself
acknowledge that he did not tell the police in his
January 26 interview that shots were fired before
Allen stepped over him. Counsel specifically stated
that it was the January 26 interview that he was
relying on in forming his questions to Bunn. Bunn
explained his account in his January 26 interview
regarding the timing of the shots by stating that he
was “upset” during that interview. Counsel, by
pointing out to Bunn that Allen had not bled on him,
was also able to get Bunn to admit on crossexamination that he did not know when Allen was
shot. Whatley testified in the sentencing phase to a
version of events different from Bunn’s: Whatley

252a
claimed that he never intended to shoot anyone and
that he fired at Allen only after Allen pulled out his
gun.
At the habeas hearing, Whatley presented an
audio recording2 of an interview of Bunn that was
conducted the day after the murder, January 27.
Whatley obtained the recording through an Open
Records Act request to the Griffin Police
Department, which request was legally available
only after Whatley’s criminal case was concluded.3
Like the January 26 statement used by counsel at
trial, part of the January 27 interview at least
arguably suggests that Allen stepped over Bunn to
pursue Whatley before any shots were fired. Bunn
stated as follows in the January 27 interview:
[Whatley] done got the money and all, you
know. I figured he’s going on out, and that’s
when I see Ed go over me, and he went out,
and that’s when the shooting and all starts.
However, earlier in this January 27 interview, Bunn
gave a different chronology, stating as follows:
Then [Whatley ] got off me, and backed
around the comer, you know. I guess he was
An unofficial transcript of the recording is also in the record,
but our quotations from the recording are drawn from our
review of the recording itself. We note, however, that there are
no differences between the unofficial transcripts and the
original evidence that affect our decision.
2

See OCGA § 50-18-72 (a) (4); Parker v. Lee, 259 Ga. 195 , 197198 (4) (378 SE2d 677) (1989).
3

253a
going on back toward the door. I heard
something start shooting. Then I seen Ed
come across me, on around the comer, too.
Next thing I know I just kept hearing, ya
know, gun shots.
Thus, at the most, the January 27 interview contains
two contradictory chronologies, one placing the
shooting before Allen stepped over Bunn to pursue
Whatley and one placing the shooting after.
Furthermore, in between these two arguably
contradictory chronologies in the January 27
interview, Bunn expressed uncertainty when asked
specifically whether the shots began before or after
Allen stepped over him and went around the corner
of the counter. Bunn was then further asked, “Who
started shooting?” He responded as follows: “I guess
[Whatley]. But, you know, I don’t know.” He then
provided the following explanation for his
uncertainty: “[I]t happened so quick, and I’m all
shook up, too.”
Whatley argues that his cross-examination of
Bunn would have been enhanced if counsel had been
provided the January 27 interview, particularly
because counsel could have emphasized that,
although Bunn might have been confused because he
was “upset” on January 26, he would have calmed
down by January 27 and would have given a moreaccurate account of the crime. Whatley argues that
the portion of the January 27 interview in which
Bunn arguably indicated that Allen began to pursue
Whatley before any shots were fired could have been
used to show that Whatley did not enter the store

254a
with the intent to commit murder, which the jury
might have found mitigating in the sentencing
phase.
B. Procedural Default
The habeas court correctly found that this claim,
at least as an initial matter, is barred by procedural
default because it was not raised in the trial court or
on direct appeal.4 However, the bar to procedurallydefaulted claims can be overcome by satisfying the
cause and prejudice test.5 Because the habeas court
applied the cause and prejudice test in a manner we
found questionable, we directed the parties to
address that issue on appeal.
1. Alleged Cause for Failure to Raise the
Claim Previously
The cause portion of the cause and prejudice test
is satisfied where evidence was “concealed from [the
defendant] by the State” at the time of trial and
direct appeal.6 Thus, the cause prong of the cause
Head v. Ferrell, 274 Ga. 399. 401-402 (III) (554 SE2d 155)
(2001); OCGA § 9-14-48 (d). See also Waldrip v. Head, 279 Ga.
826, 832-833 (II) (H) (620 SE2d 829) (2005) (applying
procedural default and the cause and prejudice test to an
evidence suppression claim).
4

Ferrell, 274 Ga. at 401-402 (III) (describing the cause and
prejudice test and noting that relief is also available despite
procedural default under circumstances. not alleged to be
present in Whatley’s case, amounting to a miscarriage of
justice).
5

Schofield v. Palmer, 279 Ga. 848, 851 (2) (621 SE2d 726)
(2005).
6

255a
and prejudice test would be satisfied in Whatley’s
case if the facts showed that trial counsel was not
given notice of and access to the contents of the
January 27 statement. Without any detailed
analysis, the habeas court found that Whatley had
failed to show cause for his failure to raise this claim
in the trial court and on direct appeal, concluding
that the claim “was available for presentation” at
that time.
We find that the habeas court’s finding of an
absence of cause to excuse the procedural default
was erroneous. In its analysis of the prejudice prong
of the cause and prejudice test, which is discussed
below, the habeas court found that “a review of trial
counsel’s cross-examination questions and Mr.
Bunn’s responses to these questions showed trial
counsel’s awareness of’ the January 27 interview. A
review of the trial transcript does not support this
finding of fact. Trial counsel’s cross-examination
questions about Tommy Bunn’s having failed to
inform police that shots were fired before Allen
began to pursue Whatley could have been derived
from the January 26 interview, the January 27
interview, or both. However, trial counsel specifically
stated in his cross-examination that he was relying
on the January 26 interview. Although not discussed
in the habeas court’s order, the district attorney
conceded in his habeas testimony that he had not
been provided the January 27 interview by the police
department and, therefore, that trial counsel would
not have had access to it. Trial counsel, having
passed away, was not available to give habeas
testimony on the subject; however, the January 27

256a
interview was not contained in trial counsel’s file,
and the defense investigator testified that he had not
been aware that the interview existed. In light of the
trial transcript and the uncontradicted habeas
testimony, including an admission by the district
attorney, we find that the habeas court’s finding of
fact that the January 27 interview was available to
counsel at trial and on direct appeal was clearly
erroneous.
The State’s duty to disclose exculpatory evidence
applies to every part of the State that is involved in
the prosecution, which, of course, would include the
police department in Whatley’s case.7 Given the fact
that the State bore this duty of disclosure and given
the absence of any reason to believe trial counsel
should have been aware of the likelihood of a second,
arguably contradictory interview of Bunn, the failure
of trial counsel to discover the undisclosed interview
should not be ascribed to a lack of reasonable
diligence.8
Accordingly, we conclude that Whatley has
shown cause for his failure to raise his claim
regarding the undisclosed January 27 interview at
trial and on direct appeal.
2. Alleged Prejudice from Inability to Raise
the Claim Previously
7

Id. at 852 (2).

See Turpin v. Todd, 268 Ga. 820, 824-827 (2) (a) (493 SE2d
900) (1997) (finding cause to excuse a procedural default where
the State breached a “constitutional duty” to disclose the
information forming the basis of the claim).
8

257a
Although Whatley has shown cause to excuse the
procedural default to this evidence suppression
claim, he must also satisfy the prejudice prong of the
cause and prejudice test before his claim can be
considered on its merits. However, because the
prejudice necessary to satisfy the cause and
prejudice test is a prejudice of constitutional
proportions and because an evidence suppression
claim is a constitutional claim, the prejudice analysis
and the analysis of the merits of the evidence
suppression claim “are co-extensive.”9
As was noted above, the habeas court found that
trial counsel’s cross-examination of Tommy Bunn
“showed trial counsel’s awareness of the statements
Mr. Bunn made during this interview that was
allegedly suppressed.” However, we have concluded
that this finding was clearly erroneous. Thus, the
habeas court’s resolution of the prejudice question
rests on an erroneous finding of fact.
The habeas court’s error does not necessarily
mean, however, that Whatley can demonstrate
prejudice. Even though the facts show without
contradiction that Whatley was not provided the
January 27 interview before trial and direct appeal,
we must consider whether his not having the
interview created prejudice of constitutional
proportions. To show that, Whatley must
demonstrate that he can prevail on his underlying
evidence suppression claim, which requires a
showing of each of the following:
9

Waldrip, 279 Ga. at 832 (II) (H).

258a
(1) the State possessed evidence favorable to
the defendant; (2) the defendant did not
possess the favorable evidence and could not
obtain it himself with any reasonable
diligence; (3) the State suppressed the
favorable evidence; and (4) had the evidence
been disclosed to the defense, a reasonable
probability exists that the outcome of the
trial would have been different.10
We conclude that Whatley has failed to satisfy
the fourth element, a showing that having the
January 27 interview at trial would have created a
reasonable probability of a different outcome. As we
noted above, the January 27 interview arguably
contains contradictory statements by Tommy Bunn
regarding whether the first shots were fired before
or after Ed Allen began to pursue Whatley, as well
as statements expressing uncertainty regarding the
timing of those shots. However, Bunn himself
ultimately testified under cross-examination at trial
that he could not recall whether the shots came first
or whether Allen’s stepping over him to pursue
Whatley came first. Thus, the jury, either with or
without being presented with the full January 27
interview, would have concluded that Bunn could
not be relied upon to establish a detailed chronology.
Furthermore, the district attorney persuasively
argued that Whatley must have fired at Allen before
Allen was armed, because Allen was shot in the
chest at a range of 15 to 18 inches and because it
Palmer, 279 Ga. at 852 (2) (applying Brady v. Maryland, 373
U. S. 83 (1963)).
10

259a
otherwise would have been unlikely for Whatley to
have shot Allen in the chest from such a close
distance without being shot himself by Allen
somewhere other than just in the leg. Furthermore,
Whatley’s account of events cannot be reasonably
reconciled with the testimony at trial indicating that
he fired a shot toward either Allen or Bunn from a
distance of merely eight inches from the service
counter. We conclude as a matter of law that there
would not have been a reasonable probability of a
different outcome at trial if Whatley had been
provided the January 27 interview and, therefore,
that he can neither show merit to his underlying
evidence suppression claim nor satisfy the prejudice
prong of the cause and prejudice test, issues that are
“co-extensive.”11
III. Alleged Meaninglessness of the Adversarial
Process
Whatley argues that his defense counsel, Johnny
Mostiler, had such a heavy caseload as the contract
defender for Spalding County that this Court should
presume that Whatley’s defense suffered prejudice.
In general, an ineffective assistance claim can
succeed only where the prisoner can show actual
prejudice to his or her defense that in reasonable
probability changed the outcome of the trial.12
However, Whatley correctly notes that an exception
11

Waldrip, 279 Ga. at 832 (II) (H).

Strickland v. Washington, 466 U. S. 668 (104 SC 2052, 80
LE2d 674) (1984); Smith v. Francis, 253 Ga. 782, 783-784 (1)
(325 SE2d 362) (1985).
12

260a
to this general rule applies and prejudice will be
presumed where,
although counsel is available to assist the
accused during trial, the likelihood that any
lawyer, even a fully competent one, could
provide effective assistance is so small that a
presumption of prejudice is appropriate
without inquiry into the actual conduct of
the trial.13
An example of where such extreme circumstances
existed is a case where the entire membership of the
state bar had been appointed to defend raciallyvilified defendants in a highly-emotional public
setting, where it “‘was a matter of speculation only’”
whether anyone would actually represent the
defendants at trial until the last moment, where
“[n]o attempt was made to investigate … [and n]o
opportunity to do so was given,” and where the trial
began “within a few moments after counsel for the
first time charged with any degree of responsibility
began to represent [the defendants].”14
Whatley asserts that, during the two-year period
when his case was pending, Mostiler represented
70% of 1,558 felony defendants with the remainder
being represented by his associate, opened 70 civil
cases, represented one murder defendant outside the
United States v. Cronic, 466 U. S. 648, 659-660 (III) (104 SC
2039, 80 LE2d 657) (1984).
13

Id. at 660 (III) (quoting Powell v. Alabama, 287 U.S. 45, 5658 (53 SC 55, 77 LE 158 ) ( 1932)).
14

261a
county, and represented 4 death penalty defendants.
A review of the record reveals that Whatley’s
assertion may be somewhat exaggerated; however,
more importantly, we find that his assertion
regarding Mostiler’s general caseload is irrelevant.
As was noted by the habeas court, it is the amount of
time actually spent by Mostiler on Whatley’s case
that matters, not the number of other cases he might
have had that potentially could have taken his time.
The habeas court found that Mostiler was a highlyexperienced attorney, was experienced in death
penalty cases, was appointed two years before
Whatley’s trial, and “spent over 157 hours on
[Whatley’s] case in addition to the 96 hours that his
investigator logged.” The habeas court further noted
with approval testimony by the defense investigator
stating that it was likely that Mostiler’s billing
records under-represented the time he actually spent
on the case.
The Eleventh Circuit recently addressed a
similar claim regarding Mostiler’s heavy caseload
and its bearing on another death penalty case in
which he was defense counsel. Although the case
was decided on procedural grounds, the Eleventh
Circuit stated the following in dictum:
As the district court found, Mostiler was an
experienced and effective advocate for
Osborne. Osborne presented no evidence,
other than vague statistics, to support his
allegation that trial counsel’s caseload
impeded his representation. As such,
Osborne cannot show that Mostiler’s

262a
representation fell below an objective
standard of reasonableness such that
prejudice is presumed.15
We agree with the reasoning of the Eleventh Circuit
that vague statistics that fail to shed light on the
amount of work actually done in the particular case
at issue are insufficient to show the kind of complete
breakdown in representation necessary for prejudice
to the defense to be presumed.16
IV. Alleged Conflict of Interest
Based on the same allegations regarding his trial
counsel’s heavy caseload set forth above, Whatley
argues that his trial counsel labored under a conflict
of interest in violation of the Sixth Amendment.
Specifically, Whatley argues that trial counsel was
forced to choose between representing Whatley and
representing counsel’s other clients.
The Supreme Court has cast some doubt on
Whatley’s assertion that the alleged circumstances
in his case should be considered under specialized
Sixth Amendment conflict of interest case law
requiring presumptions of prejudice rather than
under ordinary Sixth Amendment ineffective
assistance of counsel case law, because Whatley’s
case is not a case involving the joint representation
of co-defendants and because it appears not to be a
15

Osborne v. Terry, 466 F3d 1298, 1315 n.3 (11th Cir. 2006).

See Cronic, 466 U. S. at 659-660 (III). See also Williams v.
Anderson, 174 FSupp. 2d 843, 874 (V) (D) (N.D. Ind. 2001);
Williams v. State, 706 NE2d 149, 161 (II) (Ind. 1999).
16

263a
case involving other factors that make prejudice both
highly probable and exceptionally difficult to prove.17
However, the discussion below shows that, even
assuming that Whatley’s allegation of a potential
conflict of interest should be subjected to analysis
under specialized Sixth Amendment conflict of
interest case law, prejudice should not be presumed
in his case, because he has not shown that an actual
conflict of interest adversely affected his trial
counsel’s performance.
The Supreme Court has emphasized that a trial
court should pay special attention to counsel when
he or she attempts to satisfy the professional duty to
notify the trial court that his or her representation
might be compromised by a conflict of interest, and
the Supreme Court has stated that it will apply “an
automatic reversal rule” where counsel has
announced the existence of a conflict of interest
arising out of the joint representation of codefendants “unless the trial court has determined
that there is no conflict.”18 However, that particular
automatic reversal rule clearly does not apply in
Whatley’s case, because there was no joint
representation of co-defendants and no objection by
counsel.
The Supreme Court has further held that, in
general, other potential conflicts of interest may
Mickens v. Taylor, 535 U. S. 162, 174-175 ( III) (122 SC 1237,
152 LE2d 291) (2002).
17

Id. at 168 (II) (citing Holloway v. Arkansas, 435 U. S. 475 (98
SC 1173, 55 LE2d 426) (1978)).
18

264a
warrant a presumption of prejudice only if the
defendant proves the existence of a conflict that
“‘actually affected the adequacy of [counsel’s]
representation.”19 A trial court certainly bears a duty
to inquire into a potential conflict of interest
whenever “the trial court is aware of” circumstances
creating more than “a vague, unspecified possibility
of conflict.”20 However, the Supreme Court has held
that a trial court’s failure to inquire into the
circumstances of a “potential conflict” does not
relieve a prisoner of his or her duty to show on
appeal that, in fact, a conflict existed that “adversely
affected his [or her] counsel’s performance21.”
As the discussion above highlights, Whatley has
shown nothing more than “vague statistics to
support his allegation that trial counsel’s caseload
impeded his representation.”22 Given the time
counsel actually dedicated to Whatley’s case and the
quality of representation that the record shows that
counsel provided, Whatley’s vague statistics are not
sufficient to show the existence of an actual conflict
of interest that adversely affected counsel’s
performance. Accordingly, Whatley is not entitled to
any presumption that his defense suffered prejudice.

Id. at 168 (II) (quoting Cuyler v. Sullivan, 446 U. S. 335, 348349 ( 100 SC 1708 , 64 LE2d 333) ( 1980)).
19

20

Id. at 168 (II).

21

Id. at 172-173 (II).

22

Osborne, 466 F3d at 1315 n.3.

265a
V. Alleged Ineffective Assistance of Counsel
In addition to the specialized Sixth Amendment
claims discussed above, Whatley also has raised an
ordinary ineffective assistance of counsel claim. To
prevail on this claim, Whatley must show that
counsel’s performance fell below constitutional
standards and that prejudice of constitutional
proportions resulted.23 To demonstrate sufficient
prejudice, Whatley must show that
there is a reasonable probability (i.e., a
probability
sufficient
to
undermine
confidence in the outcome) that, but for
counsel’s unprofessional errors, the result of
the proceeding would have been different
[cit.].24
On appeal, we accept the habeas court’s findings of
fact unless they are clearly erroneous; however, we
apply those facts to the law de novo in determining
the reasonableness of counsel’s conduct and the
prejudice resulting from any deficiencies in counsel’s
conduct.25 We conclude as a matter of law that, even
if counsel performed deficiently in the ways we
assume in the discussion below, the absence of those
professional deficiencies would not in reasonable
probability have resulted in a different outcome in
Strickland, 466 U. S. at 687 (III); Smith, 253 Ga. at 783-784
(1).
23

24

Smith, 253 Ga. at 783 (1).

Strickland, 466 U. S. at 698; Lajara v. State, 263 Ga. 438,
440 (3) (435 SE2d 600) (1993).
25

266a
either phase of Whatley’s trial, and, accordingly, we
affirm the habeas court’s denial of Whatley’s
ineffective assistance claim26.
A. General Matters Regarding the Evidence
As a preliminary matter, we note that much of
Whatley’s arguments rely upon the description and
interpretation of his background in the affidavit
testimony of a psychologist and a psychiatrist.
Although an expert witness may rely on the
statements of others in forming his or her expert
opinions, those opinions should be given weight only
to the extent that the statements upon which they
rely are themselves found to have been proven
reliable.27 An expert witness must not be permitted
to serve merely as a conduit for hearsay. Therefore,
in considering whether a jury in reasonable
probability would have been swayed by additional
testimony not presented by counsel, we do not
assume the correctness of the facts alleged in the
experts’ affidavits but, instead, we consider the
experts’ testimony in light of the weaker28 affidavit
See Schofield v. Holsey, 281 Ga. 809, 812 n.1 (642 SE2d 56)
(2007).
26

27

Roebuck v. State, 277 Ga. 200, 202 (1) (586 SE2d 651) (2003).

In this vein, we note that one affiant, Rarlan Jackson,
testified that one of his affidavits contained false testimony
obtained by an investigator working for Whatley who
misrepresented the affidavit’s contents when having Jackson
sign it. The habeas court found Jackson’s in-court denial of the
truthfulness of his affidavit to be credible. Another notarized
document, a records release form purportedly signed by Rarlan
Jackson, was excluded from evidence by the habeas court
because Jackson denied in his in-court testimony that the
28

267a
testimony upon which that testimony, in part,
relied.29 Accordingly, we give significant weight to
the habeas court’s finding that Whatley’s new
experts’ affidavits were “of questionable credibility
and value.”
Also, as a preliminary matter, we note that
Whatley consistently exaggerates the record by
stating that “trial counsel” did not do certain things
but neglecting to note that the defense investigator
did those things. For example, the defense
investigator testified that he met 16 times with
Whatley and worked with Whatley to obtain a list of
potential witnesses, including witnesses in the
District of Columbia. It is entirely reasonable for
trial counsel to have delegated an investigation into
potential witness testimony to his investigator and
to follow up with his own interviews of witnesses
when it appeared prudent to do so, which the record
shows counsel did. We also note that, because
Whatley’s trial counsel had passed away before
Whatley’s habeas proceedings, much of what counsel
signature on it was truly his. The investigator involved denied
any wrongdoing in either matter. As in another case with
similar circumstances, we find these matters “troubling,” and
we urge the lower courts in such circumstances to make a full
inquiry, make any appropriate findings of facts, and take
appropriate action in light of those findings of fact. Holsey, 281
Ga. at 814 n.2.
Although the habeas court’s findings of fact are sufficient for
us to render judgment in Whatley’s case, we take this occasion
to urge the habeas courts to make detailed findings of fact and
credibility and rulings on admissibility where affidavits are
submitted as evidence and where such affidavits are relied
upon by expert witnesses in forming their opinions.
29

268a
did must be reconstructed through his files and
through the testimony of others involved in the case,
and we note that trial counsel’s passing does not
relieve Whatley of his burden to show counsel’s
ineffectiveness.30
B. Evidence of Whatley’s Background
Whatley argues that trial counsel rendered
ineffective assistance by failing to contact certain
witnesses and by failing to use the testimony of
other witnesses, including, in particular, witnesses
from the District of Columbia. Whatley argues that
counsel failed to make use of testimony from his
mother; however, the defense investigator testified
that he made repeated attempts to contact her but
that she “was not that cooperative” and that his
“first interview with [her] went to hell in a
handbasket.” Whatley contends that trial counsel
failed to contact the defense attorney who had
represented him in the District of Columbia;
however, the defense investigator testified that he
contacted the attorney and then “put him on the
phone with” trial counsel when the investigator grew
nervous answering the attorney’s questions about
Whatley’s murder case. Whatley argues that trial
counsel failed to obtain criminal records in the
District of Columbia, but transcripts of Whatley’s
criminal proceedings were served on defense counsel
and placed in the trial record by the prosecution, so
trial counsel certainly were aware of them. The
Schofield v. Meders, 280 Ga. 865, 867 n.2 (632 SE2d 369)
(2006).
30

269a
psychological records associated with those criminal
proceedings are discussed below. Whatley argues
that trial counsel rendered ineffective assistance by
failing to contact his step-siblings; however, these
minors were living with Whatley’s uncooperative
mother. He argues that trial counsel should have
contacted one of his aunts and two of his uncles;
however, a review of their affidavit testimony
reveals little mitigating evidence that was unknown
to trial counsel and that would have been
admissible. We note that these affidavits in large
part concern things that affected Whatley’s family
members, such as his mother, aunts, and uncles,
rather than things that would have directly affected
Whatley.
Whatley argues that trial counsel rendered
ineffective assistance in failing to develop evidence
regarding Cleveland and Marie Thomas, Whatley’s
great uncle and great aunt, who raised him but who
had passed away by the time of Whatley’s trial.
First, the evidence shows that the investigation into
Whatley’s life with the Thomases was not deficient,
because the defense investigator testified that he
met 16 times with Whatley and contacted the
Thomases’ son, who testified at trial. Whatley told
trial counsel and testified at trial that he had an
“ideal” childhood living with the Thomases. Vague
allegations now that Cleveland Thomas drank too
much, abused Marie Thomas, shared a bed with
Whatley, and touched him inappropriately fail to
show that the defense team was deficient in its
attempts to find mitigating evidence, because the
defense investigator testified that Whatley never

270a
revealed these alleged facts. The allegation that
Cleveland Thomas raped Whatley’s mother might
have been discoverable pre-trial, because there are
references to it in her mental health records;
however, this allegation, and the alleged fact that
she informed Whatley of the rape when he was a
boy, would not have been significantly mitigating,
particularly in light of the fact that use of the
allegations may have offended the jurors if they
perceived counsel as attacking the one couple who,
while they were still living, had taken care of
Whatley.
Whatley argues that trial counsel rendered
ineffective assistance by failing to obtain evidence
that Whatley, along with other inmates, had been
involved in a successful lawsuit against guards at
the prison in the District of Columbia where he was
previously incarcerated. He argues that evidence
that he suffered brutal treatment at the prison could
have been used at trial to explain why he never
returned to a halfway house in the District of
Columbia when he was out past curfew one night.
This argument lacks merit, because the jury would
not have been significantly swayed by an argument
that Whatley’s fear of returning to prison justified
his escape from the halfway house. Furthermore,
Whatley has not shown that he informed his trial
counsel of the alleged brutality, and Whatley did not
mention being afraid of returning to prison when he
testified in the sentencing phase about his escape
from the halfway house.

271a
Whatley argues that trial counsel made deficient
use of the testimony available from Eugene Watson,
a caseworker in the District of Columbia who
designed a rehabilitation plan for Whatley as part of
Whatley’s criminal proceedings there. Based on the
testimony of the defense investigator and billing
records, it is clear that trial counsel had repeated
contacts with Watson and considered Watson’s
testimony to be the centerpiece of the sentencing
phase strategy. The record shows that, not only did
counsel communicate with Watson by telephone, but
counsel also met with Watson in person several
times once he arrived in Georgia and that counsel
even arranged to have Watson with him and
Whatley in a room near the courtroom during breaks
at trial. Watson’s habeas testimony downplaying the
level of contact he had with trial counsel does not
show the habeas court’s conclusion that counsel
performed adequately to be error in light of the
entire record.
Whatley also argues that trial counsel failed to
properly prepare mitigation witnesses for their
testimony. The record supports the habeas court’s
finding that the defense team, through the efforts of
both trial counsel and the defense investigator,
interviewed the mitigation witnesses and were
aware of their potential testimony. Although it
might be understandable that those witnesses now
state that they felt ill at ease because trial counsel
did not give them detailed instructions about what
they should expect at trial, it was not unreasonable
attorney conduct for trial counsel not to rehearse his
witnesses’ testimony with them. As the habeas court

272a
found and as was supported by the testimony of the
defense investigator, trial counsel reasonably chose
not to overly prepare his witnesses, because he
wanted their testimony to come across as sincere.31
Whatley argues that trial counsel failed to obtain
several mental health reports that had been
prepared in the District of Columbia as a result of
his criminal activities there and that trial counsel
failed to interview the experts who authored the
reports. The habeas court’s conclusion that trial
counsel performed adequately with regard to these
reports is reasonable, as it is supported by the
presumption that counsel performed adequately, by
documentary evidence showing that counsel
obtained a signed release from Whatley and
requested the materials from Whatley’s caseworker
in D.C, and by testimony from the defense
investigator confirming that counsel sought the
records from Whatley’s caseworker. This conclusion
is not made erroneous simply because Whatley’s
caseworker, in giving his habeas testimony, could
not recall providing the materials to counsel. The
habeas court also correctly concluded that Whatley
would not have been prejudiced by counsel’s alleged
failure to obtain and use these mental health reports
or to present testimony from the experts who
Compare Turpin v. Christenson, 269 Ga. 226, 234-242 (12)
(B) (497 SE2d 216) (1998) (finding ineffective assistance where
a mitigation case was “cobbled together at the last minute,”
where information relevant to mitigation witnesses’ crossexamination was not discovered by counsel, and where
mitigation witnesses were neither contacted until the last
minute nor prepared to testify).
31

273a
authored them. A review of the reports confirms the
habeas court’s finding that they contain material
that would have been damaging to Whatley’s
mitigation case, including statements that he lacked
remorse for his crimes and believed he could “get
away with anything.” The reports did note signs of
neglect by Whatley’s biological mother and a
potential for psychotic symptoms under stress;
however, these tentative findings would have proved
of little effect, particularly in light of the fact that no
clear findings of mental illness were noted in
another mental health examination performed in
preparation for Whatley’s murder trial.
Trial counsel presented testimony from Whatley
himself suggesting that he was remorseful. However,
Whatley argues that trial counsel rendered
ineffective assistance by failing to present additional
testimony about his alleged remorse from his friends
and from jail guards. This additional testimony
about Whatley’s remorse would not have had a
significant impact on the jury, particularly because
the prosecutor would have been able to explain
Whatley’s emotional reaction to learning that the
victim had died as being a concern for his own
punishment rather than true remorse for his actions.
Whatley argues that trial counsel failed to
present any records from his past other than his
school records. Other than the records discussed
elsewhere in this opinion, Whatley has not
elaborated on what records trial counsel failed to
obtain or how that failure affected his trial.

274a
C. Mental Health Evidence
Whatley also argues that trial counsel rendered
ineffective assistance in his preparation and use of
new mental health evidence. Counsel initially sought
funds from the trial court to obtain his own mental
health expert. The trial court authorized an initial
examination of Whatley by psychologists working for
the state mental hospital, Dr. Karen Bailey-Smith
and Dr. Margaret Fahey. Counsel received two
written reports from the evaluation. Dr. BaileySmith gave inconsistent testimony in the habeas
proceedings, the balance of which suggested that she
possibly spoke with trial counsel but that she could
not specifically recall doing so. The defense
investigator testified that counsel did communicate
with Dr. Bailey-Smith after reviewing her report,
and it is clear that counsel did receive a copy of her
report. Thus, the evidence supports the habeas
court’s finding of fact that counsel did communicate
with Dr. Bailey-Smith. Whatley faults trial counsel
for not providing Dr. Bailey-Smith the mental health
evaluations performed in the District of Columbia as
a result of his criminal proceedings there; however,
she testified in the habeas hearing that they would
not have changed her expert opinions if she had seen
them pre-trial and, therefore, counsel’s use of her
report would not have been affected by his alleged
failure to obtain the records either in a timely
fashion or at all.32 Dr. Bailey-Smith’s report did note

See Holsey, 281 Ga. at 813 (II) (holding that “the critical
issue” in such a case is what the expert consulted at the time of
trial “would have been willing to testify to had he [or she] been
32

275a
that Whatley’s MMPI-2, a personality inventory,
“was suggestive of … significant psychopathology”
and that Whatley used some “idiosyncratic” words.
However, she never concluded that he suffered from
psychosis, and, in fact, she testified at the habeas
hearing that she “didn’t think he had any delusional
thoughts” but merely had “some thought patterns
that we thought were different and bordered
delusional thinking.” Furthermore, her report’s
description of the possible “psychopathology”
suggested that Whatley merely had a “boastful and
egocentric” attitude and that he had a “form of
magical thinking” characterized merely by a belief
that he was “unique and special” and had “unique
and special powers” to influence others. The
diagnostic impression set out in her report contained
hints of mitigation, but overall, it could have been
more aggravating than mitigating. That diagnosis
was as follows: “Rule Out [i.e. there are some signs
of but not enough to reach a diagnosis of] Bipolar
Disorder” and “Personality Disorder NOS [not
otherwise specified] with antisocial, borderline,
narcissistic, and schizotypal features.”
As we noted above, counsel’s use at trial of Dr.
Bailey-Smith’s report would not have been affected if
counsel had not failed, as Whatley alleges, to obtain
the records from mental health evaluations
performed in the District of Columbia as a result of
his criminal proceedings. We further conclude as a
matter of law that the failure of trial counsel to
provided the materials trial counsel allegedly failed to
provide”).

276a
present the records directly to the trial court in a
renewed motion for Whatley’s own expert did not
result in significant prejudice to his ability to prevail
on that motion. The evaluations described in those
records had been conducted more than eight years
before Dr. Bailey-Smith’s, and they reached
conclusions similar to, and in some respects lessfavorable than, the conclusions reached in Dr.
Bailey-Smith’s report. For example, although the
older evaluations referred to Whatley as
“evidenc[ing] symptoms of schizophrenia,” those
symptoms are described in the reports as arising
from Whatley’s use of illegal drugs.
Whatley also argues that trial counsel performed
deficiently in failing to cite certain case law33 or to
request an ex parte hearing in support of his motion
for a defense expert. Even assuming counsel
performed deficiently in these respects, we conclude
that Whatley’s motion for his own expert was not
prejudiced by those deficiencies.
In light of the foregoing discussion, we conclude
as a matter of law that, even given the deficiencies
in counsel’s performance that we have assumed in
our discussion above, Whatley’s defense was not
prejudiced. This is true because, even if counsel had
performed in the manner Whatley now says he
should have, counsel still would reasonably have
declined to renew Whatley’s motion for his own
mental health expert and because the trial court
To the extent Whatley argues that trial counsel failed to do
sufficient legal research in other, unspecified areas, we find
that he has shown neither deficient performance nor prejudice.
33

277a
would have properly denied such a renewed motion
if it had been made.34
D. Shackling During the Sentencing Phase
Whatley argues that his trial counsel rendered
ineffective assistance by failing to object to his being
placed in visible shackles during the sentencing
phase, including during his physical demonstration
of his version of events for the jury.35 The Supreme
Court of the United States decided in 2005, well
after Whatley’s trial and direct appeal, that visibly
shackling a defendant during the sentencing phase
is unconstitutional unless the record shows “‘an
essential state interest’ – such as the interest in
courtroom security – specific to the defendant on
trial.”36 The Warden argues that counsel should not
be regarded as having performed deficiently by
failing to object to the shackling, because the
practice had not yet been established as
unconstitutional.37 However, at the time of
See Lance v. State, 275 Ga. 11, 13-14 (2) (560 SE2d 663)
(2002) (setting forth the standards by which an indigent
defendant’s motion for funds for expert assistance should be
decided).
34

See Whatley, 270 Ga. at 302 (14) (holding that Whatley had
waived his right to complain on direct appeal about his
shackling, because he had failed lo object at trial).
35

Deck v. Missouri, 544 U.S. 622, 624 (125 SC 2007, 161 LE2d
953) (2005) (quoting Holbrook v. Flynn, 475 U. S. 560, 568-569
(106 SC 1340, 89 LE2d 525) (1986)).
36

See Overstreet v. State, 877 NE2d 144, 161-162 (D) (Ind.
2007) (holding that trial counsel’s performance should not be
deemed deficient because counsel failed to anticipate that the
prohibition against shackling defendants during the
37

278a
Whatley’s trial, this Court had already strongly
suggested in dictum that it was unconstitutional to
place visible shackles on a death penalty defendant
during the sentencing phase without a showing of
particular need.38 We therefore assume, at least for
the purpose of this discussion, that trial counsel
performed deficiently in failing to recognize the legal
basis for an objection to visible shackling in the
sentencing phase.
On direct appeal where unconstitutional
shackling has occurred, there is a presumption of
harm that can be overcome only upon a showing by
the State that the shackling was harmless beyond a
reasonable doubt. However, where, as here, the issue
is the ineffective assistance of trial counsel in failing
to object to such shackling, the petitioner is entitled
to relief only if he or she can show that there is a
reasonable probability that the shackling affected
the outcome of the trial.39 In view of the balance of
the evidence presented at his trial, we conclude as a
matter of law that Whatley cannot show that his
trial counsel’s failure to object to his shackling in the
sentencing phase in reasonable probability affected
the jury’s selection of a sentence.
guilt/innocence phase would be extended in Deck, id., to the
sentencing phase); Marquard v. Sec’y for the Dep’t of Corr., 429
F3d 1278, 1313 (IV) (B) (11th Cir. 2005).
See Moon v. State, 258 Ga. 748, 755 (12) (b) (375 SE2d 442)
(1988) (citing Elledge v. Dugger, 823 F2d 1439, 1450-1452 (VI)
(11th Cir. 1987)).
38

See Marquard, 429 F3d at 1312-1314 (IV) (B) (addressing a
visible shackling claim and finding no reasonable probability of
a different outcome in the sentencing phase).
39

279a
E. Ballistics Evidence
Finally, Whatley argues that his trial counsel
rendered ineffective assistance by failing to obtain
funds for a ballistics expert. In support of his
argument, Whatley cites the affidavit testimony of
an expert witness opining that the evidence in
Whatley’s case is inconsistent with Whatley’s having
fired downward toward Tommy Bunn, that it would
have been “virtually impossible” for the bullet that
struck the service counter to have deflected upward
and struck the ceiling, and that the gunshot wound
to Ed Allen’s chest from a range of 15 to 18 inches
could have been inflicted after Allen had stepped
over Bunn and had gone around the service counter
pursuing Whatley. The habeas court filed an order
striking the affidavit, among others, because it was
filed without authorization after the close of the
evidentiary hearing.
The affidavit alleges that the gunpowder residue
pattern associated with the bullet mark on the
service counter demonstrates that the bullet was
traveling on a trajectory somewhat level with the
floor, not sharply downward toward Tommy Bunn.
However, this testimony, coupled with the stilluncontradicted trial testimony showing that the
bullet that struck the counter very close to Allen’s
position was fired from a range of approximately
eight inches, would have led the jury to conclude, at
the most, that the shot was intended for Allen and
was fired at very close range before Whatley had
retreated from the counter. The affidavit’s assertions
that the shot that struck the counter could not have

280a
also struck the ceiling and that the shot to Allen’s
chest could have been inflicted as Whatley was
exiting and being pursued fail to shed light on the
question of whether Whatley fired his pistol before
Allen armed himself, particularly given the fact that
Whatley fired at least one shot in the direction of
either Allen or Bunn from a distance of only eight
inches from the counter. Thus, even assuming trial
counsel should have obtained expert testimony like
that contained in the affidavit, we conclude as a
matter of law that Whatley’s defense did not, by his
being deprived of such testimony at trial, suffer
prejudice sufficient to support his ineffective
assistance claim. Accordingly, even assuming the
habeas court erred40 in refusing to consider
Whatley’s untimely affidavit, such error would be
harmless.
F.

Combined Effect of Counsel’s Deficiencies

Considering the combined effect of the
deficiencies we have assumed in the discussion
above, we conclude that those deficiencies would not

But see Bloomfield v. Bloomfield, 282 Ga. 108, 110 (1) (d)
(646 SE2d 207) (2007) (noting the trial court’s “broad discretion
to reopen evidence” and citing Page v. State, 249 Ga. 648, 650651 (2) (c) (292 SE2d 850) (1982)); Village Creations, Ltd. v.
Crawfordville Enterprises, Inc., 232 Ga. 131, 132-133 (206
SE2d 3) (1974) (finding no abuse of discretion where the trial
court refused to consider an affidavit filed after the deadline
that had been set by the trial court).
40

281a
in reasonable probability have changed the outcome
of either phase of Whatley’s trial.41
VI. Abandoned Claims
In a footnote, Whatley purports to incorporate by
reference “all arguments and claims raised in the
habeas court.” We deem any additional claims not
addressed in this opinion to have been abandoned.42
Judgment affirmed. All the Justices concur,
except Hunstein, P.J., who concurs in the judgment
only as to Division V (D).

See Holsey, 281 Ga. at 812 n.1 (holding that the combined
effect of trial counsel’s deficiencies should be considered).
41

See Supreme Court Rule 22; Head v. Hill, 277 Ga. 255, 269
(VI) (A) (587 SE2d 613) (2003) (finding death penalty habeas
claims abandoned under Supreme Court Rule 22).
42

282a
APPENDIX E
No.13-12034
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
D.C. Docket No. 3:09-cv-00074-WSD
FREDERICK R. WHATLEY,
Petitioner-Appellee
Cross Appellant,
v.
WARDEN, GEORGIA DIAGNOSTIC AND
CLASSIFICATION CENTER,
Respondent-Appellant
Cross Appellee.
Appeals from the United States District Court for
the Northern District of Georgia
Before ED CARNES, Chief Judge, WILSON,
WILLIAM PRYOR, MARTIN, JORDAN,
ROSENBAUM, JILL PRYOR, NEWSOM, BRANCH,
GRANT, LUCK, and LAGOA, Circuit Judges.
BY THE COURT:
A petition for rehearing having been filed and a
member of this Court in active service having
requested a poll on whether this case should be

283a
reheard by the Court sitting en banc, and a majority
of the judges in active service on this Court having
voted against granting a rehearing en banc, it is
ORDERED that this case will not be reheard en
banc.
MARTIN, Circuit Judge, dissenting from the denial
of rehearing en banc:
Frederick R. Whatley is a prisoner on death row
in Georgia. A panel of the court denied his federal
habeas petition. Whatley v. Warden, 927 F.3d 1150
(11th Cir. 2019). I asked the full court to rehear Mr.
Whatley’s case en banc, because I believe the panel
opinion applied the wrong legal standard in deciding
whether, under 28 U.S.C. § 2254(d),1 to defer to the
Georgia Supreme Court’s denial of Mr. Whatley’s
claim that his counsel was ineffective during the
penalty phase of his trial. This court is bound by the
rule pronounced by the Supreme Court in Wilson v.
Sellers, 584 U.S.___, 138 S. Ct. 1188 (2018), as well
as our own precedent in Meders v. Warden, 911 F.3d
1335 (11th Cir. 2019). This precedent requires our
court to review “the specific reasons given by the
state court” for denying the petitioner’s claim “and
defer[] to those reasons if they are reasonable.”
Wilson, 138 S. Ct. at 1192; see also Meders, 911 F.3d
at 1349. The panel’s analysis in Whatley conflicts
with this precedent by suggesting that federal courts
may look beyond the reasons a state court gives for
denying habeas relief. See 927 F.3d at 1182. I believe
This statute is a part of the Antiterrorism and Effective Death
Penalty Act of 1996. I refer to it as AEDPA.
1

284a
this court should hear this case en banc, in order to
fix the panel’s departure from established law, and
make clear the standard for assessing the
reasonableness of a state court’s rationale, which
limits us to the specific reasons given by the court. I
dissent from the court’s decision to let the Whatley
panel opinion stand.
Whatley begins by correctly articulating the
§ 2254(d) analysis:
When a district court reviews a state court’s
decision under AEDPA, it must first consider
the claim as it was presented to the state
court. Next, it considers the state court’s
decision. If the state court applied the correct
Supreme Court precedent … the district
court decides whether the state court applied
the Supreme Court precedent unreasonably.
The district court also considers whether the
state court’s decision was based on an
unreasonable determination of the facts.
Whatley, 927 F.3d at 1181 (citations omitted).
However, at three points in its analysis, the Whatley
opinion suggests that the actual reasons a state
court gives for denying habeas relief play a minimal
role in the federal habeas court’s decision to defer to
the state court’s ruling. First, Whatley says “under
[§ 2254(d)], we’re most concerned with the reviewing
[state] court’s ultimate conclusion, not the quality of
its written opinion.” Id. at 1177 (quotation marks
omitted). It continues by saying “our review is not
limited to the reasons the [state] Court gave in its
analysis.” Id. at 1178. Third, it says “we are not

285a
limited to the reasons the [state] Court gave and
instead focus on its ultimate conclusion.” Id. at 1182
(quotation marks omitted). The Whatley opinion
concludes its recitation of the legal standard by
saying this Court “must ‘determine what arguments
or theories could have supported the state court’s
decision.’ Id. (first emphasis added and alteration
adopted) (quoting Harrington v. Richter, 562 U.S. 86,
102, 131 S. Ct. 770, 786 (2011)).
These statements conflict with precedent that
binds federal judges in deciding the extent to which
we defer to a state court’s decision during our review
of those decisions on federal habeas review. See 28
U.S.C. § 2254(d). The Supreme Court set the rule
that must govern our § 2254(d) deference analysis in
Wilson v. Sellers, 138 S. Ct. 1188, and this Court
applied that rule in Meders v. Warden, 911 F.3d
1335. Neither Wilson nor Meders is cited anywhere
in the Whatley opinion.
Section 2254(d) bars federal courts from issuing
a writ of habeas corpus to a state prisoner on any
claim adjudicated on the merits in state court unless
the state court’s decision “was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States” or “was based
on an unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d). Section 2254(d)
sets a high (although not insurmountable) bar.
Williams v. Taylor, 529 U.S. 362, 402-13, 120 S. Ct.
1495, 1518-23 (2000). Where the last state court to

286a
address the prisoner’s claims issued a reasoned
decision, the Supreme Court tells us that the
deference analysis is a “straightforward inquiry.”
Wilson, 138 S. Ct. at 1192. We are to “simply
review[] the specific reasons given by the state court
and defer[] to those reasons if they are reasonable.”
Id. “Deciding whether a state court’s decision
involved an unreasonable application of federal law
or was based on an unreasonable determination of
fact requires the federal habeas court to train its
attention on the particular reasons—both legal and
factual—why the state courts rejected a state
prisoner’s federal claims.” Id. at 1191-92 (quotation
marks omitted).
The deference analysis set forth in Whatley
cannot be squared with the Supreme Court’s rule
stated in Wilson. Indeed, Whatley makes no effort to
square them. Yet, Wilson made clear that it is not
proper for federal judges to try and come up with
any rationale that could have supported the state
court’s decision. Instead, we must defer to the
specific reasons given by the state court, so we must,
in turn, focus on the particular reasons the state
court gave.
I recognize that Wilson was decided in a
different procedural posture than that presented by
Mr. Whatley’s case.2 But that does not change
held that federal courts “should ‘look through’ [an]
unexplained [state court] decision to the last related state-court
decision that does provide a relevant rationale” and then
“presume that the unexplained decision adopted the same
reasoning.” 138 S. Ct. at 1192. Federal courts must decide
2Wilson

287a
Wilson’s mandate that our court’s decision about
whether to give AEPDA deference to a state court
ruling must be based on the reasons the state court
gave, as opposed to whatever reason a federal court
can come up with.
The Whatley opinion also ignores this Court’s
precedent that reinforces the Wilson analysis. Since
Wilson, this court has consistently looked to the
specific reasons the last reasoned state-court
decision gave and examined whether those reasons
merit AEDPA deference. See, e.g., Meders, 911 F.3d
at 1349 (“Deciding whether a state court’s decision
involved an unreasonable application of federal law
requires the federal habeas court to train its
attention on the particular reasons—both legal and
factual—why state courts rejected a state prisoner’s
federal claims, and to give appropriate deference to
that decision.” (citation omitted and alteration
adopted)); see also Hawthorne v. Sec’y, Dep’t of Corr.,
786 F. App’x 896, 899 (11th Cir. 2019) (per curiam)
(unpublished) (“Wilson informs our analysis.”); Junes
v. Fla. Dep’t of Corr., 778 F. App’x 639, 641 (11th Cir.
2019) (per curiam) (unpublished) (“The district court
must consider the particular factual and legal
reasons that the state court rejected the prisoner’s
federal claims.”); Johnson v. Sec’y, Dep’t of Corr., 737
F. App’x 438, 441 (11th Cir. 2018) (per curiam)
whether to defer based on the reasons given by the last state
court to issue a reasoned decision. Id. at 1195-96. Here, the last
state court to address Mr. Whatley’s claims was the Georgia
Supreme Court, so there is no need to rely on Wilson’s “look
through” presumption. See generally Whatley v. Terry, 668
S.E.2d 651 (Ga. 2008).

288a
(unpublished) (explaining standard set forth in
Wilson v. Sellers). Our prior precedent rule required
the Whatley panel to follow Meders. See United
States v. Archer, 531 F.3d 1347, 1352 (11th Cir.
2008) (“[A] prior panel’s holding is binding on all
subsequent panels unless and until it is overruled or
undermined to the point of abrogation by the
Supreme Court or by this court sitting en banc.”).
But it did not.
I agree with the Whatley opinion when it says
the Georgia Supreme Court did not have to walk
through every step of a “hypothetical retrial” of Mr.
Whatley’s penalty phase. Whatley, 927 F.3d at 1182.
It is not my purpose to suggest the Georgia court
must take this walk. I know that Wilson does not
mean that federal judges must (or even may)
“flyspeck” the state court decision. Meders, 911 F.3d
at 1349. But it does mean that “we are to focus not
merely on the bottom line ruling of the decision but
on the reasons, if any, given for it.” Id. The Whatley
majority said it was not required to do as Meders
instructs. Thus, it promotes an incorrect statement
of law.
The Whatley majority looks mainly to
Harrington v. Richter, 562 U.S. 86, 131 S. Ct. 770
(2011), and Gill v. Mecusker, 633 F.3d 1272 (11th
Cir. 2011). See 927 F.3d at 1182. But Richter never
advocates that federal judges look only to the state
court’s resolution of the case, as opposed to its
reasoning. In Richter, the Supreme Court held that
AEDPA deference applies even when the state court
gives no reasons for its decision. 562 U.S. at 98, 131

289a
S. Ct. at 784 (“Where a state court’s decision is
unaccompanied by an explanation, the habeas
petitioner’s burden still must be met by showing
there was no reasonable basis for the state court to
deny relief.”). Nevertheless, Richter does not tell us
to look beyond the reasons the state court actually
gave. Nor does it license federal judges to invent any
reason that could support the state court’s resolution
of the case. Rather, it established a presumption
that a state court adjudicated a claim on the merits
when it gives no other reason for its decision. Id. at
98-99, 131 S. Ct. at 784-85. Richter recognized that
this “presumption may be overcome when there is
reason to think some other explanation for the state
court’s decision is more likely.” Id. at 99-100, 131 S.
Ct. at 785 (citing Ylst v. Nunnemaker, 501 U.S. 797,
803, 111 S. Ct. 2590, 2594 (1991)). In Wilson, the
Court reiterated that this presumption is overcome
where an earlier state court decision sets forth
reasons. 138 S. Ct. at 1195-96. Wilson told us we
must presume the unexplained state court decision
relied on the same rationale as the last reasoned
opinion, absent some reason to think otherwise. Id.
And it told us to look to the reasons the state court
gave, not those we think up ourselves. Id. Finally, if
it is true that Gill reads Richter as requiring us to
focus on the state court’s conclusion to the exclusion
of its rationale, see Gill, 633 F.3d at 1290-91, then
Gill has been “undermined to the point of abrogation
by the Supreme Court,” because of the Wilson
decision. See Archer, 531 F.3d at 1352.
I dissent from the denial of rehearing en banc
because as written, Whatley contains an incorrect

290a
statement of law. I believe the Whatley opinion
requires our en banc court to make clear that this
court’s evaluation of the reasonableness of the
Georgia Supreme Court’s rationale in denying
Mr. Whatley relief must be limited to the specific
reasons that court gave, and that it is improper for
our court to supply its own. I dissent from the court’s
vote declining to rehear Mr. Whatley’s case.

